<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, MARCH 11, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
     The subcommittee met at 9 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
     Present: Senators Dorgan, Murray, Johnson, Landrieu, Reed, 
Lautenberg, Harkin, Tester, Bennett, Cochran, Bond, Alexander, 
and Voinovich.

                      DEPARTMENT OF DEFENSE--CIVIL

                         DEPARTMENT OF THE ARMY

                       Corps of Engineers--Civil

STATEMENT OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Good morning. We'll call to order the 
hearing. This is a hearing of the Subcommittee on Energy and 
Water of the Senate Appropriations Committee. We appreciate all 
of you being here.
    Today, the subcommittee will take testimony on the fiscal 
year 2011 budget requests for the U.S. Army Corps of Engineers 
and for the Department of the Interior.
    Testifying for the Corps will be Jo-Ellen Darcy, the 
Assistant Secretary of the Army for Civil Works; Lieutenant 
General Robert Van Antwerp, Chief of Engineers for the U.S. 
Army Corps of Engineers.
    Testifying for the Interior will be Anne Castle, Assistant 
Secretary for Water and Science at the Department of the 
Interior, and Michael L. Connor, Commissioner of the Bureau of 
Reclamation.
    I appreciate all of you taking time to be with us this 
morning.
    General Van Antwerp, I know you are aware of the National 
Weather Service predictions of a very high likelihood of major 
flooding in a number of communities in North Dakota and 
Minnesota and throughout the Midwest this spring. I've already 
asked the Corps districts that cover North Dakota to do as much 
advance preparation as is possible, and if the flooding is as 
severe as some predict, I'll be calling on you for much more 
help during the flood fight. Almost everyone remembers the 
weeks in which the Nation watched every single day as they were 
on a knife's edge, wondering whether the dikes would hold on a 
substantial, major flood in Fargo and Moorhead. So, we might be 
right back into that in just the coming weeks. Thank you for 
the work the Corps is doing.
    Regarding the fiscal year 2011 budget, the President has 
talked about an overall discretionary spending freeze for 
fiscal year 2011. That, however, has translated into a 9.3 
percent cut for the Corps budget and a 2 percent cut for the 
Bureau budget. In my judgment, those are the wrong agencies to 
be cutting in the current economic situation. The Recovery Act 
was a shot in the arm--no question about that--but we should be 
building on that effort with more robust investments in water 
projects especially, not returning to chronically underfunding 
our needs.
    The Corps and the Bureau are agencies that we depend on to 
build the water infrastructure that moves our Nation's cargo, 
to reduce the impact of flooding, to provide irrigation water, 
to provide hydropower, and to restore our environment. Nearly 
all of the work is contracted to the private sector, which 
means that there are new jobs for our citizens when we get 
these projects up and running. Not only does the work of the 
agencies provide jobs now, but the infrastructure that is 
constructed continues to benefit the economy. It's an asset for 
this country for decades in the future, which then, in turn, 
creates additional new jobs.
    Unfortunately, in my opinion, the budget request ignores 
these facts and reflects the consistent underfunding that we've 
seen in too many prior budgets. The fiscal year 2011 budget for 
the Corps of Engineers proposes $4.939 billion, which is $506 
million below fiscal year 2010 enacted of $5.45 billion. Not 
only is the fiscal year 2011 amount less than what was enacted 
last year, it's 4 percent below what the administration 
proposed last year in their budget.
    Secretary Castle and Commissioner Connor, the two major 
project accounts for the Department of the Interior under the 
jurisdiction of this subcommittee are the Central Utah Project 
Completion Act and water and related resources for the Bureau 
of Reclamation. Your budgets are relatively flat compared to 
fiscal year 2010. While the Central Utah Project is up $1 
million, the Bureau of Reclamation is down $23 million from the 
current year. A flat budget is a declining budget for your 
agencies, and that's just a fact because you have additional 
salary and other expenses from inflation. Personnel, material, 
contract costs continue to increase. So, you are accomplishing 
less work with the same money based on the budget request. The 
needs for water and power, particularly in the west, continue 
to rise, along with population increases in western States.
    I know that all of you, as members of the administration, 
in your prepared remarks, will tell us, as you must today, that 
this is a responsible budget request for your agencies, and it 
meets the country's needs. I have served here a long, long 
time, and your role here is to reflect and support the 
administration's budget. I understand that and am not surprised 
by it. I know of only one occasion where an official of an 
administration came and sat at that table, I think it was 
former Congressman Parker, and he was just unbelievably honest 
when asked, is this enough money for your agency? He said of 
course not; we're dramatically underfunded. The next day, he 
was dramatically out of work. So, we have not gotten such a 
burst of candor since, and that was probably 10 years ago.
    But I must tell you, from my personal standpoint, I do not 
think this is a good budget request for the Corps of Engineers 
and for the Bureau of Reclamation.
    The top six construction projects in the Corps budget 
account for $771 million of the $1.7 billion requested for 
construction work all across the United States. That's 45 
percent of the total just for six projects. Only one of the six 
projects has a benefit-to-cost ratio. The other five are for 
dam safety activities, environmental restoration, and 
environmental compliance.
    In the general investigation account, two studies account 
for 30 percent of the money proposed by the administration in 
that account. Nearly half of the funding goes to national 
programs, rather than the studies of water resource needs. 
There are proposed new construction starts for a $1.8 billion 
environmental restoration project. One of the studies that will 
be funded, if we accept this budget, would lead to a $1 billion 
flood control project.
    The question that we have to ask now is: How are we going 
to pay for them? We need to plan for that. I think, in many 
cases, these are very important priorities. The metrics and the 
budget criteria, I think, seem to drive the budget out of 
balance. And there's certainly nothing about the criteria 
that's any better than the criteria this committee uses to put 
together our approach, our annual spending recommendations. Our 
decisions are generally based on the law and the long-standing 
policy understandings between the executive and the legislative 
branch.
    The decisions that the administration makes in their budget 
generally is the basis for the annual spending plan that this 
subcommittee develops, but the subcommittee will have no choice 
this year, frankly, but to make some changes in the fiscal year 
2011 spending plan to rectify what I think are some of the 
inequities. I can't speak for everybody on the subcommittee, 
but I would say that I think the consensus of this subcommittee 
will not be to support cutting a half a billion dollars out of 
the Corps of Engineers' funding at this time. It is just not a 
thoughtful recommendation.

                           PREPARED STATEMENT

    I do have a longer statement for the record, which goes 
into much more detail, but I wanted to highlight just a few of 
the issues.
    [The statement follows:]

             Prepared Statement of Senator Byron L. Dorgan

    Good morning, the hearing will come to order.
    Today, the subcommittee will take testimony on the fiscal year 2011 
budget requests for the U.S. Army Corps of Engineers and the Department 
of Interior.
    Testifying for the Corps will be: Jo-Ellen Darcy, Assistant 
Secretary of the Army for Civil Works.
    Ms. Darcy, Congratulations on your confirmation Assistant 
Secretary. This is not our first meeting, but it is our first hearing 
together. I look forward to working with you on the many water resource 
problems that we have across this country.
    Lieutenant General Robert L. Van Antwerp, Chief of Engineers for 
the U.S. Army Corps of Engineers.
    General Van Antwerp, always good to see you, welcome.
    As I am sure you are both aware, the National Weather Service has 
predicted a high likelihood of major flooding in a number of 
communities in North Dakota as well as throughout the Midwest this 
spring. I have already asked the Corps Districts that cover North 
Dakota to do as much advance preparation as possible and if the 
flooding is as severe as some are predicting, I will be calling on both 
of you for help during both the flood fight and the recovery.
    Testifying for the Department of Interior will be: Anne Castle, 
Assistant Secretary for Water and Science, Department of the Interior.
    Ms. Castle, Congratulations to you on your confirmation as 
Assistant Secretary for Water and Science. I look forward to working 
with you on many western water issues.
    Michael L. Connor, Commissioner, Bureau of Reclamation.
    Commissioner Connor, it is good to have you back with us.
    As I am sure you are aware, I am quite passionate about issues 
concerning rural water supply, particularly on unmet promises from 50 
years ago on the Garrison Diversion project. I am glad to see that your 
budget has provided a little more funding to address these long overdue 
promises.
    Thank you all for appearing before us today.
    As you know, this will be my last general budget oversight hearing 
of the Corps and the Bureau's budgets. The one constant in the Senate 
is change and assuming you stay in your positions, you will be 
testifying before a different Chairman next year.
    When I assumed the Chairmanship of Energy and Water Subcommittee in 
January 2007, I was quite familiar with the work of both of your 
agencies in North Dakota from my many years in the Senate and the 
House.
    However, upon becoming Chairman, I quickly realized the impacts 
that your programs have to the national economy.
    More importantly, my colleagues quickly let me know how important 
your programs were to nearly all of them. It seemed they all had 
funding issues for on-going projects.
    It appears that the administration's fiscal year 2011 budget will 
be no different in that regard.
    The President has talked about an overall discretionary spending 
freeze for fiscal year 2011. That has translated into a 9.3 percent cut 
for the Corps budget and a 2 percent cut for the Bureau.
    These are the wrong agencies to be cutting during the current 
economic situation. We should be increasing infrastructure spending now 
to boost the economy. The Recovery Act was a great shot-in-the-arm, but 
we need to build on that with more robust investments not return to 
underfunding our needs.
    The Corps and the Bureau builds the water infrastructure that moves 
our Nation's cargo, reduces the impacts of flooding, provides 
irrigation water, hydropower and restores our environment.
    Nearly all of their work is contracted to the private sector which 
means jobs for our citizens. Not only does the work of these agencies 
provide jobs now, the infrastructure that is constructed continues to 
benefit the economy for decades in the future which in turn creates 
more jobs.
    Unfortunately, the budget request ignores this fact and reflects 
the consistent underfunding that we have seen in prior budgets.
    The President's fiscal year 2011 budget for the Corps of Engineers 
proposes $4.939 billion, which is $506 million below the fiscal year 
2010 enacted amount of $5.445 billion.
    Not only is the fiscal year 2011 amount less than what was enacted 
in fiscal year 2010, it is 4 percent below what the administration 
proposed for fiscal year 2010. When you look at the budget details on 
an account by account basis, the difference is more striking.
  --General Investigations is down $56 million from the current year.
  --Construction, General is down $341 million from the fiscal year 
        2010 enacted amount. The fiscal year 2011 request is even down 
        from the administration's fiscal year 2010 proposal, yet the 
        request manages to find $29 million for two new construction 
        projects.
  --The Mississippi River and Tributaries account is down $100 million 
        from the current year.
  --O&M is down $39 million from the fiscal year 2010 enacted amount. 
        O&M has been essentially flat for a number of years even though 
        personnel, material, and equipment costs have continued to 
        rise.
    To provide current year levels for the Corps major accounts would 
require an additional $536 million.
    Secretary Castle and Commissioner Connor the two major project 
accounts for the Department of Interior under the jurisdiction of this 
subcommittee are the Central Utah Project Completion Act and Water and 
Related Resources for the Bureau of Reclamation. Your budgets are 
relatively flat when compared to fiscal year 2010.
    The Central Utah Project Completion Account is proposed at $1 
million more than current year.
    The Bureau of Reclamation is down $23 million from the current 
year.
    A flat budget is a declining budget for your agencies. Personnel, 
material and contract costs continue to increase, so you are 
accomplishing less work this year based on this budget request.
    The needs for water and power in the West continue to rise along 
with the population increases in the western States.
    I know that all of you as loyal members of the administration in 
your prepared remarks are going to tell us how responsible this budget 
request is for your agencies and how it meets the country's needs.
    I know this because the last person that came to the Hill and 
actually told the truth about the administration's budget was fired. I 
don't want to see any of you fired so I will say what you can't.
    Our national water resource needs continue to increase as our 
population grows and shifts around the country. However the Federal 
budget for these needs grows much more slowly, if at all.
    In both agencies, budget development seems to be predicated on the 
notion that you can develop criteria to determine a finite group of 
``nationally important'' projects.
    I have heard the arguments that the projects funded are ``national 
priorities'' and that the metrics you develop allow you to make the 
``right'' decisions about what should be funded. I am sure that all of 
you will make the same arguments in your testimony today.
    However, the criterion seems to shift annually not only when we 
change administrations, it also happens within the same administration. 
It has happened in this administration.
    For example, as I mentioned earlier, the Corps O&M budget for 
fiscal year 2011 is proposed at $39 million less than the fiscal year 
2010 enacted amount and $143 million less than the administration 
proposed just last year.
    This means either more work is being done with less money--not 
likely; maintenance costs have decreased--again, not likely; or 
periodic dredging costs for 2011 are drastically reduced over 2010--
again, not likely.
    The only conclusion left is that you have arbitrarily reduced the 
O&M account to meet a budget ceiling.
    Another example is in the construction account. The budget proposes 
two new start projects while proposing to invest $341 million less in 
the Construction, General account than was enacted in fiscal year 2010.
    More surprising is that the fiscal year 2011 CG budget is $28 
million less than the administration proposed in their fiscal year 2010 
budget. Yet there was room for two new construction projects. One of 
these new start projects is authorized at $1.8 billion over a 10 year 
timeframe.
    I have to wonder how this project will be shoehorned into the 
administration's out-year budget based on your recently delivered 5-
year development plan.
    The 2011 amount displayed in both the Base and Enhanced outlooks 
does not appear to accommodate this request with the other ongoing 
work. This makes me suspicious as to whether a funding stream for this 
project has been thought out or if this project was added for other 
reasons.
    If I am suspicious of the basis for your new start criteria, I am 
downright skeptical of your other budgetary criteria.
    A constant drumbeat of people who oppose projects added by Congress 
is that all of the projects that Congress adds are wasteful spending, 
but everything that is proposed by the administration is beyond 
reproach.
    How can anyone make that determination? One certainly cannot tell 
from the budget justification documents.
    Of the 95 projects proposed for the Corps Construction, General 
account only 49 have benefit to cost ratios. The other 46 have benefits 
that have been assumed to be greater than the costs; however we have no 
way of comparing one of these to another to determine if the proper 
choices were made. We are dependent on your metrics which, as I have 
noted, have a tendency to change.
    For the 49 projects that have benefit to cost ratios, what are the 
metrics for substantial life savings benefits? One life? 10 lives? 100 
lives?
    Why is a benefit to cost ratio of 2.5 a better value for the Nation 
than a project with a benefit to cost ratio of 1.7? Shouldn't we be 
comparing excess benefits over cost if we are determining value?
    We don't really have any way to determine if the metrics that you 
used to determine which projects to fund are the ``best'' metrics or 
are merely a convenience for hitting the budget amounts that were 
decided by OMB.
    Despite what anyone may say, your metrics and criteria are no 
better than the criteria this subcommittee uses to develop its' annual 
spending recommendations.
    Our decisions are generally based in law and longstanding policy 
understandings between the executive and legislative branch.
    This subcommittee would never dismiss the President's budget 
request when trying to develop an appropriation bill.
    However, projects that Congress believes are important that meet 
the legal criteria for Federal investment, but not the specialized 
criteria for your budget, are dismissed annually in your budget--as if 
they don't exist.
    If they were considered, you would need to include the costs to 
bring these projects to some type of orderly conclusion.
    An example is the Corps CG account. The administration's fiscal 
year 2011 CG proposal consists of 95 projects as opposed to the 258 
projects funded in the fiscal year 2010 enacted amount.
    I would remind you, as Congress has previously mentioned in law, 
that once the President signs the appropriations bill into law, all of 
the projects become the responsibility of the administration--not just 
the ones the administration supports.
    I am pleased that you have provided budget justifications 
concurrent with the budget submission this year and that you have 
provided factsheets for those projects for which you did not budget but 
were funded in the previous year by Congress.
    This is a step in the right direction. However, the costs of not 
continuing enacted projects should be addressed in your budget 
proposals.
    To ignore them, as you and previous administrations have done and 
continue to do, is intellectual dishonesty and it keeps Congress and 
the public ``in the dark'' about the true costs and needs of your 
programs.
    Finding a new and better prioritization system is not the answer to 
the problems of consistently underfunding infrastructure.
    The only way to address this funding crisis is for the 
administration to provide more funding for these infrastructure 
investments.
    Also I cannot stress enough that infrastructure spending means 
jobs, both now and in the future.
    The decisions that the administration makes in their budget 
proposal generally form the basis for the annual spending plan that 
this subcommittee develops.
    However, the subcommittee will have no choice but to make 
significant changes to the fiscal year 2011 spending plan to rectify 
some of the inequities in your budget proposal.
    I look forward to the witness' testimony and will have some 
questions at the appropriate time.

    Senator Dorgan. I want to mention to my colleagues that we 
have a fair number of senators who will be attending this 
morning, so what we will do is have seven-minute rounds of 
questions. Since the FAA reauthorization bill is on the floor 
of the Senate, which Senator Rockefeller and I are jointly 
handling, and because before I go to the floor of the Senate, I 
have to go to the Commerce Committee for a very brief 
appearance on the Comcast-NBC proposed merger, Senator Tester 
has agreed to take the chair when I have to depart in about an 
hour.
    I appreciate my colleagues' being here. Senator Bennett, I 
believe, is stuck in traffic. That's an inelegant thing to say, 
but not unusual here in Washington, DC. But he's on his way, 
and when he comes, we will recognize him for an opening 
statement. What I'd like to do is offer opening statements, if 
we can make them very brief, to my colleagues. We'll then have 
the statements by the witnesses and then have ample time for 
questioning this morning.
    Do any of my colleagues wish to make an opening statement?
    Senator Voinovich. I'd like to.
    Senator Dorgan. All right, Senator Voinovich.

                STATEMENT OF SENATOR GEORGE V. VOINOVICH

    Senator Voinovich. Thank you. I thank you for holding this 
hearing. This is my 2nd year on the Appropriations Committee, 
but I've been dealing with the Army Corps of Engineers' budget 
for 12 years, and I still shake my head at the inadequacy of 
this budget--it has been that way for almost ever--and a 
backlog of $60 billion for unfunded Corps projects. The Corps 
has taken on not only the traditional projects, but now 
environmental restoration. And, Mr. Chairman, we've tried to 
figure out some priority or knock some of them off the list. We 
have never been successful in doing that because nobody wants a 
project off the list.
    I'm particularly concerned about the Great Lakes. The Corps 
put together recommendations several years ago in terms of what 
should be done with the Great Lakes. And the fact is that they 
recommended some $200 million a year to handle it, and the 
budget has always been about $100 million. So, it's half of 
what's needed to get the job done.
    For years, I've raised the issue of urgent needs facing the 
navigation system on the Great Lakes. Every year, hundreds of 
millions of tons of goods are transported through the lakes. 
Waterways and communities throughout the Great Lakes are tied 
to this travel. The Army Corps of Engineers estimates a backlog 
of 17 million cubic yards of dredging at commercial Great Lakes 
harbors and channels. This dredging backlog has been 
exacerbated by the historic low water levels, but the result is 
a negative impact on shipping. Several freighters have gotten 
stuck in Great Lakes channels. Ships have had to carry reduced 
loads, and some shipments have simply ceased altogether.
    So, we benefit from the Great Lakes navigation system. One 
of the things that I don't understand is that, despite the 
significant backlog of Corps work, the Harbor Maintenance Trust 
Fund is approximately a $4 billion surplus that is growing each 
year, $4 billion. And, as we know, the money collected from 
that fund is intended for a specific use, maintaining harbors 
and channels; yet, OMB uses the surplus as cost savings. It's 
another one of those gizmos that you use trust funds to balance 
the budget.
    So, I'm very, very concerned about it, and I think, 
Secretary Darcy, you know how concerned all of us are from the 
Great Lakes about something that some people snicker at, but 
it's these Asian carp. I just want to say that if they get into 
the Great Lakes, we're talking about losing a $7 billion 
fishery. And as the former Mayor of Cleveland and Governor of 
Ohio and one who has worked to restore the lakes--I call it the 
second battle of Lake Erie--at this stage in my life, I do not 
want to see that happen. That is in addition to the fishery. 
That lake is responsible for recreation and all the other 
things. And if it goes that direction--we lose the fishery, 
it's going to have an indirect effect on everything else that 
happens on the Great Lakes. So, I hope you understand how 
serious we are about making sure that this doesn't happen.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Bennett.

             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you very much, Mr. Chairman. I 
apologize to you and the other members of the subcommittee for 
not gauging the traffic properly and not being here on time, 
but I appreciate the opportunity to comment here. We welcome 
Secretary Castle and Secretary Darcy and General Van Antwerp 
and Commissioner Connor.
    And, Commissioner Connor, particularly, I want to say 
welcome to you. You've been very helpful to me over the years 
when you were on the Senate side of things, and I want to make 
sure we take this opportunity to acknowledge that.
    I also want to recognize that Reed Murray, who is here, 
with the Central Utah project--that's a project, obviously, 
very important to my State. And I want to thank Reed for the 
great things your office is doing for water development in my 
State. In Utah, water is--the old line ``Whiskey is for 
drinking and water is for fighting.'' And maybe we don't drink 
as much whiskey as some others, but we do fight over water. The 
other line I've heard is that it's better to be head of the 
ditch than head of the church, in terms of where you are with 
respect to water.
    Now, I'm not going to reiterate the funding amounts for the 
various accounts. I agree with the chairman that these agencies 
are underfunded. My greatest concern with this budget is how it 
fails to address our Nation's aging infrastructure in an 
adequate fashion.
    Many of the Bureau of Reclamation projects are over 100 
years old. The Corps's infrastructure doesn't fare much better. 
Last summer, we had a canal in Logan, Utah--an irrigation 
canal--give way. The breach cost the lives of three people in 
the home beneath the canal, resulted in the destruction of 
homes and properties throughout the area, and while this is 
relatively small compared to Bureau and Corps projects, it is a 
sobering example of what could happen on a larger scale if we 
fail to protect our infrastructure adequately.
    We addressed this issue last year, Mr. Chairman, in the 
omnibus public lands bill, which both you and I strongly 
supported, and we put in an aging infrastructure title that 
would allow the Bureau of Reclamation and water contractors to 
address these issues in a reasonable manner, and the 
President's budget includes no funding for this purpose 
whatsoever.
    And I'm also concerned that this cost-share and the 
authority may be prohibitive for the project partners to 
afford. We need to continue to work to adequately address these 
issues before there is a major infrastructure failure.
    Now, as I said, the Corps's infrastructure is in not much 
better shape. Levees constructed 50 or more years ago are not 
built to current design standards. And as FEMA puts 
requirements for levee recertification on local communities, it 
is costing local communities millions of dollars, and, in some 
cases, the levees that communities have depended upon no longer 
provide 100-year flood protection, which will mean a triggering 
of a remapping of the flood plain.
    And another area that jumps out at me is the unbalanced 
focus--in my view, unbalanced--on environmental restoration, 
which will take up 31 percent of the Corps's construction 
budget, an allocation that comes at the expense of other 
projects that are in the traditional water resource missions of 
the Corps. For example, only 22 percent of the local--total 
construction budget goes to what the Corps defines as high-
performance projects, also known as projects with high benefit-
to-cost analysis. The project with the highest benefit-to-cost 
ratio of 22 to 1--that's the Sacramento River bank protection--
received only $10 million in this budget request. Now, 
theoretically, that means that, for a $10 million investment, 
the Nation would get $220 million in benefits. And the 
Everglades restoration project, on the other hand, gets $180 
million in this budget with no cost-benefit ratio listed.
    So, $10 million that, presumably--in actual fact, it 
doesn't all work out that way, but the analysis is that $10 
million is worth $220 million, but instead of putting the kind 
of money that would produce the 22 to 1 ratio, we're saying no; 
we're only going to starve it--we're going to starve with only 
$10 million, but we're going to put $180 million into the 
Everglades, for which there is no analysis available.
    Now, if the administration is going to underfund our 
national infrastructure to this extent, there must be a more 
transparent method of comparing the relative values of these 
projects so that we know that the taxpayers are not being 
short-changed. I'm concerned there is no transparency in these 
decisions. The Corps is using constantly changing criteria in 
order to accommodate to the annual budget numbers.
    Now, Mr. Chairman, there's another issue I think needs to 
be addressed, and better addressed in this budget, and that's 
hydropower generation. This administration has made it clear 
they're strongly in favor of renewable energy, but every time 
we bring up hydropower as a source of renewable energy, there's 
dead silence. It's a clean energy source. It's available now. 
It continues to suffer from underfunding. And this budget, 
viewed with the 20 percent cut in water power activities in the 
Department of Energy, makes me wonder about the 
administration's commitment to all kinds of clean renewable 
energy or if there is a bias to particular kinds that seem to 
have constituencies in the political arena, regardless of what 
the science may say.
    Both the Corps and Bureau hydropower plants are 
experiencing more and more unscheduled outages, and that's a 
demonstration of a lack of maintenance. And when these plants 
go down, energy has to be purchased from the market and other 
sources, and the purchase is almost always from a fossil fuel 
source. So, it's expensive and disruptive and, ironically, 
contributes to the use of fossil fuels in many circumstances, 
even while we're proclaiming that's what we're trying to get 
away from.
    All right, EPAct requires the Secretary of the Interior and 
the Secretary of the Army and the Secretary of Energy to look 
at increasing power production at Federal hydro facilities. 
That's a study that was completed in May 2007. So, we should be 
moving on that. Reclamation found six sites that could 
demonstrate both physical and economic conditions sufficient to 
warrant further exploration for additional hydropower 
development. The Corps identified 58 sites on similar criteria, 
and these are not new dams; these are additional units that 
could be installed at existing hydropower facilities, and the 
transmission facilities are already connected to these sites. 
This is not a wind farm somewhere that's going to require 
tremendous wiring to get to it. The total capacity is estimated 
to be 1,230 megawatts. That's enough to serve roughly a million 
residences.
    And there are opportunities to refurbish some facilities 
with existing hydropower to give us another 1,283 megawatts of 
generating capacity, and I don't understand why this 
administration is not pursuing that. This is clean energy 
without the limitation of the other sources. And to demonstrate 
that I'm serious about this, I introduced a bill earlier this 
year to investigate the feasibility of developing 50 megawatts 
of hydropower from the Diamond Fork Project at the existing 
dam.
    Thank you, Mr. Chairman, for allowing me to raise these 
concerns, and, again, my apologies to the panel for my 
tardiness in coming here.
    Senator Dorgan. Senator Bennett, thank you.
    Before we hear from the witnesses, does anyone else have 
comments?
    Senator Tester. Yes, just real briefly, Mr. Chairman.
    Senator Dorgan. Senator Tester.

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. First of all, thank you all for being here. 
I appreciate the work you do. Both the Bureau and the Corps are 
in the middle of addressing some aging water infrastructure 
issues in Montana and, I think, across the country.
    That being said, as I look at the budget, there's several 
projects in Montana, a couple of water projects that the Bureau 
is working on, that has been cut from $9 million to $1 million. 
These are $300 million water projects to service rural areas in 
the north central and northeastern part of the State. And I'm 
sure when the budget was put together--one was cut from $9 
million to $1 million; the other was cut from $8 million to $2 
million. I'm sure when this budget was put together they said, 
well, you know, there was Recovery Act dollars in one of these 
projects last year, so we can back them off.
    I'll give you an example of one of them. When I first 
started my service in the State legislature, it was a $100 
million project. It's the same project. Now it's $300 million. 
That's a little--that's 12 years ago. It has tripled in cost. 
What had happened, until we had the Recovery Act moneys, we 
weren't even keeping up with the cost of inflation with the 
money we were appropriating to it, and I'm afraid we're going 
back to that again.
    These are important projects, and they need to be finished. 
In order to be finished, we need to have the resources. The 
Recovery Act was a blessing for them. And that money has been 
spent--it's being spent as we speak, and it's doing some great 
work. I would hope we could go back and address those again.
    On the Army Corps side of things, the whole issue around 
levee certification is interesting as it applies to FEMA's 
flood insurance programs. In Montana and in rural America, we 
have a struggling economy in rural America. It has been that 
way not just during this recession, but it has been that way 
for a while. And we've got small communities now that are being 
saddled with the goal of making sure these levees are safe. 
They don't have the population to spread out the cost of these 
expensive certifications, and it is putting them in one heck of 
a bind because when these don't get certified and the flood 
insurance rates go through the roof, it further puts them in a 
difficult situation. I will get into the specifics during my 
questions when it comes to the levees.
    But I would just say we really need to be looking more down 
the road with our budget. That's what it should be as a sign of 
where we're going as a country, as far as these infrastructure 
projects. It has been said here before many of the projects 
we're dealing with are 100 years old--the Saint Mary's, for 
example. We need--there's so much work that needs to be done. 
The dikes and the levees that were built 50-60 years ago--I 
mean, we've got a lot of things to address. I'm not sure this 
budget gets it done.
    So, with that, I want to thank you, Mr. Chairman.
    Senator Dorgan. Anyone else?
    Senator Landrieu. I'll wait until the questions.
    Senator Dorgan. All right. Let me begin with Secretary 
Darcy. Madam Secretary, thank you for being with us.
    I would say to all four witnesses that your full statements 
will be made a part of the permanent record, and you may 
summarize.
    Secretary Darcy.

                    STATEMENT OF HON. JO-ELLEN DARCY

    Ms. Darcy. Thank you. Mr. Chairman and distinguished 
members of the subcommittee, thank you for the opportunity to 
present the President's budget for the Civil Works Program of 
the Army Corps of Engineers for fiscal year 2011.
    The fiscal year 2011 President's budget for the Civil Works 
Program is $4.939 billion. The budget supports four principal 
objectives: funding construction of the highest performing 
water resources infrastructure investments that will provide 
the best return from a national perspective; supporting the 
Nation's navigation network by funding capital development 
achievable with current revenues; advancing aquatic ecosystem 
restoration efforts and continuing to meet the requirements of 
the Endangered Species Act; and emphasizing critical 
maintenance and operational reliability of the existing civil 
works infrastructure.
    The budget focuses funding primarily on three main civil 
works program areas: commercial navigation, flood and coastal 
storm damage reduction, and aquatic ecosystem restoration. The 
budget supports hydropower, recreation, environmental 
stewardship, and water supply services at existing water 
resources projects owned or operated by the Corps. Finally, the 
budget provides for protection of the Nation's regulated waters 
and wetlands, cleanup of sites contaminated as a result of the 
Nation's early efforts to develop atomic weapons, and emergency 
preparedness and training.
    In keeping with President Obama's commitment to limit the 
overall level of non-security discretionary spending, the level 
of funding in the 2011 civil works budget is a reduction from 
both the 2010 budget and the enacted 2010 appropriations. 
However, the 2011 funding level reflects a practical, 
effective, and sound use of the Nation's financial resources.
    The Army continues to apply objective performance 
guidelines to many competing civil works construction projects 
in order to establish priorities among them and to guide the 
allocation of funds to high-performing ongoing projects and 
high-performing new construction starts. These guidelines 
emphasize investments that provide the best return from a 
national perspective in achieving economic, environmental, and 
public safety objectives.
    The budget includes two construction new starts and several 
new initiatives. One of the construction new starts is the 
Louisiana Costal Area Program, which will provide funding for 
the construction of projects coming out of the study by the 
same name, after they have favorably completed administration 
review. The other construction new start is a non-structural 
flood damage reduction projection in Onion Creek, Texas.
    Within the Operation and Maintenance program, there is 
funding for a new Global Changes Sustainability program to 
assess the impacts on civil works projects of climate change, 
as well as impacts of shifting demographics, changing land use, 
and changing social values.
    Understanding those impacts will enable the Corps to 
identify operational and other modifications to anticipate and 
respond to changing requirements to achieve and maintain 
sustainability.
    Last year, the administration proposed legislation for a 
new user fee to increase revenue to the Inland Waterways Trust 
Fund, and that proposal remains available for consideration by 
Congress in support of the 2011 budget. The Army continues to 
work in partnership with the inland waterway stakeholders to 
identify priorities and an effective funding stream for inland 
waterway construction and rehabilitation for the next 20 years, 
which could be made possible by enactment of a new funding 
mechanism.
    The budget provides $180 million for the South Florida/
Everglades Ecosystem Restoration program. This includes funding 
for continued construction of five significant restoration 
projects: Picayune Strand, Site One Impoundment, Indian River 
Lagoon South, Kissimmee River, and the C-111 project.
    The budget also supports work on other major ecosystem-wide 
initiatives, in part through Federal inter-agency working 
groups headed by the Council on Environmental Quality. The 
budget includes a total of $58 million for one such effort, the 
California Bay Delta restoration.
    Within the ongoing Cultural Resources program, $3 million 
is included to continue the Veterans Curation Project, which 
was initially funded through the American Recovery and 
Reinvestment Act and recently received the annual Chairman's 
Award from the Advisory Council on Historic Preservation. The 
Veterans Curation Project supports small curation laboratories 
in Augusta, Georgia; Saint Louis, Missouri; and Washington, 
DC--three sites with high populations of recently returning and 
wounded veterans. The veterans are hired into temporary 
positions and receive on-the-job training in curation of some 
of the backlog of archeological and historic properties that 
have come into the Corps's possession over the years. This is 
an innovative approach to supporting returning and disabled 
veterans of all branches of the military service, with jobs and 
training in a variety of technical skills with broad 
applicability while benefiting the Civil Works program. I spoke 
at the opening of the lab in Augusta, and I was very moved by 
the stories of how this program has given hope to recovering 
veterans.
    In conclusion, this is a frugal budget that reflects the 
priorities of a Nation that is both at war and successfully 
navigating its way out of economic upheaval. While this budget 
does not fund all of the good things that the Corps of 
Engineers is capable of doing, it will support very important 
investments that will yield long-term returns to the Nation's 
citizens.

                           PREPARED STATEMENT

    Mr. Chairman and members of the subcommittee, I am proud to 
support the 2011 budget for the Army Civil Works program. Thank 
you.
    Senator Dorgan. Secretary Darcy, thank you very much.
    [The statement follows:]
               Prepared Statement of Hon. Jo-Ellen Darcy
    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to present the President's budget for the Civil 
Works Program of the Army Corps of Engineers for fiscal year 2011.
                                overview
    The fiscal year 2011 budget supports four principal objectives:
  --Focus on the construction of those high performing projects that 
        provide the best return from a national perspective in 
        contributing to the economy, restoring aquatic ecosystems, and 
        reducing risks to human safety;
  --Support future capital investments for the inland waterways by 
        proposing that Congress enact a new funding mechanism to raise 
        the revenue needed to meet the authorized 50 percent non-
        Federal cost-share in a way that is efficient and equitable;
  --Advance aquatic ecosystem restoration efforts, including 
        restoration of Florida's Everglades, the California Bay Delta, 
        and the Louisiana coast, as well as continuing to meet the 
        requirements of the Endangered Species Act, particularly in the 
        Columbia River and the Missouri River Basins; and
  --Within the O&M program, give priority to investments in the 
        operational reliability, safety, and availability of key 
        existing Civil Works infrastructure.
    The budget focuses funding for development and restoration of the 
Nation's water and related resources within three main Civil Works 
program areas: commercial navigation, flood and coastal storm damage 
reduction, and aquatic ecosystem restoration. Additionally, the budget 
supports hydropower, recreation, environmental stewardship, and water 
supply services at existing water resources projects owned or operated 
by the Corps. Finally, the budget provides for protection of the 
Nation's regulated waters and wetlands; cleanup of sites contaminated 
as a result of the Nation's early efforts to develop atomic weapons; 
and emergency preparedness and training. The budget does not fund work 
that should be the responsibility of non-Federal interests or other 
Federal agencies, such as wastewater treatment and municipal and 
industrial water treatment and distribution.
              fiscal year 2011 discretionary funding level
    The total new discretionary funding of $4.939 billion in the fiscal 
year 2011 budget will keep the Civil Works program moving forward to 
help revitalize the economy and provide for restoration and stewardship 
of the environment. The budget also proposes cancellation of the 
unobligated balance of funding previously provided in the Mississippi 
River and Tributaries account for construction of the Yazoo Pumps 
project.
    In keeping with President Obama's decision to constrain the overall 
level of non-security discretionary spending, the level of funding for 
the Civil Works program in the 2011 budget is a reduction from both the 
2010 budget and the enacted 2010 appropriations. However, the 2011 
funding level reflects a practical, effective, and sound use of the 
Nation's resources and focuses on key investments that are in the best 
interest of the Nation.
    Within the $4.939 billion total, $1.69 billion is budgeted for 
projects in the Construction account, and $2.361 billion is budgeted 
for activities funded in the Operation and Maintenance (O&M) account.
    The fiscal year 2011 budget also includes $104 million for 
Investigations; $240 million for Flood Control, Mississippi River and 
Tributaries; $30 million for Flood Control and Coastal Emergency; $193 
million for the Regulatory Program; $130 million for the Formerly 
Utilized Sites Remedial Action Program; $185 million for the Expenses 
account; and $6 million for the Office of the Assistant Secretary for 
Civil Works.
    The fiscal year 2010-1014 Five Year Development Plan (FYDP) was 
recently provided to the relevant committees of Congress. Projections 
in the FYDP are formula driven. They do not represent budget decisions 
or budget policy beyond fiscal year 2010, but they can provide 
perspective on the Army Civil Works program and budget.
                  new investments in fiscal year 2011
    The Civil Works budget includes two construction new starts and 
several other new initiatives in the Investigations and O&M accounts.
    In the Construction account, the budget includes $19 million for a 
new start for construction of projects under the Louisiana Coastal Area 
program. These funds will be applied to construct authorized 
restoration projects with reports that have favorably completed 
executive branch review. The budget also includes $10 million to 
initiate a nonstructural flood damage reduction project at Onion Creek, 
Lower Colorado River Basin, Texas.
    In the Investigations account, two new national efforts are funded: 
$2 million for a Water Resources Priorities Study--a high-priority 
evaluation of the Nation's vulnerability to flooding. The 
Investigations account also includes $500,000 for continued support of 
the revised Principles and Guidelines to direct future planning for 
water resources projects, including development of detailed planning 
procedures to implement the revised Principles and Guidelines.
    The O&M program includes $10 million for a new Global Changes 
Sustainability program to assess the impacts of climate change on Civil 
Works projects, update drought contingency plans, enhance Federal 
collaboration, and increase partnerships with non-Federal stakeholders 
and programs. Understanding those impacts will enable the Corps to 
identify operational and other modifications to anticipate and respond 
to climate change. Also included in the O&M account is $3 million to 
initiate a Coastal Data Information Program to provide long-term 
coastal wave observations nationwide, to develop tools for using wave 
and other data for managing coastal sediments, and to support 
sustainable coastal and navigation projects under a changing climate.
                   inland waterways user fee proposal
    The fiscal year 2011 budget proposes to allocate $158.1 million for 
capital investment (construction, replacement, rehabilitation, and 
expansion of projects) on the inland waterways, of which $82.3 million 
would be derived from the Inland Waterways Trust Fund. Last year, the 
Army submitted proposed legislation to the Congress on behalf of the 
administration for a new user fee. That proposal is awaiting action by 
Congress and is reflected in the fiscal year 2011 budget. In addition, 
the Army continues to work with the inland waterway stakeholders to 
explore other possible options to achieve the purposes of this 
legislative proposal, which are to raise the needed revenue from the 
commercial users of these waterways and to do so in a way that is 
efficient and equitable. The administration has shown flexibility and 
is working to move the process forward. At this point, however, I would 
like to emphasize that neither the Corps nor the Army supports, or has 
accepted or endorsed, any particular out-year schedule or funding 
proposal for the inland waterways, or any alternative to the lock usage 
fee legislative proposal that Army submitted to Congress in May 2009.
                     aquatic ecosystem restoration
    The budget places priority on aquatic ecosystem restoration and 
provides $180 million for the Corps for the South Florida/Everglades 
ecosystem restoration program. The budget includes funding for 
continued construction of five significant restoration projects in this 
program: Picayune Strand; Site One Impoundment; Indian River Lagoon 
South; Kissimmee River, and the C-111 (South Dade) project.
    The budget also supports work on other major ecosystem-wide 
initiatives, such as the $58 million for Corps' ecosystem restoration 
and other water resources studies and projects in the California Bay 
Delta, including: Coyote and Berryessa Creeks; Hamilton Airfield 
Wetlands Restoration; Napa River Salt Marsh Restoration; Sacramento-San 
Joaquin Delta Islands and Levees; and Santa Ana River Mainstem, a flood 
and coastal damage risk reduction construction project.
    The budget increases funding by 44 percent over last year's budget 
for the Lower Columbia River Fish Mitigation project to mitigate the 
impact of Corps dams on migrating salmon. Nearly $138 million will be 
used to construct bypasses, improve fish ladders and for other 
activities that support salmon habitat. Similarly the budget supports 
ongoing work on the Missouri Fish and Wildlife Recovery project with 
$78 million to construct habitat and connect floodplains that had been 
degraded, for the benefit of the endangered pallid sturgeon and other 
species.
                 ongoing priorities in the o&m account
    Two particular ongoing activities in the O&M account merit special 
attention. First, the O&M account includes $15 million for the 
expansion of the National Levee Inventory database to include available 
information on levees of other Federal agencies and all of the States. 
The Corps will work with stakeholders to facilitate their use of the 
Database for local levee safety programs. In addition, the Corps will 
continue development of a levee risk screening and classification 
process.
    The budget for the Cultural Resources program in the O&M account is 
increased to $5.5 million to include $3 million to continue the 
Veterans Curation Project, which received funding in fiscal year 2009 
from the American Recovery and Reinvestment Act (ARRA). The Veterans 
Curation Project temporarily employs and trains wounded and returning 
veterans in the curation of archeological and historic properties that 
have come into the Corps' possession over the years as a result of 
construction at water project sites around the country, thus advancing 
the Corps' curation program while providing employment and 
transferrable skills that improve future employment opportunities of 
the veterans who work in the labs.
         planning improvements and performance-based budgeting
    Working through the Chief of Engineers, the Army continues to 
strengthen and improve the planning expertise of the Corps, including 
greater support for planning Centers of Expertise, better integration 
of project purposes, and greater reliability of cost estimates and 
schedules in both planning and programming processes.
    The fiscal year 2011 budget continues the Army's commitment to a 
performance-based approach to budgeting for the Civil Works program. 
Competing investment opportunities for studies, design, construction, 
and operation and maintenance were evaluated using multiple metrics. 
The Army used and will continue to use objective, performance criteria 
to guide its recommendations on the allocation of funds.
    The Army applied objective performance guidelines to establish 
priorities and guide the allocation of funds to high-performing ongoing 
construction projects and new construction starts. These guidelines 
focus on those investments within three main mission areas of the Corps 
that provide the best return from a national perspective in achieving 
economic, environmental, and public safety objectives. Similarly, the 
Army used objective performance criteria to allocate O&M funds in the 
fiscal year 2011 budget. The O&M criteria consider both the condition 
of the project and the potential consequences for project performance 
if the O&M activity were not undertaken in fiscal year 2011.
    In fiscal year 2011 the Corps will focus efforts on developing new 
strategies, along with other Federal agencies and non-Federal project 
partners, to better manage, protect, and restore the Nation's water and 
related land resources, including floodplains, flood-prone areas, and 
related aquatic ecosystems. The Corps also will continue to pursue 
management reforms that improve project cost and schedule performance 
to ensure the greatest value from invested resources, while 
strengthening the accountability and transparency of the way in which 
taxpayer dollars are being spent.
                 american recovery and reinvestment act
    The Corps continues the work funded in the ARRA. The act provided 
$4.6 billion for the Civil Works program. That amount includes $2 
billion for Construction; $2.075 billion for O&M; $375 million for 
Mississippi River and Tributaries; $25 million for Investigations; $25 
million for the Regulatory Program; and $100 million for the Formerly 
Used Sites Remedial Action Program. The Corps has allocated ARRA funds 
to more than 800 projects in 49 States, the District of Columbia, and 
Puerto Rico, and has completed 42 projects. The ARRA appropriations for 
Civil Works will create or maintain direct construction industry jobs 
and indirect jobs in firms supplying or supporting the construction and 
the businesses that sell goods and services to these workers and their 
families.
    The ARRA-funded Civil Works projects provide important support to 
the Nation's small businesses in their economic recovery. Of the more 
than $2.8 billion of ARRA funds obligated thus far (62 percent of the 
total $4.6 billion), small business awards make up about 74 percent of 
the total contract actions and account for about 47 percent of the ARRA 
funds obligated.
    Projects that received ARRA funds were selected on the basis of 
their long-term contribution to the Nation and their readiness for 
execution within the ARRA timeframe. The wide geographic distribution 
of ARRA funded projects helps to spread the employment and other 
benefits across the Nation. Funding also is distributed across Civil 
Works programs, including inland and coastal navigation, aquatic 
ecosystem restoration, flood risk management, hydropower, and more.
                               conclusion
    The administration has made rebuilding America's infrastructure a 
priority. Through resources provided for the Civil Works program in the 
President's budget for fiscal year 2011, the Army can help achieve this 
objective and help support the Nation's economy and environment. The 
Army is committed to applying 21st century technological advances to 
present day challenges, while protecting and restoring significant 
ecological resources.
    Mr. Chairman, members of the subcommittee, I am proud to present 
the fiscal year 2011 budget for the Army Civil Works program. I look 
forward to working with this subcommittee in support of the President's 
budget. Thank you.

    Senator Dorgan. General Van Antwerp.
STATEMENT OF LIEUTENANT GENERAL ROBERT L. VAN ANTWERP, 
            CHIEF OF ENGINEERS
    General Van Antwerp. Mr. Chairman and distinguished members 
of the subcommittee----
    Senator Dorgan. Would you turn the microphone on, General? 
And move it just a bit closer?
    General Van Antwerp. I think my light is on.
    Mr. Chairman and distinguished members of the subcommittee, 
I appreciate your opening comments, Mr. Chairman, about 
flooding. I might address that very quickly before I talk about 
the budget.
    We've got two areas--your area in North Dakota and another 
in Pennsylvania--and we're really gearing up right now. Just to 
give you a little idea, a lot of community involvement and all 
the Federal agencies, FEMA and everyone else are involved. We 
inventoried all of our pumps, our sand bags, polyurethane, and 
all the things that we'll need. I'm happy to report I think we 
have sufficient resources to fight this, but the early warning 
projections are for severe flooding. Yesterday, Major General 
Bill Grisoli who's behind me right here, is our deputy 
commanding general for civil works and emergency operations, 
had a total get-together with all of our folks that would be 
involved in this. And he'll be the first one to go, too, if we 
need to send him out there. We're honored and understand the 
concern; we're equally concerned as you are.
    This budget is a performance-based budget. It makes the 
best use of available funds through a focus on projects and 
activities that provide the highest economic and environmental 
returns or address significant risk to human safety. The budget 
has 99 construction projects in it. It includes four in the 
Mississippi River and Tributaries account. There are 10 dam 
safety projects, 20 projects that address significant risks to 
human safety, and 69 other projects.
    The budget supports restoration of nationally and 
regionally significant aquatic ecosystems, emphasis on the 
Florida Everglades, Louisiana Coastal Area, and Hamilton 
Airfield in the San Francisco Bay region. The budget also 
supports the Columbia River and Missouri River fish projects to 
support the continued operation of our facilities, multi-use 
projects, to meet the requirements of the Endangered Species 
Act.
    As soon as the Corps constructs a project, as you might 
imagine, our attention turns to operation and maintenance. 
Generally, with periodic maintenance, we can operate these 
facilities for many, many years. The average age of our 241 
locks, by the way, is 58.3 years old.
    The budget supports our continued stewardship in this 
infrastructure by focusing funding on our key infrastructure 
that has central importance to the Nation.
    We support the President's commitment to continued sound 
development and management of the Nation's water resources.
    Domestically, the Corps of Engineers personnel from across 
the Nation continue to respond to calls for help during 
national emergencies. The critical work they are doing will 
reduce the risk of damage from future storms to people and 
communities of this Nation.
    Internationally, the U.S. Army Corps of Engineers continues 
to support the mission in Iraq and Afghanistan, and build 
foundations for democracy and freedom and prosperity.
    I especially would like to recognize the many Corps 
civilians; we calculated that about 10,000 Corps civilians have 
deployed either to southeast Louisiana to respond to hurricanes 
or to Iraq and Afghanistan over the last 10 years. These 
wonderful, expeditionary--what I will call soldiers--civilians 
and soldiers provide their engineering expertise, quality 
construction management, and program and project management to 
many nations. The Corps of Engineers is actually involved in 34 
other countries today.

                           PREPARED STATEMENT

    In closing, I'd like to say the Corps is committed to 
staying at the leading edge of service to the Nation. We're 
committed to change that ensures an open, transparent, and 
performance-based civil works program.
    Thank you, Mr. Chairman. I look forward to your questions.
    Senator Dorgan. General, thank you very much.
    [The statement follows:]
     Prepared Statement of Lieutenant General Robert L. Van Antwerp
    Mr. Chairman and distinguished members of the subcommittee: I am 
honored to be testifying before your subcommittee today, along with the 
Assistant Secretary of the Army for Civil Works, the Honorable Jo-Ellen 
Darcy, on the President's fiscal year 2011 budget for the Civil Works 
Program of the United States Army Corps of Engineers.
    My statement covers the following five topics:
  --Summary of fiscal year 2011 Program Budget;
  --Investigations Program;
  --Construction Program;
  --Operation and Maintenance Program; and
  --Value of the Civil Works Program to the Nation's Economy and 
        Defense.
               summary of fiscal year 2011 program budget
Introduction
    The fiscal year 2011 Civil Works budget is a performance-based 
budget, which reflects a focus on the projects and activities that 
provide the highest net economic and environmental returns on the 
Nation's investment or address significant risk to human safety. The 
budget also proposes cancellation of the unobligated balance of funding 
in the Mississippi River and Tributaries account that was previously 
provided for construction of the Yazoo Pumps project. The Reimbursed 
Program funding is projected to involve an additional $2.5 billion.
Direct Program
    The budget reflects the administration's commitment to continued 
sound development and management of the Nation's water and related land 
resources. The budget incorporates objective performance-based metrics 
for the construction program, funds the continued operation of 
commercial navigation and other water resource infrastructure, provides 
significant funding for the regulatory program to protect the Nation's 
waters and wetlands, and supports restoration of significant aquatic 
ecosystems, with emphasis on the Florida Everglades, Louisiana coast, 
California Bay-Delta, and Columbia River & Missouri River restoration 
efforts. Additionally, it emphasizes the basic need to fund emergency 
preparedness activities for the Corps as part of the regular budget 
process.
Reimbursed Program
    Through the Interagency and Intergovernmental Services Program we 
help non-DOD Federal agencies, State, local, and tribal governments, 
and other countries with timely, cost-effective implementation of their 
programs. Rather than develop their own internal workforce to oversee 
large design and construction projects, these agencies can turn to the 
Corps of Engineers, which has these capabilities. Such 
intergovernmental cooperation is effective for agencies and the 
taxpayer by using the skills and talents that we bring to our Civil 
Works and Military Program missions. The work is principally technical 
oversight and management of engineering, environmental, and 
construction contracts performed by private sector firms, and is 
totally financed by the agencies we service.
    Currently, we provide reimbursable support for about 70 other 
Federal agencies and several State and local governments. Total 
reimbursement for such work in fiscal year 2011 is projected to be $2.5 
billion. The exact amount will depend on requests from the agencies.
                         investigations program
    The budget for the Investigations program would enable the Corps to 
evaluate and design future projects that are most likely to be high-
performing within the Corps three main mission areas: commercial 
navigation, flood and storm damage reduction, and aquatic ecosystem 
restoration. The budget includes $104 million for these and related 
activities in the Investigations account and $846,000 in the 
Mississippi River and Tributaries account.
                          construction program
    Within available resources, the goal of the construction program is 
to produce high value to the Nation by delivering new, or replacing, 
rehabilitating, or expanding existing, flood damage reduction, 
environmental restoration, commercial navigation, or hydropower 
benefits that serve the Nation's water resource needs. Our fiscal year 
2011 budget includes $1.69 billion in discretionary funding in the 
Construction account and $85.29 million in the Mississippi River and 
Tributaries account to further this objective. Consistent with this 
objective, the budget also gives priority to projects that address a 
significant risk to human safety.
    Using objective performance measures, the budget allocates funding 
to 99 construction projects, including 4 Mississippi River and 
Tributaries projects, 10 dam safety assurance, seepage control, and 
static instability correction projects, 20 projects that address a 
significant risk to human safety, and 69 other projects. This program 
also includes, for example, significant funding for our efforts in the 
Columbia River Basin and Missouri River Basin to support the continued 
operation of Corps of Engineers multi-purpose projects by meeting the 
requirements of the Endangered Species Act.
    Performance measures, which the Corps uses to establish priorities 
among projects, include the benefit-to-cost ratios for projects with 
economic outputs; and, for aquatic ecosystem restoration projects, the 
extent to which the project cost-effectively contributes to the 
restoration of a significant aquatic ecosystem. The selection process 
also gives priority to dam safety assurance, seepage control, static 
instability correction, and to projects that address a significant risk 
to human safety. Under each of these criteria, resources are allocated 
based on performance. This approach significantly improves the 
realization of benefits to the Nation from the Civil Works construction 
program and will improve overall program performance by allowing the 
Nation to realize the benefits of the projects with the best net 
returns (per dollar invested) sooner.
                   operation and maintenance program
    The facilities owned and operated by, or on behalf of, the Corps of 
Engineers are aging. As stewards of this infrastructure, we are working 
to ensure that its key features continue to provide an appropriate 
level of service to the Nation. Sustaining such service poses a 
technical challenge in some cases, and proper maintenance is becoming 
more expensive in some cases as infrastructure ages.
    The Operation and Maintenance (O&M) program for the fiscal year 
2011 budget includes $2.361 billion, and an additional $153.864 million 
under the Mississippi River and Tributaries program, with a focus on 
the maintenance of key commercial navigation, flood and storm damage 
reduction, hydropower, and other facilities. Specifically, the 
operation and maintenance program supports completed works owned or 
operated by the Corps of Engineers, including administrative buildings 
and laboratories. Work to be accomplished includes dredging, repair, 
aquatic plant control, removal of sunken vessels, monitoring of 
completed coastal projects, and operation of structures and other 
facilities, as authorized in the various River and Harbor, Flood 
Control, and Water Resources Development Acts.
    One of the contributions the Civil Works program can make to the 
Nation is to support and create opportunities for returning and wounded 
veterans. Through continued funding of the Veterans Curation Project as 
part of the Cultural Resources program, the Corps can provide such 
support in ways that directly benefit the Civil Works program by 
addressing the backlog of historic properties needing curation, while 
also benefiting returning and wounded veterans.
  value of the civil works program to the nation's economy and defense
    We are privileged to be part of an organization that directly 
contributes to the President's priorities to secure the homeland and to 
revitalize the economy.
    The way in which we manage our water resources can improve the 
quality of our citizens' lives. It has affected where and how people 
live and influenced the development of this country. The country today 
seeks economic development as well as the protection of environmental 
values.
    Corps of Engineers personnel from across the Nation continue to 
respond to the call to help during national emergencies, such as 
hurricanes and the recent earthquake in Haiti. The critical work they 
are doing reduces the risk of damage to people and communities.
Research and Development
    Civil Works Program research and development provides the Nation 
with innovative engineering products, some of which can have 
applications in both civil and military infrastructure spheres. By 
creating products that improve the efficiency and competitiveness of 
the Nation's engineering and construction industry and providing more 
cost-effective ways to operate and maintain infrastructure, Civil Works 
program research and development contributes to the national economy.
The National Defense
    Internationally, the U.S. Army Corps of Engineers continues to 
support the mission to help Afghanistan build foundations for 
democracy, freedom and prosperity.
    I also want to recognize the many Corps of Engineers civilians--
each of whom is a volunteer--and soldiers who are providing engineering 
expertise, quality construction management, and program and project 
management in other nations. The often unsung efforts of these 
patriotic men and women contribute daily toward this Nation's goals of 
restoring the economy, security, and quality of life for all.
    In Afghanistan, the Corps is spearheading a comprehensive 
infrastructure program for the Afghan national army, and is also aiding 
in important public infrastructure projects.
                               conclusion
    The Corps of Engineers is committed to staying at the leading edge 
of service to the Nation. We are committed to change that ensures an 
open, transparent, and performance-based Civil Works Program.
    Thank you, Mr. Chairman and members of the subcommittee. This 
concludes my statement.

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

STATEMENT OF ANNE CASTLE, ASSISTANT SECRETARY FOR WATER 
            AND SCIENCE
    Senator Dorgan. Secretary Castle, you may proceed. Thank 
you for being here.
    Ms. Castle. Thank you. Good morning, Chairman Dorgan and 
Senator Bennett and members of the subcommittee. Thanks for the 
opportunity to be here today in support of the President's 2011 
budget for the Bureau of Reclamation and the Central Utah 
Project Completion Act.
    With me is Mike Connor, the Commissioner of Reclamation. 
And, as Senator Bennett noted, Reed Murray is here, the 
Director of the Central Utah Project Completion Act Office. He 
will be here and available if you have any questions about that 
program.
    The Department of the Interior's people and lands and 
programs touch virtually every American. It's our job to 
protect natural resources and our country's cultural heritage, 
and we have trust responsibility for all American Indians and 
Native Alaskans. We truly are the Department of America.
    The Department's 2011 budget focuses on six priorities: 
implementing a new energy frontier, climate change adaptation, 
tackling our country's water challenges, protecting our 
treasured landscapes, empowering Native American communities, 
and engaging our youth in natural resources.
    I'm going to focus today on one of the programs that seeks 
to tackle our water challenges, and that's our new WaterSMART 
program. That project was launched just 2 weeks ago, and it 
implements a sustainable water strategy for the Department of 
the Interior. WaterSMART stands for Sustain and Manage 
America's Resources for Tomorrow. And we're doing it; we're 
implementing that program because we simply have to focus on a 
sustainable water strategy for this country. Our water supply-
and-demand equation is out of balance, and we need a national 
commitment to address that imbalance. We have the imbalance 
because of a variety of factors--population growth, climate 
change impacts on water supplies, increased recognition of the 
need for water for ecosystem sustainability, and increased need 
for water because of increased domestic energy production.
    The WaterSMART program is designed to help correct that 
supply-and-demand imbalance. The program includes coordination 
of the water sustainability and conservation efforts of all the 
agencies within the Department of the Interior and also of our 
Federal and State and private partners, and that includes a 
focus on the energy-water nexus, so that we'll recognize the 
water demands of different types of energy development projects 
and take those into account and also recognize the 
opportunities for saving energy through water conservation.
    We'll have an Internet-based clearinghouse for best 
practices and incentives and the most cost-effective 
conservation and recycling technologies. We'll coordinate with 
the Department of the Interior's climate change programs, and 
we have a water footprint reduction program for Interior 
facilities that will achieve the President's goal of reducing 
overall water consumption within the Federal agencies.
    The 2011 budget request includes $72.9 million for the 
WaterSMART program. That's an increase of over $36 million over 
2010 for those various different component programs. Sixty-two 
million is for the Bureau of Reclamation's WaterSMART programs, 
and those include its basin studies, West-wide water risk 
assessments, and its cost-share grant programs for water 
efficiency and water recycling and reuse projects.
    Another $10.9 million funds the USGS water availability and 
use assessment. That was what we have known as the Water 
Census, and that program implements the provisions of the 
Secure Water Act in Public Law 111-11.
    The overall budget request for the Bureau of Reclamation is 
$1.02 billion. Commissioner Connor will be discussing the 
details of the Reclamation request, but I'll just emphasize 
that this budget proposal is designed to promote reliable and 
sustainable water supplies, and provide them in an economically 
and environmentally sound manner.
    The 2011 budget request for the Central Utah Project 
Completion Act is $43 million. That's $1 million more than in 
2010. That funding provides for the continued design and 
construction of the Utah Lake system, and it also increases the 
funding for mitigation and conservation projects.
    This 2011 Interior budget represents our best effort to 
work within the tough economic times that are facing our 
country, to do our part to reduce the spending deficit but 
still implement the core mission and the priorities of the 
Department.

                           PREPARED STATEMENT

    I'd like to express my appreciation for the very strong 
support that this subcommittee has shown for both the Bureau of 
Reclamation and the Central Utah Project. And I'd be happy to 
answer any questions.
    Senator Dorgan. Thank you very much.
    [The statement follows:]
                   Prepared Statement of Anne Castle
    Mr. Chairman, Mr. Bennett, and members of this subcommittee, I am 
pleased to appear before this subcommittee today to discuss the 
President's fiscal year 2011 budget for the Department of the Interior 
and to update you on progress in implementing our fiscal year 2010 
programs.
    The Department of the Interior's mission is complex and 
multifaceted. Our programs and mission stretch from the North Pole to 
the South Pole and across 12 time zones, from the Caribbean to the 
Pacific Rim. Our extensive mandate rivals any Government agency in its 
breadth and diversity--and its importance to the everyday lives of 
Americans.
    Interior manages 500 million acres or about 1 in every 5 acres in 
the United States, including 392 national park units, 551 wildlife 
refuges, the 27 million-acre National Landscape Conservation System, 
and other public lands. These places are treasured landscapes and serve 
as economic engines for tourism and growth opportunities for 
recreation, wildlife conservation, and responsible resource use.
    The Department's public lands and 1.7 billion acres on the Outer 
Continental Shelf supply nearly one-third of the Nation's domestic 
energy production. These resources are vital to the Nation's energy 
security and provide economic returns to the Nation. In fiscal year 
2011, an estimated $14.0 billion in revenues will be generated from 
these lands and waters.
    The Department fulfills its special responsibilities to Native 
Americans managing one of the largest land trusts in the world 
including over 55 million acres held in trust for Indian Tribes and 
individual Indians, over $3.6 billion of funds held in over 2,700 
tribal trust accounts, and over 380,000 open individual Indian Money 
accounts. The Bureau of Indian Education school system provides 
services to approximately 42,000 students in 23 States attending 183 
elementary and secondary schools and dormitories, and supports 30 
tribally controlled community colleges, universities, and post-
secondary schools.
                             the first year
    In January 2010, President Obama and Secretary Salazar marked their 
first anniversary by recognizing the achievements of Interior's 70,000 
employees, including:
  --Restoring the Everglades--beginning construction of the 1-mile 
        bridge on the Tamiami Trail and breaking ground on the Picayune 
        Strand Restoration project in the Everglades in Florida--to 
        restore water flows and revive 55,000 acres of wetlands for 
        wildlife habitat;
  --Negotiating a settlement of the long-running and highly contentious 
        Cobell v. Salazar class-action lawsuit--resolving trust 
        accounting and management issues after 14 years;
  --Advancing renewable energy development--establishing renewable 
        energy coordination offices in four States and teams in six 
        States to facilitate renewable energy production on public 
        lands and issuing four exploratory leases for renewable wind 
        energy production on the OCS;
  --Moving forward to invest $3.0 billion available from the American 
        Reinvestment and Recovery Act in facility renovation and energy 
        efficiencies, habitat restoration, increasing water supplies 
        and water conservation, supporting renewable energy 
        development, and reducing human hazards;
  --Restoring confidence and accountability in our energy programs by 
        beginning an orderly termination of the Royalty-in-Kind program 
        and reforming the management of onshore oil and gas resources;
  --Coming to the aid of drought-stricken California with emergency aid 
        and infrastructure investments;
  --Expanding opportunities for youth--employing 8,200 young adults in 
        2009;
  --Opening the crown of the Statue of Liberty for public access--the 
        crown has been closed to the public since 9/11;
  --Ending a stalemate at the Flight 93 National Memorial--completing 
        the acquisition of land in cooperation with willing sellers and 
        clearing the way for construction of a memorial to honor the 
        Nation's heroes;
  --Delisting the brown pelican--a case of complete recovery for a 
        species that was first listed as endangered in 1970;
  --Increasing transparency--reversing and withdrawing flawed oil and 
        gas leases with potential impacts to national parks in Utah and 
        oil shale research, development, and demonstration leases that 
        may have shortchanged taxpayers; and
  --Helping to negotiate a collaborative solution that would end 
        decades of conflict and potentially allow for the restoration 
        of the Klamath River Basin in California and Oregon.
                overview of the fiscal year 2011 budget
    Interior's 2011 budget reflects an aggressive agenda in the context 
of challenging fiscal times. The 2011 Interior budget request for 
current appropriations is $12.2 billion. Permanent funding that becomes 
available as a result of existing legislation without further action by 
the Congress will provide an additional $5.8 billion, for budget 
authority totaling $18.0 billion for Interior in 2011.
    The request for the Bureau of Reclamation and the Central Utah 
Project Completion Act, funded under the jurisdiction of this 
subcommittee, is $1.1 billion. The fiscal year 2010 Reclamation 
discretionary budget request is $1.02 billion in current appropriations 
and the request for the Central Utah Project is $43.0 million.
                       climate change adaptation
    Resource managers consider climate change to be the single most 
challenging issue they face. In order to equip them with the tools and 
strategies they need, Interior's Climate Change Adaptation initiative 
will investigate the causes and formulate solutions to mitigate climate 
impacts to lands, waters, natural and cultural resources. As the pre-
eminent manager of lands and resources, Interior will leverage its 
experience and expertise in partnership with other governmental and 
non-governmental entities. Interior's Climate Science Centers and 
Landscape Conservation Cooperatives (LCC) will conduct and communicate 
research and monitoring to improve understanding and forecasting for 
those natural and cultural heritage resources that are most vulnerable 
to climate change impacts.
    The Department's High Priority Performance Goal for Climate Change 
Adaptation is to identify areas and species most vulnerable to climate 
change and begin implementing comprehensive adaptation strategies by 
the end of 2011. Beginning with the 2011 budget, Reclamation will 
identify dedicated climate change funding, including an increase of 
$3.0 million for its Basin Studies Program. Through the Basin Studies 
Program, Reclamation will work with State and local partners to analyze 
the impacts of climate change on water and power operations throughout 
basins in the Western States, and will identify options to mitigate or 
adapt to those impacts.
                               watersmart
    The 2011 budget proposes a sustainable water strategy to assist 
local communities to stretch water supplies and improve water 
management. A High Priority Performance Goal is established to increase 
water supply for agricultural, municipal, industrial, and environmental 
uses in the western United States up to 350,000 acre-feet by the end of 
2011 through conservation programs including water reuse and recycling 
and WaterSMART (formerly Challenge) grants.
    The budget for the WaterSMART program--Sustain and Manage America's 
Resources for Tomorrow--includes $72.9 million, an increase of $36.4 
million over the 2010 enacted level for sustainability programs in 
Reclamation and USGS. Reclamation will use $62.0 million, an increase 
of $27.4 million, to improve water management by encouraging voluntary 
water banks; reducing demand; implementing water conservation and water 
reclamation and reuse projects; and taking action to improve energy 
efficiency and reduce environmental conflicts. The USGS will use $10.9 
million, an increase of $9.0 million, for a multi-year, nationwide 
water availability and use assessment program.
                          treasured landscapes
    The 2011 budget includes funding for an increased effort by 
Reclamation to conduct studies, projects, and other efforts in the 
California Bay-Delta. These activities will support the December 22, 
2009 Bay-Delta Interim Action Plan, investing in short and long-term 
actions for sustainable water and ecosystem restoration. This request 
will fund habitat restoration efforts, the development of fish screens 
and fish ladders, efforts to eradicate or mitigate invasive species, 
various water quality and quantity studies and assessments, and other 
efforts.
                       supporting tribal nations
    The 2011 budget for Reclamation contains funding in support of 
tribal nations through projects such as the Animas-La Plata project to 
continue implementation of the Colorado Ute Settlement Act and funding 
for the Navajo-Gallup Water Supply project.
                               conclusion
    Thank you for the opportunity to testify on behalf of the 
President's fiscal year 2011 budget request for the Department of the 
Interior. I want to reiterate my appreciation for the long-standing 
support of this subcommittee. Our fiscal year 2011 budget will--in its 
entirety--make a dramatic difference for the American people. We have a 
tremendous opportunity to improve the future for our children and 
grandchildren with wise investments in clean energy, climate impacts, 
treasured landscapes, our youth, and the empowerment of tribal nations. 
This concludes my overview of the fiscal year 2011 budget proposal for 
the Department of the Interior. I am happy to answer any questions that 
you may have.

    Senator Dorgan. Commissioner Connor.
STATEMENT OF MICHAEL L. CONNOR, COMMISSIONER
    Commissioner Connor. Yes, sir. Thank you, Chairman Dorgan, 
Senator Bennett, and members of the subcommittee, for the 
opportunity to discuss the Bureau of Reclamation's 2011 budget.
    With me today is Bob Wolf, who is the Director of our 
Program and Budget Office at the Bureau of Reclamation.
    As noted by Secretary Castle, the fiscal year 2011 
discretionary request for Reclamation is $1.02 billion. 
Overall, the budget reflects a set of wide-ranging activities 
and initiatives that support Reclamation's mission. According 
to a recent departmental economic analysis, Reclamation's 
mission is to supply water, generate power, and provide 
recreation opportunities to millions of Americans. It supports 
over 260,000 jobs on an annual basis and $39.5 billion in 
economic activity.
    At its core, however, the goal of Reclamation's budget is 
simply to promote certainty and sustainability in the use of 
limited water resources, whether it is for agricultural, 
municipal, industrial, environmental, or power-generation 
purposes. Certainty and sustainability require Reclamation to 
take action on many fronts, and our budget proposal was 
developed with that principle in mind. Through these efforts, 
we believe we can continue to provide the economic benefits I 
just described.
    Secretary Castle identified six priorities that are focal 
points of the Department's fiscal year 2011 budget. Very 
briefly, I want to speak about several of those items.
    The first is tackling the Nation's water challenges and the 
New Energy Frontier. Addressing water challenges and energy 
needs starts with operating, maintaining, and improving the 
condition of our existing facilities. Accordingly, the 2011 
budget requests a total $424 million for facility operations, 
maintenance, and rehabilitation activities. This amount 
represents almost one-half--46 percent--of the Water and 
Related Resources account. The remaining balance of that 
account is used for water, energy, land, and fish and wildlife 
resource management activities, which amount to $490 million in 
total, or 54 percent of the remaining part of the Water and 
Related Resources account.
    Included within this $490 million allocation is the 
WaterSMART program that was just described in detail. As noted, 
WaterSMART includes a specific focus on energy-water issues. In 
addition to promoting energy efficiency through water 
conservation, Reclamation will be working with our numerous 
partners to facilitate new renewable energy generation 
development in association with Reclamation facilities and its 
operations.

                       CLIMATE CHANGE ADAPTATION

    In the area of climate change, Reclamation will do its part 
to assist the Department in implementing an integrated strategy 
to better understand and respond to climate change impacts on 
water and associated resources.
    As identified in our budget documents, the Department will 
be establishing Climate Science Centers (CSCs), Landscape 
Conservation Cooperatives (LCCs), and a Climate Effects 
Network. Reclamation's 2011 budget includes an increase of $3 
million for Reclamation's Basin Studies program to implement 
West-wide risk assessments and to establish two LCCs. 
Reclamation's Science and Technology program will also devote 
$4 million in support of the science agenda being carried out 
by the Climate Science Centers. This funding represents a 
critical investment that will help our stakeholders better 
understand and plan for a future impacted by increasing 
temperatures.

               TREASURED LANDSCAPES AND RESTORING RIVERS

    Protecting the Nation's treasured landscapes is another 
departmental priority, and it is imperative that Reclamation do 
its share. First, maintaining our ability to deliver water and 
generate power requires protecting and restoring the aquatic 
and riparian environments affected by our operations. Beyond 
that, restoring the health of our rivers will help avoid future 
conflicts and provide more flexibility in addressing the 
challenges presented by drought, increasing populations, 
increasing energy demand, environmental needs, depleted 
aquifers, and a changing climate. Included within the Restoring 
Rivers program are our endangered species recovery programs, 
which are an increasing part of Reclamation's budget.

                       SUPPORTING TRIBAL NATIONS

    The final priority I want to briefly discuss is 
Reclamation's support for tribal nations. The 2011 budget 
continues this support through our ongoing efforts to implement 
Indian water rights settlements. Included in the request is 
$12.5 million in support of the Animas-La Plata project and the 
Shiprock Pipeline, which are the critical items in the Colorado 
Ute Settlement Act amendments. Those are anticipated to be 
completed in 2013.
    The request also includes $10 million for the Navajo-Gallup 
Water Supply Project, a key element of the Navajo Nation Water 
Rights Settlement in the San Juan River basin in New Mexico.
    There's also $4 million for the Soboba Water Rights 
Settlement to complete funding for the United States' share of 
constructing, operating, and maintaining the basin recharge 
project that's central to that settlement.
    And outside settlements, Reclamation is addressing tribal 
needs through its rural water program. Sixty-two million 
dollars is requested for this program to continue the 
construction of authorized rural water projects, several of 
which benefit tribal nations in the Great Plains and Upper 
Colorado River regions.
    Mr. Chairman, please allow me to express my sincere 
appreciation for the continued support that this subcommittee 
has provided the Bureau of Reclamation. I stand ready to answer 
questions at the appropriate time.
    [The statement follows:]
                Prepared Statement of Michael L. Connor
    Thank you, Mr. Chairman, Mr. Bennett and members of the 
subcommittee, for the opportunity to discuss with you the President's 
fiscal year 2011 budget request for the Bureau of Reclamation. With me 
today is Bob Wolf, Director of Program and Budget.
    I appreciate the time and consideration this subcommittee gives to 
reviewing and understanding Reclamation's budget and its support for 
the program. Reclamation works hard to prioritize and define our 
program in a manner that serves the best interest of the public who 
rely on Reclamation for their water and power.
    Our fiscal year 2011 request continues support for activities that 
deliver water and generate hydropower, consistent with applicable State 
and Federal law, in an environmentally responsible and cost-effective 
manner.
    The budget continues to emphasize working smarter to address the 
water needs of a growing population in an environmentally responsible 
and cost-efficient manner; and assisting States, tribes, and local 
entities in solving contemporary water resource challenges. It also 
emphasizes the operation and maintenance of Reclamation facilities in a 
safe, efficient, economic, and reliable manner; assuring systems and 
safety measures are in place to protect the public and Reclamation 
facilities. Funding for each project or program within Reclamation's 
request is based upon administration, departmental, and Bureau 
priorities. Key focus areas include Water Conservation, Climate Change 
Adaptation and Renewable Energy, Restoring Rivers, and supporting 
tribal nations.
    Reclamation's 2011 budget request is $1.1 billion, which includes 
$49.9 million for the Central Valley Project Restoration Fund (CVPRF). 
This request is offset by discretionary receipts in the CVPRF, 
estimated to be $49.6 million. The request for permanent appropriations 
in 2011 totals $167.0 million.
                      water and related resources
    The 2011 budget request for Water and Related Resources, 
Reclamation's principal operating account, is $913.6 million. The 
request includes a total of $489.9 million for water and energy, land, 
and fish and wildlife resource management and development activities. 
Funding in these activities provides for planning, construction, water 
conservation activities, management of Reclamation lands including 
recreation, and actions to address the impacts of Reclamation projects 
on fish and wildlife.
    The request also provides a total of $423.7 million for facility 
operations, maintenance, and rehabilitation activities. Providing 
adequate funding for these activities continues to be one of 
Reclamation's highest priorities. The Bureau continues to work closely 
with water users and other stakeholders to ensure that available funds 
are used effectively. These funds are used to allow the timely and 
effective delivery of project benefits; ensure the reliability and 
operational readiness of Reclamation's dams, reservoirs, power plants, 
and distribution systems; and identify, plan, and implement dam safety 
corrective actions and site security improvements.
   highlights of the fiscal year 2011 request for water and related 
                               resources
    I would like to share with the subcommittee several highlights of 
the Reclamation budget including an update on the WaterSMART (Sustain 
and Manage America's Resources for Tomorrow) Program and Interior's 
establishment of a High Priority Performance Goal target to enable 
capability to increase available water supply for agricultural, 
municipal, industrial and environmental uses in the western United 
States by 350,000 acre-feet by the end of 2011.
    WaterSMART Program.--The request focuses resources on the 
Department of the Interior's WaterSMART program. The program 
concentrates on expanding and stretching limited water supplies in the 
West to reduce conflict, facilitate solutions to complex water issues, 
and to meet the growing needs of expanding municipalities, the 
environment, and agriculture. The U.S. Geological Survey is a partner 
in WaterSMART.
    The Department plays an important role in providing leadership and 
assistance to States, tribes, and local communities to address these 
competing demands for water and to be more energy efficient in the 
operations of its facilities. Reclamation is proposing to increase its 
share of the WaterSMART Program by $27.4 million over the fiscal year 
2010 enacted level for total funding of $62.0 million. The three 
ongoing programs include: the WaterSMART (formerly the Challenge) grant 
program funded at $27.0 million; the Basin Study program funded at $6.0 
million; and the title XVI Water Reclamation and Reuse program funded 
at $29.0 million. Through these programs, Reclamation will provide 
competitive grants for water marketing and conservation projects; 
implement basin-wide planning studies that will help identify the 
impacts of climate change, identify potential adaptation measures and 
address comprehensive water supply and demand in the West; and continue 
funding of water reuse and recycling projects.
Other Significant Programs and Highlights Include
    Climate Change Adaptation and Renewable Energy.--The Department is 
implementing an integrated strategy for responding to climate change 
impacts on the resources managed by the Department, through the 
establishment of DOI Climate Science Centers (CSC), Landscape 
Conservation Cooperatives (LCC) and a Climate Effects Network. The 2011 
budget requests an increase of $3.0 million for use within 
Reclamation's Basin Studies program for total funding of $6.0 million 
to implement West-wide climate change risk assessments. Reclamation 
will take the lead to coordinate work at two LCCs. Reclamation's 
Science and Technology program will devote $4.0 million to support 
scientific work through the Department's CSCs. Reclamation is also 
assessing and implementing new renewable energy generation development 
in association with Reclamation facilities in cooperation with other 
Federal and State agencies, water users, and private sector entities 
through its Power Program Service program.
    Restoring Rivers.--In order to best maintain Reclamation's ability 
to meet its core mission goals of delivering water and generating 
hydropower, a growing part of its mission must focus on the protection 
and restoration of the aquatic and riparian environments influenced by 
its operations. This growing focus area will help Reclamation better 
balance its environmental mission with its role as a water supplier and 
power generator, thus better positioning Reclamation to address the 
ongoing challenges presented by drought, climate change, increasing 
populations, the growing water demand associated with energy 
generation, and environmental needs. Reclamation's Restoring Rivers 
agenda involves a large number of activities, including its Endangered 
Species Act recovery programs.
    The 2011 request provides $171.7 million for operating, managing 
and improving California's Central Valley Project. This amount includes 
$39.9 million for the CVP, Sacramento River Division, Red Bluff pumping 
plant, which will be constructed to facilitate passage for threatened 
fish species, as well as providing water deliveries. The American 
Recovery and Reinvestment Act of 2009 also provided $109.8 million for 
the Red Bluff pumping plant. The funding for CVP also includes $11.8 
million for the Trinity River Restoration program that includes 
development of a comprehensive monitoring and adaptive management 
program for fishery restoration and construction of channel 
rehabilitation projects at various sites along the Trinity River. This 
request includes $21.7 million for the CVP Replacements, Additions, and 
Extraordinary Maintenance program, for modernization, upgrade, and 
refurbishment of facilities throughout the Central Valley.
    The request includes $25.3 million for Lower Colorado River 
Operations to fulfill the role of the Secretary as water master for the 
Lower Colorado River. The request provides funding for management and 
oversight of both the annual and long-range operating criteria for 
Colorado River reservoirs; water contract administration; and 
implementation of the Lower Colorado River Multi-Species Conservation 
program. The Bureau of Reclamation remains committed to maximizing 
efficient ways to deliver water under its contracts and to conserve 
water for multiple uses, including endangered species protection.
    The budget requests $23.7 million for Endangered Species Act 
Recovery Implementation programs. The request includes $12.7 million in 
the Great Plains Region to implement the Platte River Endangered 
Species Recovery Implementation program, based upon approval of the 
program by the Secretary and the Governors of Colorado, Nebraska, and 
Wyoming in late 2006 and authorized by the Consolidated Natural 
Resources Act of 2008. Implementation of this program provides measures 
to help recover four endangered or threatened species, thereby enabling 
existing water projects in the Platte River Basin to continue 
operations, as well as allowing new water projects to be developed in 
compliance with the Endangered Species Act. It also provides an 
increase of $4.9 million for a total of $8.4 million for the Upper 
Colorado River Endangered Fish Recovery program, which was established 
in January 1988, to provide habitat management, development and 
maintenance; augmentation and conservation of genetic integrity; and 
conservation of other aquatic and terrestrial endangered species. The 
increase will fund construction of a system that automates canal 
operations to conserve and redirect water for instream flows.
    The Klamath project request is $22.5 million and includes funds for 
studies and initiatives related to improving water supplies to meet the 
competing demands of agricultural, tribal, wildlife refuge, and 
environmental needs. Key areas of focus include continuing a water 
bank; making improvements in fish passage and habitat; taking actions 
to improve water quality; developing a basin-wide recovery plan; 
increasing surface and groundwater supplies; and continuing 
coordination of Reclamation's Conservation Improvement program.
    The Klamath Dam Removal and Sedimentation Studies are being 
conducted as a result of negotiations initiated in 2005 and completed 
in 2010 regarding restoration of the Klamath River. Study results will 
be used to inform a Secretarial Determination to decide if removing 
PacifiCorp's four dams on the Lower Klamath River is in the public 
interest and advances restoration of the Klamath River fisheries. The 
Reclamation request includes $5.0 million to further assess the costs 
and benefits of removing the dams. The Fish and Wildlife Service, 
funded under the Interior, Environment, and Related Agencies 
appropriations subcommittee, also has $2.0 million in its request to 
support these studies.
    The Middle Rio Grande project request is $25.1 million and will 
continue funding of endangered species activities and Reclamation's 
participation in the Middle Rio Grande Endangered Species Act 
Collaborative program. Funding of the repair of priority river levee 
maintenance sites is also included.
    The Yakima River Basin Water Enhancement Project request is $12.4 
million, which will continue funding grants to Benton and Roza 
Irrigation Districts and Sunnyside Division Board of Control, to 
implement conservation measures and monitor the effects of those 
measures on the river diversions.
    Supporting Tribal Nations.--The fiscal year 2011 Reclamation budget 
supports tribal nations through a number of projects. The request 
includes $12.5 million for the Animas-La Plata project to continue 
implementation of the Colorado Ute Settlement Act. Project completion 
is anticipated in 2013, and 2011 funding will provide for directional 
drilling and pipeline construction on the Navajo Nation Municipal 
Pipeline and the continued filling of Lake Nighthorse.
    The request includes $10.0 million for the Navajo-Gallup Water 
Supply Project, a key element of the Navajo Nation Water Rights 
Settlement on the San Juan River in New Mexico. The project will 
provide a reliable and sustainable municipal, industrial, and domestic 
water supply from the San Juan River to 43 Chapters of the Navajo 
Nation.
    The request includes $4.0 million for the Soboba Water Rights 
Settlement Project to complete funding for the payment or reimbursement 
for constructing, operating, and maintaining the portion of the basin 
recharge project that the United States is responsible for under the 
Settlement Agreement.
    The 2011 Reclamation budget requests $62.0 million for on-going 
authorized rural water projects. The projects that benefit tribal 
nations include Mni Wiconi, the rural water component of the Garrison 
Diversion Unit; Fort Peck Reservation/Dry Prairie; Jicarilla Apache 
Reservation; and Rocky Boys/North Central Montana. Other rural water 
projects include Perkins County and Lewis and Clark.
    Safety of Dams.--A total of $95.2 million is requested for 
Reclamation's Safety of Dams program, which includes $45.0 million 
directed to dam safety issues at Folsom Dam. Funding also includes 
$29.3 million to initiate other safety correction activities and $19.0 
million for safety evaluations of existing dams. This includes $1.9 
million to oversee the Interior Department's Safety of Dams program.
    A total of $30.3 million is requested for Site Security to ensure 
the safety and security of the public, Reclamation's employees, and key 
facilities. This funding includes $9.2 million for physical security 
upgrades at high risk critical assets and $21.1 million to continue all 
aspects of Bureauwide security efforts including law enforcement, risk 
and threat analysis, personnel security, information security, security 
risk assessments and security-related studies, and guards and patrols.
    Section 513 of the Consolidated Natural Resources Act of 2008 
includes provisions for the treatment of Reclamation site security 
costs. Under these provisions, Reclamation will collect approximately 
$20.0 million, as indexed for inflation, in security-related operation 
and maintenance costs that are reimbursable under Reclamation law. 
Approximately 60 percent of this amount is reimbursable through up-
front revenues. Approximately 40 percent of this amount is appropriated 
and then reimbursed to projects through the normal operations and 
maintenance cost allocation process.
                       policy and administration
    The $61.2 million request in fiscal year 2011 funds the 
development, evaluation, and implementation of Reclamation-wide policy, 
rules, and regulations, including actions under the Government 
Performance and Results Act. These funds are also used for management 
and performance functions that are not chargeable to specific projects 
and required for ongoing Commissioner's activities.
                central valley project restoration fund
    The 2011 budget includes a request of $49.9 million for the CVPRF. 
This budget request is offset by collections estimated at $49.6 million 
from mitigation and restoration charges authorized by the Central 
Valley Project Improvement Act. The San Joaquin River Restoration Fund 
section below describes the impact that the San Joaquin River 
Restoration Settlement Act has on the CVPRF.
    The 2011 program funds a variety of activities to restore fish and 
wildlife habitat and populations in the CVP service area of California, 
including: acquiring water for anadromous fish and other environmental 
purposes; providing for long-term water deliveries to wildlife refuges; 
continuing the anadromous fish restoration program with the goal of 
doubling their natural production; monitoring the effectiveness of 
restoration actions; acquiring fee title or conservation easements to 
facilitate better management; restoring land to improve wildlife 
habitat, conserve water, and reduce drainage; and continuing funding 
for fish screens on diversions along the Sacramento River.
                   san joaquin river restoration fund
    While there is a $72.1 million request for discretionary 
appropriations in fiscal year 2011, receipts will be used, as 
authorized by the 2009 San Joaquin River Restoration Act, to implement 
terms of the settlement of the litigation. Funding in fiscal year 2011 
will be used to continue planning, engineering, environmental 
compliance, fishery management, water operations, and public 
involvement activities.
                 california bay-delta restoration fund
    The budget requests $40.0 million for the California Bay-Delta 
Restoration Fund, pursuant to the CALFED Bay-Delta Authorization Act 
that was signed into law on October 25, 2004. The legislation provides 
a 6 year Federal authorization to implement the collaborative Bay-Delta 
program. Authorities authorized by the Water Supply, Reliability, and 
Environmental Act were extended until 2014, by the Energy and Water 
Development and Related Agencies Appropriations Act, 2010. A consortium 
of Federal and State agencies fund and participate in the Bay-Delta 
program, focusing on the health of the ecosystem and improving water 
management and supplies. In addition, Bay-Delta activities address the 
issues of water supply reliability, aging levees, and threatened water 
quality.
    Funding for Bay-Delta is requested in the amount of $40.0 million 
for the following program areas: $5.0 million for water storage 
studies; $3.5 million for the conveyance program; $7.5 million for 
water use efficiency; $8.5 million for the science program; $5.0 
million for water quality assurance investigations; $8.5 million for 
ecosystem restoration projects; and $2.0 million for Reclamation's 
oversight function to ensure program balance and integration.
                  fiscal year 2011 planned activities
    Reclamation's fiscal year 2011 priority goals are directly related 
to fulfilling contractual requests to deliver water and power. These 
include addressing a range of other water supply needs in the West, 
playing a significant role in restoring and protecting freshwater 
ecosystems consistent with applicable State and Federal law, and 
enhancing management of our water infrastructure while mitigating for 
any harmful environmental effects. Reclamation will deliver roughly 28 
million acre-feet of water to meet contractual obligations while 
addressing other resource needs (for example, fish and wildlife 
habitat, environmental enhancement, recreation, and Native American 
trust responsibilities).
    Reclamation will maintain dams and associated facilities in good 
condition to ensure the reliable delivery of water. Reclamation will 
maintain a forced outage average of 2.20 that is lower than the 
industry average for similar units to ensure reliable delivery of 
power. Reclamation has set a goal to prevent an additional 12,700 tons 
of salt from entering the water ways in fiscal year 2011. The actions 
Reclamation will take to accomplish this goal include selecting new 
salinity control projects through a competitive process.
    Moreover, the fiscal year 2011 budget request demonstrates 
Reclamation's commitment to meeting the water and power needs of the 
West in a fiscally responsible manner. This budget continues 
Reclamation's emphasis on managing those valuable public resources. 
Reclamation is committed to working with its customers, States, tribes, 
and other stakeholders to find ways to balance and provide for the mix 
of water resource needs in 2011 and beyond.
                               conclusion
    Mr. Chairman, please allow me to express my sincere appreciation 
for the continued support that this subcommittee has provided 
Reclamation. This completes my statement. I would be happy to answer 
any questions that you may have at this time.

    Senator Dorgan. Mr. Connor, thank you very much. We 
appreciate that.
    Senator Harkin has asked for the privilege of asking a 
single question in order that he may chair a hearing at 10 
o'clock, and if there's no objection on the subcommittee, I 
would honor that request.
    Senator Harkin.

                         CEDAR RAPIDS FLOODING

    Senator Harkin. Thank you very much, Mr. Chairman, and I 
appreciate the indulgence of the subcommittee.
    I just have one question for Secretary Darcy. Cedar Rapids, 
the second largest city in Iowa, suffered a major flood, as you 
know, in 2008. It was broadcast all over the world. We saw 
houses floating down the river. It destroyed a great part of 
downtown Cedar Rapids. Over 5,000 homes were destroyed. The 
water was higher than even 1,000-year floods. It was the 
highest ever, ever on record. The Rock Island District is now 
working on the feasibility of doing a flood control project 
involved--improving Cedar Rapids' ability to withstand future 
floods.
    Here's the problem, some parts of that project may meet the 
traditional requirements of the cost-benefit ratio. That would 
be improvements on the east side of the river that protects 
most of downtown and another part that protects some 
industries, Quaker Oats being the major one.
    But it looks unlikely that the traditional cost-benefit 
analysis would be positive for the west side of the river. 
Well, on the west side of the river, we have over 4,000 homes 
of moderate- to low-income people. Many of them were damaged in 
the flood, and what happens--these are families of modest 
means. If the project moves on the west side of the river, you 
can then see that the west side may experience a worse flood in 
various scenarios because the east side would be protected.
    I was pleased to see the December 3, 2009 proposed national 
objectives, principles, and standards for related resources 
draft. It looks at non-monetary fix, such as community impacts 
on groups such as those with lower incomes and the effects on 
the economy of the area.
    So, I think it's extremely difficult to move forward with 
only protecting the higher income and the downtown areas, while 
increasing--actually increasing--the flood risk to those with 
lower incomes, modest incomes, on the other side of the river. 
The traditional national economic analysis just simply does not 
take these considerations into effect and also what it would 
mean economically for that side of the river, in terms of 
businesses and things like that, that simply wouldn't go there.
    My question is--I just want to get your views on the need 
to move forward with a project that is crucial and whether or 
not it would be appropriate to consider these other concerns 
for a project like this.
    Ms. Darcy. Your reference to the Principles and Guidelines 
being drafted is exactly what that's designed to do. 
Traditionally, we have only looked at national economic 
benefits when considering water resources projects. With the 
new Principles and Guidelines, we are looking at more than just 
the economic impact; we're looking at the environmental impact, 
the impact to the community as well as to other impacts, 
including social values. With the new Principles and 
Guidelines, we'll get at exactly the concern that you have in 
your study.
    Senator Harkin. Thank you.
    Senator Dorgan. Thank you, Senator Harkin.
    For the information of members who weren't here when I 
began, I indicated that I have to leave at 10 o'clock. We have 
the FAA bill on the floor, and I also have to be at a Commerce 
Comcast-NBC merger hearing ever so briefly. So, Senator Tester 
will take the chair at 10 o'clock.

     EFFECT OF PROPOSED BUDGET ON AUTHORIZED BUT UNFUNDED PROJECTS

    Let me ask a couple of questions. Secretary Darcy, again, I 
understand your role, and that is to support this budget and 
not vary even one degree if you can avoid it, but it seems to 
me that we have $67 billion of authorized unfunded Corps 
projects. Some of them will never be built, but we guess that 
somewhere around $20-25 billion of those projects are going to 
be built. They are authorized, but at the current level of 
funding, it will take a long, long, long time to build and 
invest in that infrastructure. It just seems to me that a 
reduction of nearly one-half a billion dollars in fiscal year 
2011 in investment in Corps water projects is not going to be 
able to do what we need to do to invest in these infrastructure 
projects. What is your judgment about that?
    Ms. Darcy. Senator, we can always use more money, but we 
are going to make the best investments with the dollars that we 
have, not only for the infrastructure but for the entire Corps 
mission and the Corps program. We have a lot of challenges. We 
have many unmet needs. The infrastructure in this country, we 
all know, is aging. But within the dollars that we have 
proposed in this budget, I think that we are going to do the 
best we can with the high-performing projects that we are going 
to be able to afford to fund.
    Senator Dorgan. Yes. I would guess the consensus of this 
subcommittee will be to re-prioritize the funding in the series 
of accounts in order to avoid a one-half-billion-dollar cut in 
water infrastructure funding. I just don't think that that's 
what we ought to be doing at this point.
    Let me ask General Van Antwerp a question. You used one 
word that concerned me. You said, ``I think we have the funding 
for this flood fight this spring.'' Did you mean to use 
``think''?
    General Van Antwerp. We do have the resources. Let me 
clarify. We do have the resources right now for everything that 
we can predict that we're going to need to do.
    Senator Dorgan. My colleagues will remember last year that 
the Red River flood fight went on for nearly a month. According 
to the National Weather Service, it appears there is nearly a 
100 percent chance that we will see major flooding within the 
coming weeks, particularly in the Fargo-Moorhead area. So, they 
are also working on a flood control project and Secretary Darcy 
and I and others have talked about this. It's a very important 
issue for them because it is a recurring problem and puts a lot 
of population at risk and property and so on.

                          RURAL WATER PROJECTS

    Let me ask, if I might, of the Bureau of Reclamation, how 
did you arrive at the funding decisions for rural water 
projects? Most of them seem funded at minimal levels, and the 
fact is at these levels, inflation is probably going to 
increase the project cost faster than the funding that we are 
investing in the project. So, can we get some notion of how you 
made these judgments about rural water?
    Commissioner Connor. With respect to the rural water 
program, we have been able to increase the level of funding up 
to the $62 million, which I think reflects a similar amount to 
that that was proposed in the 2010 budget. So, we are trying to 
keep a budget that makes some continued progress with respect 
to the two projects that have significant construction activity 
and are nearing completion. Those would be the Garrison project 
and Mni Wiconi. Within the available resources, given all the 
competing priorities, we're trying to present a budget that 
sustains activity in those other projects, keeps the 
administrative activity on the ground, and helps people 
continue to do their planning efforts and to do some level of 
maintenance on the project facilities that have been 
constructed since they're anywhere from 10 percent to 84 
percent fully constructed.
    So, I completely concede the point that at the funding 
level of $62 million, several of those projects are going to 
fall behind from an inflation perspective versus what we are 
able to invest. But it's a level that has been brought up from 
prior budgets over the last 3 or 4 years. We were able to make 
significant inroads in some of the activity with respect to 
Recovery Act money, and we're trying to prioritize within the 
available resources in that account on a couple projects and 
keep the others going.

                     INFRASTRUCTURE REHABILITATION

    Senator Dorgan. With respect to the Bureau, something 
Senator Bennett asked about or raised during his opening 
statement was that a recently passed lands bill, as Senator 
Bennett indicated, gave Reclamation the authority to address 
the rehabilitation of its aging infrastructure. Prior to this, 
it had been a non-Federal responsibility. But much of the 
infrastructure of the Bureau is well over one-half a century 
old, and some of it is in pretty poor condition, and yet no 
funding was provided in the budget.
    And I guess the question I would ask is does this mean this 
will be and remain a low priority for the administration? And 
with the infrastructure over 50 years old, much of it over one-
half a century old, the problem will increase rather than 
decrease; so has Reclamation developed contingency policies in 
the event of the failure of infrastructure?
    Commissioner Connor. Infrastructure is a very high priority 
in our budget, and our budget starts with baseline numbers of 
what it takes to operate and maintain our projects. That's 
where building our budget starts, with those activities. That's 
an annual view of maintenance to keep projects in operating 
condition. We do have a significant issue with respect to major 
rehabilitation, and the tool provided in the omnibus public 
lands bill was a very valuable tool. Previously, there was just 
no opportunity for our stakeholders to make that investment 
beyond a 1-year period. Now we have a tool that, if resources 
are provided, they can enter into a repayment contract not to 
exceed 50 years.
    So, that's part of what we need to be doing. We don't have 
any money request in the budget. You're correct. But we're 
still evaluating the needs in that situation. We invested $10 
million of Recovery Act money to assess the condition of our 
major canals. We're doing 95 stretches of canals that we 
anticipate we will have reports on through the end of this 
calendar year that will identify the need of where we think we 
need to make investments. We are talking with some stakeholders 
about their major rehabilitation needs, such as in Idaho, and 
initiating discussions on what a repayment contract would look 
like so that we can put that tool to work, should there be 
resources.
    And, finally, if we can do this without a major increase in 
our appropriations for this activity, one of the keys is to 
have the loan guarantee program that was authorized in the 2006 
Rural Water Project Act. In trying to implement that loan 
guarantee program, we came across several issues that need to 
be evaluated, and that's going to be on our agenda this year, 
to go back to the Office of Management and Budget and have that 
dialogue on that loan guarantee program.
    Senator Dorgan. Secretary Darcy, do we have the full 
commitment of the Corps of Engineers to work with the Red River 
Valley in Minnesota and North Dakota and the interests as they 
move forward, not only to fight that flood this year again, as 
they've done so many years, but also as they work locally to 
make judgments about the comprehensive flood control project 
that is necessary to protect the largest population center on 
the Red River Valley? Is the Corps prepared to work fully with 
State and local interests with respect to the Federal interest 
on these projects?
    Ms. Darcy. Yes, Senator, we are.
    Senator Dorgan. And anxious to do that?
    Ms. Darcy. Can't wait.
    Senator Dorgan. Happy to do that? It's going to be very 
important. I mean, we've got people living on an edge here that 
has been very troubling for them and now facing a very 
significant, major flood threat once again. So, I appreciate 
that.
    Let me make one comment, and that is that, you know, 50 
years ago, half a century ago or more, in this country we built 
new things. We did a lot of projects, a lot of new projects. We 
built an interstate highway system that connected the entire 
country. We couldn't do that now in a million years. You 
couldn't propose spending that kind of money to connect America 
with an interstate highway system, but the fact is, if we don't 
get serious about the infrastructure, yes, roads, bridges, 
water projects, you name it, we won't be the kind of country we 
used to be in the minds of people from around the world who 
came to see what America built. You know, we won't be making 
anything, and we won't be building anything. We've already gone 
way down the road in not making anything.
    But this budget is very important. This subcommittee is a 
very important decisionmaker about what our country is going to 
be in terms of the infrastructure we build for the future. 
These are big investments that create significant assets for 
decades to come. So, I want you all to work very hard inside 
the administration next year to bring better budgets if you 
can, because we're going to have to make significant judgments 
and changes in this budget. I just think it substantially and 
dramatically underfunds our water programs.
    As I indicated, we will have 7-minute rounds. I exceeded 
mine by a minute or so, but let me call on Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman, and 
thank you for your statement. I agree with you absolutely that 
this subcommittee is going to have to exercise its authority to 
try to correct some of the problems we have in this budget.

                       QUAGGA MUSSEL R&D PROGRAM

    Senator Voinovich focused on the carp and the difficulties 
that would create in the Great Lakes. People in Utah are very 
concerned about Quagga mussels and the impact that they will 
have as an invasive species in Lake Powell and other places. 
And in fiscal 2010, we provided funding to the Bureau of 
Reclamation to establish the Quagga mussel R&D program, and I'd 
like to know what the status of that is.
    Ms. Castle. Yes, Senator, the Quagga mussel program--the 
science and technology and research and development on both 
looking at materials that will resist the attachment of Quagga 
mussels and also looking at ways to kill them selectively 
without killing other life in the water--that is ongoing in 
Reclamation's Technical Services Center. The budget for science 
and technology this year, proposed for 2011 for the Bureau of 
Reclamation, is about $6 million. Of that, approximately $2 
million--and Commissioner Connor and Mr. Wolf can be more 
specific--is for that Quagga mussel research.
    Senator Bennett. Thank you. I appreciate that specificity 
and simply want to reaffirm the importance of following through 
on that.

                  CENTRAL UTAH PROJECT COMPLETION ACT

    You made reference, Secretary Castle, to CUPCA, the Central 
Utah Project Completion Act, and the budget is up $1 million 
compared to fiscal 2010. Obviously, you will insist that this 
is the right number, but can we probe that just a little and 
see what the total funding capability for CUPCA in fiscal 2011 
and why you think that's adequate?
    Ms. Castle. Senator, we were actually delighted to have an 
increase in the CUPCA budget for 2011 given the austerity of 
the overall budget. CUPCA also benefited, as you know, and you 
were responsible for significant Recovery Act funding. It's my 
understanding that CUPCA normally has about three project 
contracts going at a time. We now have nine as a result of the 
Recovery Act additional boost. So, that money has really 
allowed us, together with the 2010 and 2011 budgets, to move 
forward much more expeditiously than we had anticipated with 
CUPCA, and we are fulfilling the capability of the Central Utah 
Conservancy District.

                          2011 DROUGHT OUTLOOK

    Senator Bennett. Very good. Let's talk about drought. What 
is the drought outlook for the West in 2011? You've budgeted 
$380,000 for drought assistance, and that means you must be 
looking at a pretty wet year. Give me your background and your 
attitude with respect to that.
    Ms. Castle. Well, I'll take a crack at it, Senator, and 
then turn to Commissioner Connor. The drought outlook varies 
every year. We're used to seeing very significant droughts in 
the Southwest. This year, it looks like we're going to have 
significant drought in the Northwest, in the Columbia River 
system, in the Upper Colorado Basin. And we're focused on that 
in looking at our water management operations and trying to 
plan for the best use of the available water. Fortunately, many 
of our reservoirs have been able to refill over the past year, 
so we're going into this, in these drought locations, in better 
shape than might have been the case.
    The drought assistance money that the Bureau of Reclamation 
has had has not been huge amounts over its history. We have 
authority for drought assistance. That authority expires at the 
end of 2010 fiscal year. We do have $380,000 in the budget for 
the contingency that we are able to spend that money for 
drought assistance. We're able to use it for temporary 
structures and for the construction of wells to assist in 
drought relief. And that's something that we may want to work 
with the subcommittee on to look again at the authorization for 
drought assistance and determine whether those particular 
authorizations make sense in light of current conditions.

                              LAKE POWELL

    Senator Bennett. You say the reservoirs are refilling, and 
that is true in the Central Utah Project. Do you have any sense 
of where Lake Powell is going to be at the end of this year? 
Back up, but how much or is that just a----
    Ms. Castle. Yes----
    Senator Bennett. Yes, I realize, but you've probably done 
some studies as to where you think Lake Powell is going to be.
    Ms. Castle. The most recent figures that I've seen indicate 
that stream flows and precipitation, snow pack in the Upper 
Colorado, the source of fill for Lake Powell, is about at 68 
percent. So, it's been coming down and down and down. It 
started the water year out very well, but things have not 
progressed the same way. So, Lake Powell may not get any fuller 
than it was--last year it was about 60 percent at its peak of 
capacity. But let me defer to Commissioner Connor, who may have 
more specifics on that.
    Senator Bennett. Yes.

                          COLORADO RIVER BASIN

    Commissioner Connor. Just a couple additional thoughts. I 
think Lake Powell currently is a little over 60 percent of 
capacity. The real issue is the Colorado River Basin--and all 
the figures that Secretary Castle quoted are the ones we're 
working with. As a result, Lake Powell will probably release 
the minimum 8.23 million acre-feet this year to satisfy the 
Colorado River Compact obligations.
    Lake Mead is only at 44 percent capacity, and that's the 
real concern at this point in time in the Colorado River Basin. 
Fortunately, it was at 42 percent just a couple months ago. So, 
the moisture in southern California and that area has helped us 
save water, and that has improved the situation. And the 
coordinated operations agreement that the seven basin States 
put in place a couple years ago has helped us have an objective 
set of criteria to manage those two reservoirs so that 
everybody understands the rules and is dealing with them. But 
if we don't turn around and have a good precipitation year--
we're in a 10-year drought cycle in the Colorado River basin--
we're looking at the possibility, within a couple years, of 
having to declare a shortage in the Lower Colorado River basin. 
So, things are touch and go with respect to that system.
    Senator Bennett. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Tester [presiding]. Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman. Moving from Utah 
to Louisiana is about as different as you can get on this 
subcommittee, and it shows how difficult and challenging our 
work is, and your work, to accommodate the extraordinary needs 
of the Nation with very limited resources. The Senator was just 
questioning you about the lack of water, and I'm going to 
question you about the fact that we have so much of it we don't 
quite know what to do with it. And if we could keep it in our 
rivers instead of out of neighborhoods and cities where homes 
fill up to the roof with water, we would be in better shape, 
and that's what my line of questioning is.

                     LOUISIANA COASTAL RESTORATION

    I want to begin on a positive note, though, by thanking 
this team and particularly the President for, in all of the 
budget, designating only two new starts and one of those being 
the coastal restoration efforts in Louisiana, which we have put 
extraordinary and mighty and, I think, good work into getting 
the Nation's attention about the great need. And I want to say 
that we're grateful for the $10 million that is in this bill to 
begin turning dirt, at least the Federal Government begin 
really turning dirt, on Louisiana coastal projects, which 
protect not just south Louisiana and parts of Mississippi and 
actually benefit some parts of Texas, but actually benefit the 
entire Nation as we are the largest drainage basin in the 
Nation, the fifth or sixth largest delta in the entire world. 
We have the largest land loss anywhere in the lower 48. And 
it's quite an urgent matter.
    But my question is this: We have $10 million for new 
construction. That is going to be applied to 18 projects, 
currently approved and pending authorizations, General or the 
Secretary, the total of which is $2 billion in authorization. 
So, I just did a little rough math, assuming these projects 
will take anywhere from now to 7 years. We need $300 million a 
year just to finish these 18 projects, which are the first 
piece of the Louisiana coastal restoration effort. And you've 
given us $10 million. We're grateful, but how are we going to 
get where we need to go?
    Ms. Darcy. Senator, as you say, this is a start. The needs 
in coastal Louisiana have been identified by not only the 
Congress but on the ground down there. We've got ongoing 
studies also in the budget this year. We are funding six 
additional studies--the six studies for the LCA program.
    Senator Landrieu. I appreciate that. I don't want to 
interrupt. I appreciate that, but the point is this--that we've 
actually been studying this, the Federal Government has been 
studying this now for more than 20 years, and this is the first 
$10 million that's been directed in a budget for construction, 
of studies associated with coastal security and restoration. We 
don't really need more studies. What we actually need are more 
hard dollars to construct what we already know we should be 
doing. So, I just want to leave you, you know, with that 
challenge.
    I will second, ask for some comments from you, Madam 
Secretary, about the White House Working Group on Coastal 
Louisiana, which I know you were a part of, and this was part 
of the outcome of this work. How--I'm encouraged by the first 
step; I'm encouraged by the report that was released. How do 
you think--and I'd like, General, you to comment as well--how 
can we accelerate our work based on this new working group, and 
what does the Corps--how does the Corps either its changing 
role or a different role based on what this report has already 
indicated? And maybe, General, I'll ask you, and then come back 
to you, Madam Secretary.
    General Van Antwerp. Thank you, Senator. First of all, I 
think what it really is, is a signal for partnership and 
collaboration and really working with local authorities to get 
all of the input that we need so we get the preferred solution, 
the best solution, and the one that has the best benefit-cost 
ratio. I think it is definitely a move in the right direction.
    Senator Landrieu. Did you all talk about accelerating the 
time for planning, construction, and implementation?
    General Van Antwerp. We have had a lot of discussion about 
cutting the amount of time in the planning process. The other 
issue that we've been discussing is the external reviews, in 
that how can we make sure we get those done so that we get the 
best and the brightest working with us, but not to extend the 
time that it takes to get this done, to actually cut it down. 
We're really looking at saving time to get to the end state, to 
get to construction, as you've mentioned.
    Senator Landrieu. Well, I would just mention to my 
colleagues, this is really an unprecedented effort that's going 
on between the Corps and many of the environmental groups, the 
marine industry, the fisheries industry, the agriculture 
industry, the oil and gas industry, the State of Louisiana, and 
it really is an exciting project, but we're going to continue 
to need to accelerate the work and find additional resources.

                          LEVEE CERTIFICATION

    Going up to the top of my State, to Louisiana and actually 
up to the Mississippi, there is great concern--you've heard it 
mentioned again, and I guess maybe, Secretary, this would be 
for you--about the recertification of the levees. Now, these 
levees--this levee system was built in large measure after the 
great flood of 1927, and that was generations ago. We didn't 
even have GPS and the technology we have today to give accurate 
elevation accounts. Now we're--the Corps of Engineers is 
traveling up and down these levee systems through all of our 
States, coming up with accurate data, but it's causing a 
recertification of these levees, Madam Secretary. My question 
is; is there any money in this budget to help even one 
community with increased insurance costs or increased cost-
share?
    Ms. Darcy. Senator, the money included in this budget is 
not for certification for those levees. As you know, the local 
sponsor is responsible for the operation, maintenance, and the 
certification of those levees. We're finding across the country 
that they are challenged mostly because of the time constraints 
in getting a levee either certified or repaired, and then when 
the FEMA flood insurance requirements will kick in.
    Senator Landrieu. Well, I'm going to ask the Corps to 
submit to this subcommittee an estimate of the total amount of 
money that is going to be needed to accommodate these new 
certifications. I think this subcommittee is going to be 
shocked when the numbers come in, about what our communities 
are going to have to either step up or pay in money that they 
don't have or pay in additional insurance premiums to get flood 
insurance coverage, and for Ouachita, for Rapides Parish in my 
State. But it's all the way up the Mississippi River and 
perhaps in some of the other river systems as well, so.
    I have several other questions, but my time is out. I'll 
submit the rest for, you know, written response, and just to 
invite any of you that want to travel to the Netherlands, we're 
taking a third trip. This subcommittee has been gracious about 
supporting these efforts over time, and we've found some 
extraordinary peer opportunities in the Netherlands about water 
management, living with water safely, which is something I 
think our country needs to learn how to do a little bit better. 
Thank you.
    Senator Tester. Thank you, Senator Landrieu. And it does 
affect other drainages. I will defer till the end.
    Senator Cochran.

                  EXPEDITING PROJECTS FOR JOB CREATION

    Senator Cochran. Mr. Chairman, Madam Secretary.
    Secretary Darcy, we appreciate very much your efforts to 
work with the elected officials in our State of Mississippi to 
identify and try to help move forward water projects, 
reclamation projects, and protection of gulf coast areas that 
are threatened. And our Governor is hard at work trying to 
identify some of the things that can be done in cooperation 
between the State and its responsibilities and Federal 
Government agencies.
    The reason this has taken on a new urgency is that just 
this morning, we received word that unemployment in the State 
of Mississippi has reached 12 percent. That was not expected, 
but it--the news comes as a warning that we need to get busy 
and figure out ways to deal more effectively with unemployment 
problems and look to Government agencies who can contribute 
with accelerating projects that were already approved, already 
been funded, but where work and actual job-creating activity is 
not moving as fast as it could be. So, I'm hopeful that we can 
work with you and General Van Antwerp and others in the Federal 
agencies and the Corps of Engineers to try to identify some of 
these opportunities.
    One permitting project that can be expedited, I'm told, 
that has already be funded is the port at Gulfport, where work 
can be done to help modernize and recover from some of the 
damages that were sustained during Hurricane Katrina. We've had 
serious damages done there that need attention, and we can 
start work very quickly. There's a Mississippi coastal 
improvement plan which is also finished. It's my understanding 
that the Corps is looking at ways to improve and expand port 
capacity in the Gulf of Mexico. We have a Panama Canal 
expansion that's under way.
    So, things are coming together now and providing 
opportunities for us to really do some things that will help 
economically both State and national interests.
    So, I'm wondering--and I don't know which witness wants to 
take this question, but what is the time line now for 
implementation of the Mississippi Coastal Improvement Plan? We 
provided $439 million for barrier island restoration work, and 
we wonder when the work is actually going to begin.
    Ms. Darcy. Senator, I believe the work on that particular 
program which was authorized in an appropriations bill and 
included funding of $439 million, I believe that some of that 
work has begun. In addition to that, we have submitted to the 
Congress the Chief's report for additional ecosystem 
restoration for the barrier islands and others along the coast 
of Mississippi. It was the first Chief's report that we 
actually submitted to the Congress earlier this year, and I 
think that included 12 additional projects on the coast, 
including the barrier island restoration.
    Senator Cochran. General Van Antwerp, do you have 
information you can provide us?
    General Van Antwerp. I think that information covers it, 
but your other question about getting the permits required--
we're committed to getting the permits as quickly as we can in 
some of the areas like the Gulfport Harbor expansion. We are 
probably going to need an EIS there because of its large amount 
of fill and other things. Generally, an EIS takes 18 to 24 
months. We're looking at all of those aspects to try and 
expedite the permit process.
    Senator Cochran. Well, our Governor, Haley Barbour, is 
working very hard in his capacity as Governor of the State of 
Mississippi to help contribute to expediting these projects. 
And so, what I'm hopeful is that if you run into any delays 
that can be dealt with either by legislation or by accelerating 
appropriations directed toward some of these projects, you will 
please let us know. I'd like for you to look at the budget 
request you've submitted and find some areas where we can 
provide funding that will help achieve these goals of better 
and higher levels of protection and job-creating activities 
where the projects have been approved, Congress has approved 
them, directed that they be done, funding has been 
appropriated, but nothing is happening. So, we hope we can 
change that and we will have your cooperation in doing it.
    Ms. Darcy. Yes, Senator. I had the opportunity to tour the 
coast of Mississippi with the Governor several months ago, and 
he was adamant about not only expediting permits but, I think, 
to quote the Governor, about the expansion of Gulfport Harbor, 
he was ``as serious as a heart attack'' about that project. So, 
we're well aware of it.
    Senator Cochran. Well, with the Panama Canal expansion, the 
opening of the new parts of that, we're going to see a lot more 
traffic coming into the Gulf of Mexico, bigger ships. We're 
going to have to accommodate those ships at gulf coast ports. 
And the port at Gulfport is ideally suited geographically. The 
public supports the expansion. You're not going to have people 
out there lying down in front of the workers when they start to 
work. People are going to be cheering and applauding because 
they know it's a good idea economically, and in terms of 
environmental concerns, it has already been cleared. Thank you 
for whatever you can do to help expedite that.
    Thanks, Mr. Chairman.
    Senator Tester. Thank you, Senator Cochran.
    Senator Johnson.

               BUDGET POLICY OF THE BUREAU OF RECLAMATION

    Senator Johnson. I want to thank the panel for appearing 
before this hearing. It is nice to see you again, Commissioner 
Connor. And I hope that you are enjoying sitting on your side 
of the desk after all the years you've spent in the U.S. 
Senate. I also want to commend the Bureau on using the Recovery 
Act funds to speed up the completion of key projects on water 
systems in the Great Plains and South Dakota.
    Commissioner Connor, it is my understanding that the 
Bureau's first priority in funding rural water projects is a 
required O&M component, and then for construction, the priority 
is on projects nearest to completion and projects serving 
Indian tribes. That stated policy doesn't seem to align with 
the actual budget. I'm profoundly disappointed, in fact angry, 
at the Bureau's budget for South Dakota projects in particular.
    What the Bureau proposed was a budget that did not fund 
drinking water projects with a tribal component, such as Mni 
Wiconi, at their full capability, and then provided what 
appears to be a fig leaf of money for projects without a tribal 
component, such as Lewis & Clark. Can you explain to me what 
appears to be an absolute disconnect between the Bureau's 
budget policy and the actual funding requests?
    Commissioner Connor. Senator Johnson, there is some 
consistency with the priorities, given the fact that Garrison 
and Mni Wiconi did receive the most resources in the budget 
request, based on both their tribal components and where they 
are in the construction phase, being two of our most advanced 
projects.
    With respect to the other projects, we are within the 
resources we have, once again, which do not reflect capability, 
as you noted. We are trying to maintain some activity on those 
projects to allow there to continue to be planning activity and 
for there to continue to be some level of maintenance of the 
facilities that have been constructed. We did, as threshold 
matter, take into account O&M as the priority. So, we have $15 
million of the $62 million that's been identified in the budget 
is for O&M. I think it amounts to $5 million for Garrison and 
$10 million Mni Wiconi. And those are, quite frankly, eating up 
an increasing part of the overall budget that we can make 
available within the resources we have right now.
    So, I think the answer to your question is we are trying to 
allocate those resources on a proportionate basis, based on 
those priorities, those are the overall amounts that we have. I 
certainly understand it doesn't keep up with the construction 
schedules that could be attended to if there were available 
resources, and we're trying to do our best to keep the projects 
in some level of activity as we move forward.
    Senator Johnson. I would remind you that the State and 
local share has been completely exhausted, and all that's left 
is the Federal share.
    I know that the State of California has required quite a 
bit of your time and energy over the past several months. 
Speaking for members of the Great Plains region, I'd like to 
extend an invitation to you to travel to South Dakota to see 
for yourself the progress being made in completing these 
important rural water projects serving hundreds of thousands in 
South Dakota.

                        NORTHERN PLAINS FLOODING

    General Van Antwerp, the Northern Plains region are under 
the threat of significant overland and river flooding this 
spring as a combination of very wet snow pack and saturated 
grounds from a rainy, wet fall. Can you please describe in 
detail what actions the Corps of Engineers are taking now to 
prepare for a possible severe flooding?
    General Van Antwerp. Thank you, Senator. We're taking a lot 
of action right now. To outline a few of the things--first of 
all, we've gotten with NOAA and we have the projections, as 
best as they can determine right now, and that gives us the 
early warning. We know that there is going to be significant 
flooding. We've started with our community involvement. It's 
actually been going on for quite some time, with the State and 
Federal agencies. We've looked at the request for advance 
measures and have received a lot of those where we've looked at 
our inventories of things such as sand bags for example, and 
things that would be part of those advance measures. We have 
the resources we feel necessary to fight these floods. We 
actually have people out on the levees today with the local 
folks.
    One of the other things we do is we lower the water levels 
at our reservoirs. We're doing that right now in anticipation 
so that we can be as ready as we can. We had a meeting 
yesterday with all of our Commanders associated with this and 
our security chiefs that have to do with the flood fighting 
just to make sure those personnel resources can be made 
available and are available when this happens.
    We also have another event pending in the Pennsylvania 
area, in which our Pittsburgh District handles. We're going to 
be all across the country, maybe as early as this weekend.
    Senator Johnson. Thank you, Mr. Chairman.
    Senator Tester. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman, Senator 
Bennett, for holding the meeting, my apologies for arriving 
late. Senator Murray and I have the responsibility to try to 
straighten out HUD with Secretary Donovan. She is questioning 
him at length and will be here, and I'm going back. Anybody 
wants to go take a few shots in the interim, please do so.
    But, Lieutenant General Van Antwerp and Madam Assistant 
Secretary thank you very much for your testimony.
    Jo-Ellen, we welcome you back to the Senate. I hope I won't 
get you in trouble with the administration to say that we all 
were glad to have a long-time friend from the legislative side 
on the other side of this debate. So, I hope it doesn't mess 
you up.
    But as you all know well, there's one issue that's near and 
dear to the hearts of several of us. Senator Dorgan and I are 
both very interested in the regulation of the Missouri River. 
Now that Senator Dorgan and I have full lakes and a full 
navigation season, our work is complete, so we both are able to 
retire from the Senate in 2011. I know how much you will miss 
us both and all our helpful counsel, but with us gone now the 
entire burden lies on you, don't blow it.
    We finally got the lakes and the rivers full, and it's up 
to you to keep it going.

                       INLAND WATERWAY MANAGEMENT

    But on waterways in general, we have some very difficult 
economic times, and we're all looking for stimulus. There's a 
lot of money being spent. I hope that you two are being strong 
advocates within the administration for budget priorities. And 
there are budget priorities that are very important.
    We have immense capacity on our rivers for shipping. It's 
efficient. It takes far less energy, releases far less 
pollution, and it's a big answer to long-term congestion 
problems. This is a win-win opportunity. We have projects in 
the backlog that are shovel-ready, and I hope you're looking at 
these and fighting for them. They need to be--they need to be 
included in the budget and the plans. A big priority for a lot 
of us in the Midwest is modernizing the Social Security-age 
locks on the Mississippi River. If you are for increased trade, 
commercial growth, and job creation, all of which we 
desperately need right now, you cannot get there without 
supporting the basic transportation and infrastructure, like 
the much-needed new locks and dams on the Mississippi.
    As we look 50 years into the future, we have to ask 
ourselves a fundamental question: Should we continue to be 
stuck with a system that was designed in a transportation 
straightjacket for 1950 rather than 2050? It was designed when 
we still had paddle wheel boats, and we are strangled. I've 
visited those locks. I've seen the double locking they have to 
go through. And we know that if one of those locks--they don't 
just leak right now; sheets of water come down when the water 
is low. If one of those locks on the lower Mississippi--one of 
the lower ones goes out our trade is going to be crippled.
    You remember what happened--well, those of us in 
agriculture territory know what happened when Hurricane Katrina 
blocked the mouth of the Mississippi River. I mean, it was a--
it was a huge shock to the entire economy of rural Midwest. 
That's where I live. That's where my people live. And I was 
very troubled and disappointed that while funds for river 
modernization are authorized, there's no money for those 
projects in the budget. The oversight is disappointing since 
the locks are our Nation's most important inland waterways and 
the projects are ready to go. I'm stumped by the budget 
oversight. Since the President has been on his--you may 
remember he was a lead partner with me in authorizing the 
project, and the future is now in his hands. Get the word to 
the Budget Office.
    I see this as a most promising opportunity to get something 
big and important underway. It is good for jobs. It is good for 
reducing energy dependence, and it is the best thing we can do 
in transportation right away for lessening pollution. This 
project would involve 48 million man-hours, creating much 
needed jobs. And our friends in labor, throughout the Midwest, 
are crying for this job stimulus, which is good for the 
economy, good for the environment. It will put--it will help 
people in the Heartland grow, mine, manufacture things, and be 
more competitive.
    Additionally, river modernization has broad ecosystem 
restoration components, and while that doesn't create as many 
jobs as we would see on the commercial side, it would help 
broaden the support for pressing forward with a meaningful 
project with bipartisan support. And, as I said, the President 
when he was in the Senate was a vigorous supporter of this, and 
we need OMB to get the joe.
    Now, I guess I'm going to be sending a letter to the 
administration, but, General, let me ask you, are you working 
on these opportunities? Are you looking for similar 
opportunities where the Corps can work with stakeholders, work 
on American job creation, and work to get the necessary 
financing behind the projects that I think anybody who has paid 
any attention to it knows we badly need? What's happening? 
Where are you going? When are we going to see some budget 
recommendations?
    General Van Antwerp. Thank you, Senator. There are a lot of 
questions in there. I'll try and give it my best shot. I was--
--
    Senator Bond. How are we going to get--we need money in the 
budget.
    General Van Antwerp. Right.
    Senator Bond. That's the question.
    General Van Antwerp. That's the bottom line.
    Senator Bond. What are you doing to get it there?
    General Van Antwerp. I guess the first thing is to really 
know what we have and what condition they're in, and we do know 
that now.
    Senator Bond. Yes.
    General Van Antwerp. So, we can prioritize those things. 
You know we had some lock chamber problems this year, and what 
we don't want is unscheduled outages because that's what backs 
up the industry. We do know what we have, and we've taken these 
dollars in this budget and, as best we can, prioritized for 
those that are most crucial, have the largest impact, and have 
the most--I guess the most opportunity for failure. So, that's 
how we've budgeted right now.
    Senator Bond. But you know there--the needs are far greater 
than the dollars in the budget.
    General Van Antwerp. The needs are far greater than the 
dollars we have----
    Senator Bond. Far greater.
    General Van Antwerp [continuing]. To put against them. Yes.
    Senator Bond. What can you do to help get the dollars 
there?
    General Van Antwerp. Well, I think that the first step 
really is what we've done, and that is to let the need be known 
with the priorities, so that we know that with whatever dollars 
we have, we're able to do the best we can. We have some 
American Recovery and Reinvestment Act dollars in the O&M 
account, about $2 billion in the civil works arena. That helped 
a lot, but the backlog is great. The American Society of Civil 
Engineers says the infrastructure backlog in the country is 
$2.2 trillion. That is what we're up against, and we have a 
part of that, as you said. It's Social Security age. I like the 
way you stated that. That's the age of our lock system.
    Senator Bond. Unfortunately, when we talk about Social 
Security age, I'm at the age where ``don't ask, don't tell'' 
refers to the year I was born in so, I know something. The 
locks are older than I am which should be shocking.
    Mr. Chairman, I am going to--I'm going to have to go back 
to the hearing, but I know that Senator Murray obviously has 
quite a few things she'd like to ask. But I'll leave you with 
good wishes and the profound hope that we can work together and 
make sure we get the money in the budget for what is a 
tremendous opportunity that we're missing now.
    Senator Tester. Thank you, Senator Bond. And tell Senator 
Murray that, when she gets here, we'll be open for business, 
but tell her to move quickly.
    Senator Bond. I'll do that.
    Senator Tester. Thank you.

                          LEVEE CERTIFICATION

    This is a question for Secretary Darcy and General Van 
Antwerp, and it deals with a singular town, but by Senator 
Landrieu's questions, it's more broad-spread than that, and I 
think you know that.
    Right now, the city of Great Falls is having--Great Falls, 
Montana, is having a serious problem getting their levees 
certified for inclusion on the FEMA flood maps. Last July, FEMA 
let Great Falls know that their levees would need to be 
certified. When Great Falls went to the Army Corps for help, it 
turns out that those policies changed the January before to say 
that no Federal funds could be used on levee certification 
unless it was in an active Army Corps area project. That left 
not only Great Falls but a lot of folks scrambling to find out 
how they could come up with an engineering firm that was 
qualified to do the work and, second and even more challenging, 
a way to pay for it. Because all the communities in Montana are 
rural, you do not have the population to be able to spread out 
those costs.
    I was just wondering why that change was made, why the Army 
Corps made the change to not do any more certification, and 
what are they doing to help small communities with levee 
certification.
    Ms. Darcy. Senator, the decision was made to change the 
policy because of resource limitations to certify the levees. 
We, at the moment, are trying to work with the locals in order 
to provide some sort of way to help them with their 
inspections, but at this time, we don't have a budgeted 
resource for that service.
    Senator Tester. Okay. So, ultimately--I mean, Senator 
Landrieu asked a question of how much it was going to cost. 
We've heard anywhere from, well, around $30,000 a mile. The 
folks in Great Falls that I talked to said it was going to be 
more than that. How are we going to solve this problem? Because 
the fact is, if we don't get the levee certified, if they don't 
have the means to do it, and the flood insurance goes up, 
houses don't get sold--it further depresses an already 
depressed economy. How are we going to fix it?
    Ms. Darcy. Senator, I think one of the things we can look 
at doing is working with FEMA. I think one of the challenges 
that many of the local sponsors are finding is one of time, 
that there's a 2-year window here in order to get your levee 
certified before the increased flood insurance rates would kick 
in, and in many instances, it may just be a matter of time in 
order to get the resources and get the levee in shape to get 
certified.
    I think if we can work with FEMA in order to look at some 
kind of--I'm not sure what the end result would be, but I think 
we need to look at that because there are lots of people, not 
only in Montana, but around the country who are faced with the 
same challenge. And it's not that they were bad actors; it's 
just there's not the time nor the resources to do whatever is 
needed to bring the levee up to certification.
    But your point about is there a firm in their geographic 
area or nearby who has the capability and----
    Senator Tester. Right.
    Ms. Darcy [continuing]. And the wherewithal to provide that 
certification.
    Senator Tester. And it's not only time; it's liability, 
too, because during that 2-year period, the liability shifts to 
local cities, towns, counties. Is there anything that can be 
done about that?
    Ms. Darcy. That, again--I think we have to address it. I 
can't tell you right now what that would be.
    Senator Tester. Okay.
    General Van Antwerp. Senator, if I might add, one thing 
we're doing right now is we're trying to get the databases for 
inspections that have been done so that it can cut down on the 
cost of certification. There are a lot of A-E firms out there 
that will do the certification today, but, as you suggested, 
it's the cost. And it can range from between $150,000 to $1 
million depending on----
    Senator Tester. How big the levee is?
    General Van Antwerp [continuing]. The levee.
    Senator Tester. Yes and the other issue is bonding, because 
of the liability issue.
    General Van Antwerp. Right, your liability associated with 
that.
    Senator Tester. Yes. Along those lines, you are 
performing--the Army Corps is performing some work on those 
levees. Is it your opinion that work will be able to be used in 
the recertification project to help drive costs down, even if 
the recertification is done by a private engineering firm?
    General Van Antwerp. We basically have four types of 
levees. We have levees that are Corps-built, Fed-built, and 
Fed-operated O&M.
    Senator Tester. Yes.
    General Van Antwerp. Then we have the Fed-built, but 
locally maintained.
    Senator Tester. Right.
    General Van Antwerp. And then we have some that are in a 
category that we flood-fight, and then we have the others. And 
the others are about 100,000 miles worth.
    Senator Tester. That's fine.
    General Van Antwerp. So----
    Senator Tester. The question is, is where you are already 
doing certification work, is it possible to use that 
certification work to help keep costs down by a private firm 
that's doing certification work? And----
    General Van Antwerp. We're working----
    Senator Tester [continuing]. Is that being done now, 
because there's a lot of work that has to be done.
    General Van Antwerp. Where we're doing certification work 
right now is in the area where it's Fed-owned and Fed-
maintained, and so that's the limit of what our resources 
allows us to do. So, that other area, other than giving them 
all the data we have for those other types of levees, that's 
been our contribution to try and help them cut costs.
    Senator Tester. Okay. And just to confirm, I heard you, 
Secretary Darcy, say that you were going to--because this is my 
next question. I think you may have already answered it. That 
the Army Corps was going to work with FEMA to help with local 
communities with the flood issue. Because it's--I mean, we've 
got them across the board. I mean, town that have--Malta, 
Glasgow, Chinook, Saco. I mean, some of these are really small 
towns. There has to be a solution for this; otherwise, we're in 
big trouble.
    Ms. Darcy. I think that we will need to work with FEMA in 
order to help to address that concern because, as you noticed 
and as you have stated, it's nationwide.
    Senator Tester. Okay. Thank you. I'm going to kick it over 
to Senator Murray, and then I've got some questions for the 
Corps after Senator Bennett gets done.
    Senator Bennett. I'm waiting to hear what Senator Murray 
has to say following on Senator Bond. So----
    Senator Murray. I will just send him back to 
Transportation, so.
    Well, thank you very much, Mr. Chairman. I really 
appreciate your having this hearing. I know the Corps is facing 
some tough budget times ahead, and I appreciate the work all of 
you do out on the ground.

                           HOWARD HANSON DAM

    General, I wanted to talk to you because, as you know, 
Howard Hanson Dam in my home State of Washington, has a 
significant seepage problem that is putting all of our 
downstream communities at serious risk of very, very dangerous 
flooding, and I really want to thank you and Assistant 
Secretary Darcy for coming out, visiting the dam and seeing 
first-hand how important this is to all the people in the Green 
River Valley below it. And I see that General Grisoli and 
General McMahon are in the audience as well. They came and 
talked with all of us last week. I know they are up to date on 
this. And I appreciate the tremendous amount of work on this.
    I know that the Corps is currently working on a study now 
to determine what needs to be done at Howard Hanson Dam, and as 
you know, this study needs to be completed by a certain point, 
by June of this year, in order to be considered for the fiscal 
year 2012 construction funding. I sent a letter to you all back 
in February urging you to move quickly on the study so that we 
will know what we need to do to protect our Green River Valley 
communities, and I can't stress enough how important it is that 
the Corps get that done.
    So, my question to you this morning, General, is what 
assurances can you give me that this study will in fact be 
ready by June of this year?
    General Van Antwerp. Thank you, Senator, for the question. 
I'm getting the latest and greatest information right now.
    Senator Murray. I can see that.
    General Van Antwerp. The study will be at the point that we 
will have alternatives identified so that we can begin the 
process of the design.
    Senator Murray. By June of this year?
    General Van Antwerp. Yes, ma'am.
    Senator Murray. Okay. I really appreciate that. And, 
Secretary Darcy, thank you so much for your work and working 
with us a lot on the advance measures for Howard Hanson and, 
again, for coming out. I want to continue working with you to 
find ways, as we move forward on this, to make sure everybody 
is as safe as possible.

                             COLUMBIA RIVER

    But I do want to ask you this morning about another 
critical issue to my State. I worked very hard and was able to 
include $26.6 million in the Recovery Act for the Army Corps to 
complete the Columbia River Channel Deepening Project in 
Washington State. It was a big victory for the region. That 
deeper channel is so important to us to accommodate larger 
ships, to help the economy in the region, and to support 40,000 
jobs that depend on that maritime commerce. That project, right 
now, creating jobs is people at work. I was there a few weeks 
ago. It is really laying the foundation for long-term economic 
growth, and that's why I thought it was such an important use 
of recovery funding.
    But I am concerned still that all of that work that we've 
done and all the time we put into that will be for nothing if 
the Columbia River jetties fall into disrepair. Those jetties 
are so important to our shipping industry. That supports 
billions of dollars in economic activity throughout the region. 
Those jetties actually protect the mouth of the Columbia River 
from all the ocean waves as well as a lot of beach sand that 
clogs that shipping channel. And their continued effectiveness 
is absolutely essential to this region and to our economic 
health.
    So, I was really happy that the Corps did put forward a 
plan to bolster those jetties, and I'm committed to working 
with you to make sure that you have the resources you need to 
get that done.
    But my question this morning is, directly to you, will you 
continue to work with me and our local communities to make sure 
that we move forward in a timely fashion on those critical 
jetties' repair?
    Ms. Darcy. Yes, we will, Senator.
    Senator Murray. And you'll continue to prioritize that 
issue, plan budgets to make sure we have the necessary funds 
for it as well?

                      ODESSA SUBAREA SPECIAL STUDY

    Ms. Darcy. We will strongly consider it always.
    Senator Murray. Okay. Thank you very much. I appreciate it.
    And, finally, Commissioner Connor, while you're here, I 
wanted to ask you--I'm really disappointed that the President's 
budget doesn't include funding for our Odessa Subarea Special 
Study. You know the Columbia Basin Project is a critical tool 
for our farmers in my home State of Washington and neighboring 
States. It secures a reliable surface water supply for the 
producers. That's very important to making sure that the 
continuation of agriculture in central Washington and to 
protect our ground water supply as well. Can you tell me this 
morning how the Bureau is progressing with the funding Congress 
has provided? And are you still on track for completion in 
2011?
    Commissioner Connor. At this point in time, we are making 
good use of the resources that Congress has provided and that 
you specifically were able to get for us with respect to the 
study activity. So, we are on track right now with the 
environmental impact study to get a draft out this spring 2011. 
Hopefully, we will not have a whole range of issues, and the 
game plan is then to be able to finalize that document in the 
spring of 2011. So, we still are on track at this point in time 
with the funding provided by this subcommittee, plus the State 
funding. I think we've got enough. We will keep your office 
posted if we think we're going to run short of funds.
    Senator Murray. Okay. Please stay in very close touch with 
us. This is very important for that region of our State--
actually, for our entire economic region there. So, I 
appreciate it very much, and we want to continue to work with 
you on that.
    Commissioner Connor. Absolutely.
    Senator Murray. Mr. Chairman, thank you for letting me jump 
in, I appreciate it.
    Senator Tester. Absolutely. I thank you, Senator Murray.
    A couple questions more for the Corps, and then we'll go 
over to the Bureau of Reclamation.

                          CERTIFICATION COSTS

    The Omaha folks from the Army Corps were in my office 10 
days ago, and we talked about the certification issue. One of 
the things that they brought up that I didn't follow up with 
them, so I will with you, is could the Corps do certification? 
They've said it would cost a lot more for the Corps to do the 
certification than it would for a private engineering firm to 
do it. Is that correct, and if it is correct, why?
    Ms. Darcy. I don't know if that's correct.
    Senator Tester. Okay. That's all--that's good enough.
    Ms. Darcy. I couldn't tell you which was more costly.
    Senator Tester. Okay. That's cool. Since we've got the 
Corps and the Bureau of Reclamation here today, it is good to 
have you all here. And, by the way, from the lines of 
questioning, you've got a very difficult job, and I appreciate 
the work you do. Everybody's got their priorities, and it seems 
like some of them are at loggerheads with one another.

                   ST. MARY'S REHABILITATION PROJECT

    But I want to ask you about a project in Montana we've 
talked about. The chairman of this subcommittee has helped with 
it a lot. The St. Mary's Rehabilitation Project. That project 
is probably nearly as old as Senator Bond's dad.
    Last time I went out there, there were chunks of concrete 
falling off the dam. The Bureau of Reclamation has been getting 
appropriations for the studies to rehabilitate the project. In 
the last water bill, the Army Corps was authorized to do the 
project on a cost-share. Since you're both here, my question 
is, which one is going to take the lead?
    Ms. Darcy. Did you see us looking at each other?
    Senator Tester. You can arm-wrestle in the middle, if you'd 
like.
    Commissioner Connor. He who speaks first--is that the----
    Ms. Darcy. The WRDA authorization of 2007 did give 
authority to the Corps and at that cost-share; however, it is 
not budgeted for in the Corps budget. And I think that the 
Bureau has $3 million--is that right--for this year? I'm not--
--
    Senator Tester. So that indicates that the Bureau will be 
taking the lead.
    Commissioner Connor. At this point in time, we have some 
resources.
    Senator Tester. Okay.
    Commissioner Connor. We see a process to start dealing with 
the diversion dam issues with ESA; we can also look at 
rehabilitation. So, that's what's happening in 2010.

                      RURAL WATER PROJECT BACKLOG

    Senator Tester. Super. Commissioner Connor, you testified, 
I think last--it was last fall now that you have about $2 
billion in authorized rural water projects as a backlog. What 
are we going to do about it? Do you guys have a--do you have a 
plan for that to get them addressed? And the reason I bring it 
up is because--the comments I made in my opening statement. A 
project that I started working on 12 years ago that was $100 
million is--two of them. They were each $100 million projects. 
Now they're each $300 million projects. The money that's been 
appropriated over the--well, the money that's been 
appropriated, with the exception of the Recovery Act dollars, 
hasn't even kept up with inflation. And I'm sure they're all in 
that same boat if they're backlogged in. What do you have--I 
mean, what--what's your vision?
    Commissioner Connor. Well, the vision right now is one 
that's an incomplete picture, quite frankly. Through the last 2 
years with the increases in our budget that have been provided 
by Congress, plus the priority placed on rural water through 
the Recovery Act, we've been fortunate to be able to invest 
something to the tune of $460 million in these rural water 
projects. That still leaves a $1.2 billion backlog in 
authorized projects, and if you add in the pipeline projects 
we're doing associated with Indian Water Rights Settlements, we 
are at the $2 billion figure.
    Senator Tester. Correct.
    Commissioner Connor. So, we've got a good work plan for 
2010, even through 2011, since there's a large amount of 
construction activity. But then we're in a situation where 
there's a big gap in how we're going to fund. With respect to 
some of the Indian Water Rights Settlement programs, we've got 
some help on the way in 2020 through some direct expenditures 
that are available through the Reclamation Fund, and that was 
part of Public Law 111-11.
    But right now, we are looking at a situation where, you 
know, the facts tell the story. We are at $62 million per year, 
given the construction schedules and the need versus that $1.2 
billion, we are not keeping up with inflation dollars at this 
point in time, and we are looking at Government-wide flat 
budgets for the next few years. So, we will continue to try and 
prioritize the projects, get done what we can as we've done 
with prioritizing Garrison and Mni Wiconi this year. We may 
look at reallocating some funds, not much, but we are in the 
process of finalizing how we're going to reallocate Recovery 
Act funds to make sure we can meet the statutory deadlines. But 
I can't sit here and tell you I have a game plan that's going 
to solve that issue right now, in the coming years.

                               FORT PECK

    Senator Tester. All right. All right, last question--it 
actually goes off of Senator Bond's question. I wasn't going to 
ask this, but I've got to. We've got a little lake in Montana 
called Fort Peck, and a few years ago, when you flew over Fort 
Peck, it didn't look like a lake anymore; it just looked like a 
river because it was pretty well depleted. It has not--I don't 
think it's close to full pool at this point in time. I think 
it's got a long ways to go to get to that point. But it is 
better than it was a few years ago.
    The question I had, since you--the Army Corps is 
responsible for that, is there enough water to take advantage 
of the recreational opportunities in a place like Fort Peck, 
that's critically important to their economy, and take care of 
our shipping needs downstream? Or is that--must that be 
prioritized? And what's the Army Corps's priority? Is it for 
the shipping or is it for recreation, as we move forward?
    Ms. Darcy. Senator, I think, with regards to Fort Peck, the 
releases from Fort Peck into the Missouri River are, many of 
them, dictated by some endangered species that are downstream, 
as opposed to the shipping interests. I think we currently need 
to sustain the population of the pallid sturgeon and the least 
tern----
    Commissioner Connor. And----
    Ms. Darcy [continuing]. On the Missouri, in that stretch of 
the river between Fort Peck and the Missouri. That is what is 
helping to dictate the operation manual for Fort Peck.
    Senator Tester. So, it isn't dictated off of shipping?
    Ms. Darcy. It's dictated off of the authorized use of Fort 
Peck, of the Fort Peck Dam that was built there.
    Senator Tester. Okay. Let me back up a little bit. Is 
release based off of endangered species or is it--is it based 
off of shipping needs downstream?
    Ms. Darcy. It's based off of the authorized purpose of the 
Fort Peck Dam.
    Senator Tester. Which is?
    Ms. Darcy. Which is--I believe it is recreation and----
    Senator Tester. Okay.
    Ms. Darcy. It is multi-purpose.
    Senator Tester. Just--yes.
    Ms. Darcy. I know its recreation.
    Senator Tester. Yes.
    Ms. Darcy. But I know--but I know part of what is 
determining the operation--when the master manual was redone--
--
    Senator Tester. Yes.
    Ms. Darcy [continuing]. In the late 1990s.
    Senator Tester. Yes.
    Ms. Darcy. Consideration had to be made for the endangered 
species downstream.
    Senator Tester. Okay. We'll continue the dialogue as we 
move forward because, as we talk about flooding downstream in 
the Missouri River, I don't think it's going to come out of the 
mountains of Montana. We're at about 60 percent of normal in 
snow pack. And so, that's going to put the water level at Fort 
Peck becoming a big issue again, as it always is.
    I want to thank you all for being--Senator Bennett, did you 
have anything?

                     ADDITIONAL COMMITTEE QUESTIONS

    At this time I would ask the subcommittee members to please 
submit any questions they have for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Departments for response subsequent to 
the hearing:]
   Questions Submitted to Hon. Jo-Ellen Darcy and Lieutenant General 
                         Robert L. Van Antwerp
             Questions Submitted by Senator Byron L. Dorgan
                        general budget questions
    Question. The budgetary criteria used for determining the budget 
request is not statutory, correct?
    Ms. Darcy. Yes, that is correct.
    Question. How is the criteria developed?
    Ms. Darcy. The budgetary criteria were developed in response to the 
Government Performance and Results Act, establishing Civil Works 
business lines and developing criteria to delineate performance and 
prioritize programs, projects, and activities for inclusion in the 
budget.
    The four principal metrics for the Civil Works program are, in 
brief, Benefit-to-Cost Ratio, (BCR), potential to contribute to human 
safety, potential to cost-effectively restore important aquatic 
ecosystems, and effectiveness in reducing risk of failure in high 
consequence situations. Applicable criteria are applied to each 
project. Where more than one criterion applies to a project, these 
criteria are considered in conjunction to make a balanced decision on a 
project's merits. The Corps continues to refine the performance 
metrics.
    Question. What happens if a project that the administration 
determines to be worthwhile does not meet the established budgetary 
criteria?
    Ms. Darcy. All eligible projects that are consistent with 
administration policies compete on a level playing field for inclusion 
in the budget. Projects that are considered for budgeting are 
consistent with the Corps' main mission areas and the projects' 
environmental and economic performance. Projects that do not meet 
budgetary criteria are not included in the budget.
    Question. Is the criteria adjusted during preparation of the 
budget?
    General Van Antwerp. Adjustments to the criteria are occasionally 
made during formulation of the President's budget to reflect 
administration priorities. For example, ongoing non-structural projects 
with BCRs of 1.0 or greater were considered for funding in fiscal year 
2011 because of the importance to the administration of ecosystem 
restoration and non-structural solutions to water resource challenges. 
The BCR thresholds for inclusion in the budget also may vary over time, 
depending on the funding available for the Civil Works program within 
the President's overall priorities.
    Question. How would the budget request differ if you only used the 
statutory requirements for considering projects?
    Ms. Darcy. Statutory requirements do not provide a basis for 
prioritizing eligible projects for funding. BCRs, Regardless of what 
criteria are used, projects still need to be prioritized for funding, 
because the universe of authorized projects far exceeds the amount of 
funding available.
    Question. Would it be correct to say that the budgetary criteria 
are arbitrarily changed from year to year to accommodate funding 
amounts or does the budgetary criteria drive the funding amounts 
provided?
    Ms. Darcy. Budgetary criteria can change periodically to reflect 
changing National priorities, but that does not mean they are 
arbitrary. Objective performance criteria are used to determine the 
high performing projects to be included in the President's budget. The 
total amount of funding available in the budget for the Civil Works 
program is a function of the President's overall policies and 
priorities.
    Question. How do you explain the reduced request from fiscal year 
2010 to fiscal year 2011?
    Ms. Darcy. The fiscal year 2011 budget supports the 
administration's commitment to constrain the overall level of non-
security discretionary spending. The fiscal year 2011 funding level 
reflects a practical, effective, and sound use of the Nation's 
financial resources.
                                  arra
    Question. Why has the administration consistently refused to fund 
shore protection projects with ARRA particularly when in some cases 
these projects have higher benefit to cost ratios than projects the 
administration has chosen to fund?
    Ms. Darcy. Last Spring, the administration allocated ARRA funds to 
high priority infrastructure work. At the same time, the administration 
engaged in a review of executive branch policies for shore protection 
projects. Subsequently, shore protection projects with the highest 
benefit cost ratio were included in the Presidents fiscal year 2011 
budget.
    Question. What is the status of the obligation of the ARRA funding?
    General Van Antwerp. Approximately $3.2 billion, or 70 percent of 
the total of $4.6 billion, has been obligated.
    Question. How much of the ARRA funds have gone to small businesses?
    General Van Antwerp. To date, 73 percent of all ARRA contracts and 
45 percent of ARRA funding, or $1.3 billion, went to small businesses.
    Question. How do the projected jobs to be created by ARRA compared 
with the actual job creation?
    General Van Antwerp. Comparisons are difficult for several reasons: 
Not all recipients of Civil Works ARRA funds reported initially, and 
there was uncertainty about how to calculate the jobs supported by ARRA 
funds. Also, recipients of ARRA funds do not report jobs supported by 
their subcontractors, which likely is a significant number for the 
construction and maintenance work the Corps has funded. I understand 
that the rule of thumb used by the Council of Economic Advisers is 
$92,000 per job. For $4.6 billion, this would translate into about 
50,000 jobs over the total period of spending. For the fourth quarter 
of fiscal year 2009, recipients of Civil Works funds reported that 
Recovery Act funds were creating or retaining jobs at an annual rate of 
2,145. In the second quarter the number of jobs reported to be created 
or retained was 6,047 at an annual rate.
    Question. How accurate do you feel your job creation count is?
    General Van Antwerp. There have been challenges with under-
reporting and data accuracy. The Corps is working closely with ARRA 
recipients to ensure complete job data is provided for the recovery 
reporting job count. The target for the next fiscal quarter is 100 
percent accuracy in reporting by 100 percent of the recipients required 
to report.
         new orleans technical report on category 5 protection
    Question. Is the Louisiana Coastal Protection and Restoration 
technical report complete? It is now over 2 years overdue for 
submission to Congress. Where is the report now and when do you plan to 
submit it to Congress?
    General Van Antwerp. The Corps of Engineers has completed its 
technical evaluation and transmitted it to the Assistant Secretary of 
the Army for Civil Works. Additional information will be provided to 
the Assistant Secretary's office as soon as possible, to enable 
completion of their review.
    Question. Once the State of Louisiana has provided input on its' 
views regarding the Louisiana Coastal Protection and Restoration Report 
and you provide the report to Congress, how will you move forward on 
the findings of the report?
    General Van Antwerp. The Corps will engage with the State to 
establish a cost sharing agreement and establish priority coastal areas 
and risk reduction options for further evaluation. Some of the final 
risk reduction options identified in the Louisiana Coastal Protection 
and Restoration Technical Report are already being incorporated for 
further evaluation under other ongoing feasibility study efforts such 
as Donaldsonville to the Gulf of Mexico and Southwest Louisiana Coastal 
studies.
    Question. The Mississippi Coastal Improvements program report, 
started at the same time as the Louisiana report, recommended near term 
and long term solutions--some of which have already been funded. In the 
drafts of the Louisiana report, there seems to be more of a focus on 
providing options without providing recommendations. If you as our 
experts cannot make recommendations to improve hurricane and storm 
damage protection along the Louisiana coast, who should be making those 
recommendations?
    General Van Antwerp. The findings of the Louisiana Coastal 
Protection and Restoration technical analysis identified multiple 
effective approaches for greater reduction of risk in any specific area 
of coastal Louisiana. However these approaches produce varying levels 
of risk reduction in exchange for varying and significant exchanges, or 
tradeoffs, of impacts to the public directly, social and economic 
viability, and the environment, in addition to a range of significant 
fiscal investment at the Federal and State level. As a result it is 
viewed as critical that the final recommendations involve an 
interactive consideration of the risk tradeoff values of the affected 
communities and region and not be solely a function of technical 
evaluation by the Corps.
                 louisiana hurricane protection system
    Question. What is the status of the repairs to the existing 
hurricane protection system?
    General Van Antwerp. By June 2006, the Corps had repaired and 
restored 220 miles of the system to the pre-Katrina level of 
protection. The Corps also constructed 5 new safe rooms so pump station 
operators can safely operate during storm events; added storm proofing 
features to pump stations in Jefferson Parish for more than $28 
million; completed 47 pump station repairs in Jefferson, Orleans and 
St. Bernard parishes for a total of more than $56 million; and awarded 
contracts for 16 pump station repairs in Plaquemines Parish for more 
than $19 million--all completed with the exception of the Elaine Pump 
Station which is scheduled for completion in November 2010. The safe 
rooms and pump station repairs were all 100 percent Federal funded.
    Question. What is the status of the improvements to the existing 
system funded by Congress?
    General Van Antwerp. The Corps has made significant progress on the 
Hurricane Storm Damage Risk Reduction System (HSDRRS) in the last 4\1/
2\ years. More than 240 construction contracts have been awarded. To 
date, $7.4 billion (or 51 percent) of the almost $15 billion program 
for the HSDRRS Program has been obligated, including almost $2 billion 
worth of direct contracts to small business firms.
    The system is now stronger and more resilient than at any time in 
history. Execution of the HSDRRS is more than one-third complete. The 
Inner Harbor Navigation Canal Surge Barrier at Lake Borgne is over 50 
percent complete. The West Closure Complex, another major navigable 
surge barrier and pump station that will reduce storm surge risk for 
the West Bank, is 20 percent complete. Floodwall and levee projects in 
New Orleans Metro area are 90 percent complete.
    Question. Will the system be functional by June 2011 as promised in 
the previous administration?
    General Van Antwerp. We remain confident in our ability to deliver 
the 100-year system on schedule and within budget. I would note that 
the Corps shares responsibilities with local sponsors and other 
partners who must provide real estate interests, borrow areas, 
relocations and other technical matters, to deliver the HSDRRS program 
to the public within the cost and schedule commitment. The support and 
contributions of partners and stakeholders are essential to execute 
this immense and complex program.
    The HSDRRS is a top priority of the Corps of Engineers; the Corps 
is using the overall resources of the entire Mississippi Valley 
Division and other Corps expertise from across the Nation to keep the 
program on schedule and deliver on the commitment to having the 
physical features in place to provide 100-year level of risk reduction 
by hurricane season 2011.
    Question. What do you see as the current weak link in the system?
    General Van Antwerp. The Corps of Engineers undertook an exhaustive 
scientific analysis to determine the physical features and design 
elevations necessary to deliver a uniform system of storm surge risk 
reduction for the Lake Pontchartrain and Vicinity and West Bank and 
Vicinity projects. Upon completion of physical features of the system 
in 2011, the project will deliver a uniformly robust and resilient 
system, built to provide a 100-year level of risk reduction.
    Question. There has been considerable discussion over the 
replacement of the temporary pump stations constructed on the three 
main outfall drainage canals after Katrina. The city wanted the 
replacement stations to also replace the existing pump stations on the 
canals so that water would only have to be pumped once. Congress 
rejected this proposal in the fiscal year 2010 E&W Act. Am I correct 
that this would not improve hurricane surge protection or storm damage 
reduction?
    General Van Antwerp. That is correct. The city's preferred plan, 
Option 2 or 2a, provides no greater level of storm surge protection 
than Option 1, the current plan to replace the temporary pump stations 
with permanent, robust structures.
    Question. What would the plan that the city desires do exactly? Do 
any additional benefits accrue to the Federal Government or are they 
all local benefits?
    General Van Antwerp. Option 2 significantly modifies the city's 
interior drainage by deepening and lining the outfall canals to 
accommodate gravity flow of interior rain water to Lake Pontchartrain, 
eliminating the need for pump stations at the interior of the canals. 
The estimated cost (pre-feasibility level of design) is $3.4 billion.
    Option 2a adds a plan to intercept and divert Jefferson Parish 
(Hoey's Basin) rain water from the 17th Street canal to the Mississippi 
River. The estimated cost (pre-feasibility level of design) is $3.5 
billion.
    Options 2 and 2a provide no greater level of storm surge risk 
reduction than Option 1, the planned permanent canal closures and 
pumps. Option 2 is a complex construction project that would take 
several years to construct, at considerable impact and disruption to 
the surrounding communities.
    No additional benefits accrue to the Federal Government.
    Question. Will the system work as the Corps has currently proposed? 
Has it been tested?
    General Van Antwerp. The proposed plan to build permanent closures 
and pump stations at the mouths of the three outfall canals will 
replace the temporary features in place today. These temporary features 
performed exactly as planned during the coordinated pumping operations 
with the Sewerage and Water Board during Hurricanes Gustav and Ike. The 
Corps exercises these pumps frequently during regular operations and 
maintenance as well as emergency operation exercises conducted with our 
partners at the Sewerage and Water Board.
    The permanent pump stations will have the capacity to handle the 
current and planned future capacity of the S&WB.
    Question. I understand that the Corps has agreed to modify, at 
Federal expense, the permanent pump stations on the outfall canals so 
that the State could install the locally preferred plan at a later 
date. Has the State signed the cost sharing agreement on the 
replacement of the temporary pumps for the three major outfall canals?
    General Van Antwerp. The Corps has committed to replacing the 
temporary pump stations in a way that would facilitate later 
improvements to the local interior drainage system, should they be 
authorized and funded or constructed by the State in the future.
    The Army plans to execute a Project Partnership Agreement (PPA) 
Amendment with the State of Louisiana, Coastal Protection and 
Restoration Authority (CPRA) on March 12, 2010.
    Question. What is considered the design life of the temporary 
pumps?
    General Van Antwerp. The temporary pumps were designed and built in 
time for the June 2006 hurricane season. They have a limited project 
life (5-7 years).
    Question. What does that mean? Will the pumps fail or won't they?
    General Van Antwerp. The Corps will provide the necessary 
maintenance of the temporary pumps to assure their operability until 
they are replaced. The temporary pumps will experience diminished 
reliability and increased maintenance costs the longer they are kept in 
service.
    Question. Does not initiating construction going to drive 
completion of the permanent pumps past the point of when the temporary 
pumps will become much less reliable?
    General Van Antwerp. Following the scheduled execution of a Project 
Partnership Agreement Amendment between the Army and the State of 
Louisiana on March 12, 2010, the Corps will have the ability to move 
forward to provide robust, sustainable protection at the outfall 
canals. The Corps anticipates completion of the permanent closure 
structures and pump stations by fall 2014.
    Question. Isn't the delay in initiating construction of the 
permanent pumps putting the citizens of New Orleans at increased risk 
WHEN, not if, the next hurricane hits?
    General Van Antwerp. The temporary closure structures and pump 
stations at the three outfall canals currently provide 100-year level 
of risk reduction. However, they have a limited project life (5-7 
years). The Corps will provide the necessary resources to ensure their 
operability until the permanent closure structures and pump stations 
are constructed.
                        national levee inventory
    Question. Please report on progress on the National Levee 
Inventory: How many levee miles have been inventoried to date?
    General Van Antwerp. (1) Civil Works Program--14,000; (2) Other 
Federal Programs--0; and (3) Non-Federal Programs--0.
    Question. How many miles within WRDA 2007 authorities remain to be 
inventoried?
    General Van Antwerp. (1) Civil Works Program--Complete; (2) Other 
Federal Programs.--Number of miles unknown. Will start to identify 
levees in fiscal year 2010-2011; and (3) Non-Federal Programs--Number 
of miles unknown. Will start to identify levees in fiscal year 2010-
2011 to the extent voluntarily provided by States and local 
communities.
    The Corps will continue to expand the National Levee Database (NLD) 
to other Federal agencies and all the States. In accordance with title 
IX, USACE will implement a process to collect available levee 
information from States and communities for inclusion in the NLD. 
Additionally, the Corps will work with stakeholders to facilitate their 
use of the NLD for local levee safety programs.
              allocations of fiscal year 2011--$15 million
    Question. National Levee Inventory--$10 million to inventory yet to 
be determined levee miles.
    General Van Antwerp. Activities will include: (1) work with States, 
other Federal agencies, tribes, and communities on the transfer of 
technology and practices on levee inventory; (2) inventory newly 
eligible levees within the Corps' authority; (3) operate and maintain 
the National Levee Database; and (4) prepare a report to Congress on 
the general condition and consequences of failure of levees within the 
Corps' authorities.
    The Corps is developing policy and procedures required for the 
implementation of Tolerable Risk Guidelines (TRG) within its Levee 
Safety program. The TRG build on the TRG policies implemented for the 
Corps Dam Safety Program, include stakeholder review and feedback, and 
serve the purpose of providing a framework for consistent, risk-
informed decisionmaking on the built levee infrastructure. We 
anticipate having final policy and procedure completed within the 
timeframe of the comprehensive Levee Safety Engineering Regulation 
currently under development and to be published in Jan 2012.
    Question. National Committee on Levee Safety--$5 million to do 
what?
    General Van Antwerp. The National Committee on Levee Safety (NCLS) 
will work to further develop the governance structure of the 
Commission, a stakeholder involvement plan, and a strategic plan to 
implement recommendations in the Report.
    NCLS recommendations can be found at http://www.iwr.usace.army.mil/
ncls/.
    Question. What is the plan for completing the National Levee 
Inventory to the full extent of the WRDA 2007 authorities?
    General Van Antwerp. For the inventory and inspection, the Corps is 
preparing a rollout strategy for the public release of the National 
Levee Database. There will be different levels of access depending on 
the user--Federal agency, State/local agencies, or general public. In 
the second quarter of fiscal year 2010, the Corps will initiate a 
survey (the Levee Census) by questionnaire that will define unique 
identifiers for levee segments and facilitate development of the 
inventory of levees by name and location. The elements of the survey 
will contain requirements to determine the number of miles of levees in 
the national inventory and other key attributes to define the scale of 
effort in building a comprehensive National Levee Database. By the 
first quarter of fiscal year 2011, the Corps will finalize a report 
summarizing the results of the questionnaire and guidance for non-
Federal stakeholders to voluntarily provide available levee 
information.
    Once the National Committee on Levee Safety completes further 
development of recommendations and the strategic plan, this requirement 
of title IX of WRDA 2007 will be complete in fiscal year 2011.
    Question. Is additional authorization needed to expand the National 
Levee Inventory to include all levees in the Nation?
    General Van Antwerp. Currently, title IX of WRDA 2007 only provides 
the Corps the authority to collect available information for levees 
outside the Corps' program only if it is voluntarily provided by State 
or local governmental agencies. Since levee information in many cases 
is scarce or nonexistent, completing a comprehensive National Levee 
Database based on available information may not be achievable. The 
Corps does not have the authority to conduct a one-time inventory and 
inspections of all levees in the Nation, although such an inventory and 
inspections could provide the quality of data necessary in a more 
accurate national inventory that would include the general condition of 
the levees. The term ``inventory'' includes surveying/geo-referencing 
all features of the levee to populate the database. ``Inspection'' in 
this case would be defined as the Corps periodic inspection for levees, 
which is an inspection conducted by a multi-disciplinary team that 
verifies proper operation and maintenance; evaluates operational 
adequacy, structural stability and, safety of the system; and compares 
current design and construction criteria with those in place when the 
levee was built.
                          north dakota floods
    Question. Based on past experience with the 2008 flooding, what is 
the Corps doing to prepare (advance measures) for potential flooding in 
North Dakota?
    General Van Antwerp. While there were significant floods in the 
Midwest (in particular on the Cedar River in Iowa) during 2008, even 
more experience was gained when a flood of record was set in Fargo, 
North Dakota during the spring of 2009. The James River Basin, located 
in North and South Dakota, also set pools of record in 2009 which led 
to many lessons learned about preparing and installing emergency 
levees. The greatest lesson learned from the 2008 and 2009 flooding was 
to engage locals, State, and congressional officials as early as 
possible.
    Since January 2010, the Corps' St. Paul and Omaha Districts have 
been engaged with the National Weather Service (NWS) and the U.S. 
Geological Survey in preparing for potential flooding in the Red River 
basin. The Corps is currently preparing to activate the St. Paul 
District Emergency Operations Center and to deploy its flood fighting 
assets for the upcoming flood fight on the Red River of the North river 
basin. Contracts for emergency construction will be in place up to an 
entire month prior to the potential flooding.
    The Corps has been receiving requests for advanced measures 
projects and currently has 15 project information reports in various 
stages, from preparation to review for construction of flood risk 
management features.
    The Corps put flood engineers on the ground this week, meeting with 
local officials to determine flood fight needs. To date, the Corps has 
received requests for technical and/or direct assistance from North 
Dakota's Cass and Richland counties and the cities of Fargo, Lisbon, 
Oxbow, Enderlin, Grafton, Harwood, North River, Jamestown, LaMoure and 
Fort Ransom. Corps personnel are currently meeting with these 
communities and providing technical assistance in preparing for this 
year's potential flood event.
    Corps reservoirs in North Dakota and Western Minnesota are being 
drawn down to provide the maximum flood control storage in anticipation 
of the high spring snowmelt runoff. These draw downs are part of our 
normal operation procedures, but are being coordinated with local 
agencies because they are being done in an accelerated way.
    Question. Does the Corps have adequate resources and funds 
available?
    General Van Antwerp. Funding, supplies and flood fight personnel 
are expected to be sufficient for a successful flood fight. The States 
of North Dakota and Minnesota have specific information on the Corps' 
inventories and understand that we will release our equipment at their 
request, once local, county and State materials have been exhausted.
    Question. What is the forecast for a potential flood this year?
    General Van Antwerp. According to the 2010 National Oceanic and 
Atmospheric Administration, (NOAA) National Hydrologic Assessment, 
there is an above average risk of significant flooding across North 
Dakota this spring. The document notes that early season heavy rain 
saturated soils which froze deeply before snow fell across the northern 
Plains, and combined with substantial snowpack, has created an area of 
above average flood risk.
    The area of snow cover is more extensive than last year, creating 
the potential for a more widespread flooding event. The Red River at 
Fargo, North Dakota is expected to exceed the major flood stage. 
Locations that have a greater than 90 percent risk of reaching or 
exceeding major flood level are Fargo, Abercrombie, Lisbon, Harwood, 
and West Fargo. Additional locations that have a greater than 50 
percent chance of reaching or exceeding major flood level include 
Wahpeton, Valley City, Halstad, Grand Forks, Oslo, Drayton, Pembina on 
the Red River of the North, and Grafton on the Park River. Deeply 
frozen rivers which froze at a high level in the region have created an 
above average risk of ice jam flooding. The Souris Basin has been 
spared significant rain so far this winter, but heavy snowfall has 
resulted in a snowpack that is in many ways comparable to that of last 
year at this time, especially in the immediate Minot area. The areas 
north and west of Minot hold less snow and water equivalent overall and 
continue to decrease upstream of Lake Darling.
    Question. Is the ongoing Red River of the North study addressing 
potential future flooding?
    General Van Antwerp. Yes, the study is developing a Watershed 
Management Plan which will identify possible flood storage locations, 
provide technical assistance for local communities developing levee 
plans, and develop detailed models allowing for easier implementation 
of local plans.
    Question. Given the damages resulting from the 2008 floods, what 
other measures should be taken to lessen impacts from future flooding?
    General Van Antwerp. The June 2008 flooding of the Midwest led to a 
significant amount of Federal disaster flood relief given to victims. 
The lesson learned for lessening impacts is to start the flood 
preparations earlier and engage officials many months prior to the 
expected flood. While there are several actions that should be taken to 
lessen the impacts of flooding, there is nothing that can eliminate 
flood risk and impacts.
    The best way to lessen the impacts of future flooding is to prevent 
development in the floodplain. This allows rivers to continue their 
natural use of the floodplain and ensures that stages in existing 
developed areas are not increased due to encroachment by additional 
development. Local governments should enact and enforce strict 
floodplain development ordinances.
    Buying out flood impacted properties and relocating people out of 
the floodplain is another important way to prevent future damages. The 
Federal Emergency Management Agency (FEMA) provides some funding for 
buyouts, but local and State governments are also actively purchasing 
properties without Federal assistance. When FEMA funds a buyout, the 
Agency places a deed restriction on the property that prevents future 
uses of the land, including construction of flood control measures. 
When local funding is used, no restrictions need to be imposed, so 
permanent or emergency measures can be built to protect remaining 
properties.
    Other measures that should be considered include constructing 
levees, diversions, and flood storage where such measures can be 
justified. Non-structural approaches including raising existing 
structures above the flood level can also be effective in reducing 
flood damage. The Corps of Engineers is considering these alternatives 
in several studies, including the Fargo-Moorhead Metro feasibility 
study, the Fargo-Moorhead and Upstream study, the Red River Watershed 
Study, and the reconnaissance studies for the Sheyenne River Basin and 
Valley City, North Dakota.
    Finally, all property owners located in or near a floodplain should 
purchase flood insurance through the National Flood Insurance Program. 
Although this will not prevent flood damage or the personal disruption 
caused by flooding, it does mitigate the financial risk to individuals.
                             fargo-moorhead
    Question. When will the Fargo-Moorhead Metro study be completed?
    General Van Antwerp. The study is currently on an aggressive 
schedule for a Chief of Engineers report to be completed by December 
2010.
    Question. What is the likelihood that the Federal Government would 
recommend and cost share a 35,000 cfs Minnesota diversion?
    General Van Antwerp. The National Economic Development (NED) plan 
is still undergoing refinement. Initial results identified it as a 
20,000 cfs diversion through Minnesota, but, there now appear to be a 
number of factors supporting a larger Minnesota diversion as the NED 
plan. The next step is for the Corps to fully develop the rationale for 
recommending a larger plan, and then submit a request for a waiver of 
the NED plan in favor of selecting a larger plan as the Federal 
supported improvement plan to the Assistant Secretary of the Army 
(Civil Works) for approval.
    Question. Would the administration support and budget for a North 
Dakota diversion as a locally preferred plan?
    Ms. Darcy. A Locally Preferred Plan (LPP) has not been identified 
by the local interests. Once an LPP is identified, it would require 
administration review and approval. While preliminary coordination has 
been initiated, administration support of a North Dakota diversion as 
an LPP is subject to review of documents supporting the plan. A locally 
preferred plan with the non-Federal sponsor bearing the costs above the 
NED plan and a BCR above 1.0-to-1 would be consistent with long-
standing policy. However, whether the project would be budgeted is a 
future decision, and the project would need to compete with other 
worthy projects for funding in the President's budget.
                        devils lake levee raise
    Question. What is the status of the Devils Lake embankment raise 
and are there any issues that could delay construction?
    General Van Antwerp. Phase 1 construction is ongoing and the 
Independent External Peer Review for this work is scheduled for 
completion on March 24, 2010 so the Notice to Proceed on the embankment 
work can be issued. The design is being completed on Phase 2, although 
due to poor soils and additional design challenges, the decision has 
been made to split the work into 2 contracts. Phase 2A is scheduled to 
be advertised later this summer. The Corps is continuing to work with 
the city and local residents to ensure the project is completed in a 
timely and safe manner, although there are a number of challenges to be 
addressed. Issues that could delay construction include: (1) 
acquisition of the real estate on an aggressive schedule, including the 
relocation of homes and businesses; (2) completion of the environmental 
review; and (3) addressing the poor soil conditions to ensure the 
structure can be constructed safely while under load (holding back 
water).
    Question. Does the project provide 100-year flood protection?
    General Van Antwerp. No Sir. Previously, the Corps provided a 
letter to FEMA stating that there was reasonable assurance that the 
embankment could contain the 1 percent event. Since then, the lake has 
risen such that the position taken in that letter is no longer 
applicable. An updated letter is being prepared at FEMA's request. One 
hundred-year protection will not be achievable until the entire 
alignment is complete.
                           bayou meto, ar&la
    Question. This project was funded in fiscal year 2010 for 
construction. Has the Project Partnering Agreement (PPA) been signed by 
the sponsor?
    Ms. Darcy. No, the PPA has not been signed by the sponsor.
    Question. Why did this project not receive ARRA funds?
    Ms. Darcy. During initial identification of projects to receive 
ARRA funds in the April 2009 timeframe this project had not received 
construction funds and, therefore, was considered to be a new project. 
ARRA specifically prohibits funding new Civil Works projects with ARRA 
funds.
                           grand prairie, ar
    Question. What is the status of the Grand Prairie project?
    General Van Antwerp. Construction is continuing on the Grand 
Prairie project under a PPA executed in June 2000. The project sponsor 
continues to provide their share of project costs. Four items are 
currently ready to be advertised: (1) DeValls Bluff, AR Pumping Station 
sub-structure $6.5 million Federal share; (2) DeValls Bluff, AR Pumping 
Station super-structure, pending Federal funds $21.7 million; (3) 
DeValls Bluff, AR Pumping Station discharge and outlet structure, 
pending Federal funds $16.8 million; and (4) DeValls Bluff, AR Pumping 
Station electrical sub-station, pending Federal funds $3 million.
    Question. This project has work ready to be executed that meets the 
criteria for ARRA funds. Why wasn't this project funded with ARRA 
funds?
    Ms. Darcy. There are more projects eligible for funding than there 
is ARRA funding available. Therefore, this project, like many others, 
competed for these funds and the determination was made that there were 
other more worthy projects that provide a high return on investment in 
the Corps traditional mission areas of flood damage reduction, 
navigation, and environmental restoration.
                     ozark-jeta taylor project, ar
    Question. I note that this powerhouse rehab project is not in your 
budget this year. Why?
    General Van Antwerp. Ozark-Jeta Taylor, Powerhouse Rehab, AR 
project is not in the budget because it did not meet the performance-
based construction guidelines used to prioritize projects in the fiscal 
year 2011 budget.
    Question. Last fiscal year you used ARRA funds to avoid terminating 
the contract. Is lack of funding in the fiscal year 2011 budget going 
to again force you to consider a contract termination?
    General Van Antwerp. Customer funding will be requested through the 
Southwestern Power Administration (SWPA) to fund anticipated contractor 
earnings in fiscal year 2011. If SWPA is unable to obtain Customer 
funding, the Corps will proceed under the provisions of the ``special'' 
continuing contract clause to terminate the contract at the convenience 
of the Government. The Corps anticipates making a decision on the way 
forward within the next couple of months.
    Question. How much will it cost to terminate the contract versus 
provide funding in fiscal year 2011?
    General Van Antwerp. It will cost $20 million to terminate the 
contract. The Corps could use $23.5 million in fiscal year 2011 but I 
must add that the capability estimate for each study or project is the 
Army Corps of Engineers estimate for the most that it could obligate 
efficiently during the fiscal year for that study or project. However, 
each capability estimate is made without reference to limitations on 
manpower, equipment, and other resources across the Army Civil Works 
program, so the sum of the capability estimates exceeds the amount that 
the Corps actually could obligate in a single fiscal year.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
    Question. In June 2009, the administration released a Memorandum of 
Understanding (MOU) entitled ``Implementing the Interagency Action Plan 
on Appalachian Surface Coal Mining.''
    The MOU noted that ``Federal agencies will work . . . to help 
diversify and strengthen the Appalachian regional economy and promote 
the health and welfare of Appalachian communities. This interagency 
effort will have a special focus on stimulating clean enterprise and 
green jobs development. . . .''
    How will the Corps implement this new focus during its review and 
prioritization of projects and proposed activities? For instance, how 
will the Corps exercise a special focus on economic diversification and 
clean enterprise, during the course of conducting its ``public interest 
review'' of proposed activities?
    General Van Antwerp. Stimulation of clean enterprise and green jobs 
development may result in increased project permit applications 
requiring authorization to discharge fill material into waters of the 
United States. If these projects would result in the construction and 
implementation of energy projects, they would receive higher priority 
regulatory review from the Corps over non-energy related projects. This 
higher priority review for energy-related projects is based on both the 
Corps implementing regulations for section 404 of the Clean Water Act 
and Executive Order 13212.
    In accordance with 33 CFR 320.4(n), district engineers will give 
high priority to the processing of permit actions involving energy 
projects. Further, under Presidential Executive Order (EO) 13212, dated 
July 30, 2001, all Federal agencies have been directed to expedite 
their review of permits for energy-related projects or take other 
actions as necessary to accelerate the completion of such projects, 
while maintaining safety, public health, and environmental protections.
    With respect to the Corps' public interest review, the decision 
whether to issue a section 404 permit is based, in part, on an 
evaluation of the probable impact, including cumulative impacts, of the 
proposed activity on the public interest. Decisions reflect the 
national concern for both protection and utilization of important 
resources. The benefit, which reasonably may be expected to accrue from 
the proposal, must be balanced against its reasonably foreseeable 
detriments. All factors that may be relevant to the proposal will be 
considered, including the cumulative effects thereof; among those are: 
conservation, economics, aesthetics, general environmental concerns, 
wetlands, historic properties, fish and wildlife values, flood hazards, 
floodplain values, land use, navigation, shoreline erosion and 
accretion, recreation, water supply and conservation, water quality, 
energy needs, safety, food and fiber production, mineral needs, 
considerations of property ownership and, in general, the needs and 
welfare of the people. Any positive effects of a proposed project are 
balanced against any foreseeable negative effects the activity would 
have on relevant factors within the Corps' scope of Federal control and 
responsibility. AA permit will be issued if the project is found not to 
be contrary to the public interest.
    Question. What new resources is the administration requesting for 
the Corps to advance economic diversification in Appalachia?
    General Van Antwerp. The Corps does not have a specific action in 
this area.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. The Army Corps of Engineers operates or has authority 
over a large quantity of space behind dams for flood control purposes. 
California is still recovering from 3 years of drought, and the water 
situation is likely to remain critical, or near critical, for years to 
come.
    To what extent can the Army Corps reoperate, or change the 
management, of some of its projects to consider water supply benefits 
in key areas across the State, including those on tributaries to the 
Sacramento-San Joaquin Delta, and on rivers and streams throughout 
Southern California?
    Will you report back on potential for water supply benefits from 
projects like Whittier Narrows, Prado Dam, Hanson Dam, and Seven Oaks?
    Ms. Darcy. There may be potential for additional water supply 
benefits from existing Corps flood control reservoirs throughout 
California. The Army recognizes the balance to address flood risk 
management and dam safety, along with the safety of the public and 
water supply demands. Currently, the Army is coordinating with co-
operators to operate the reservoirs for both flood control and future 
water supply during these critical dry years. In those instances where 
there is potential for significant water supply benefits, an 
appropriate means of addressing improved reliability of water supply 
would be to seek reauthorization to reallocate reservoir storage and 
add water supply as a project purpose in those cases where it is not 
already an authorized project purpose.
    Additionally, there are ongoing feasibility studies to assess water 
supply and conservation. For example, the Army is conducting a 
Reservoir Re-operation study as part of the Central Valley Integrated 
Flood Risk Management Study. The Corps is completing a water quality 
study and evaluation of water conservation at the Seven Oaks Dam as 
part of the Santa Ana River Mainstem project. Also, issues such as 
water conservation and addressing Dam Safety related to the Whittier 
Narrows dam are being assessed. These studies have potential to provide 
water supply benefits at existing projects.
    Question. I am concerned about the Dam Safety Assurance Program. 
This program is supposed to fund the most critical dam improvement 
projects in the Nation. However, the President's budget only includes 
$49.1 million. I understand that the capability for the program is 
$70.4 million.
    Why is the President's budget not at the Corps Capability for this 
program? Is Dam Safety a top priority for this administration?
    Ms. Darcy. Individual dam safety, seepage and instability 
correction projects that are budgeted for construction are funded at 
capability, and are funded in the 2011 budget to a total of $446 
million. The separate line-item for planning and design of additional 
such projects--the Dam Safety and Seepage/Stability Correction Program 
(DSS)--is funded at $49.1 million, which will be allocated to priority 
dam safety studies and design. The amount was determined to be the 
correct amount for fiscal year 2011, in consideration of funding 
available overall for the Civil Works program.
    Question. The Corp is developing new national policies for the 
allowance and/or removal of trees and other vegetation from levee 
projects. Meanwhile, the Corps has participated in a collaborative 
effort with the State of California to develop vegetation-removal 
guidelines for the Central Valley. This collaborative effort holds 
promise for reaching a reasonable and balanced program for assuring 
levee integrity and, at the same time, taking into consideration unique 
circumstances and resources found in many areas in the Central Valley, 
and the Corps' past involvement with the region's levees.
    Can you assure me that your national policy will embrace and be 
fully compatible with situations like those found in the Central 
Valley? How will the national guidance accommodate the collaborative 
effort you've participated in for California?
    General Van Antwerp. The Army is committed to collaborating with 
California and other stakeholders in flood risk management in a 
systematic manner. The implementation of system-wide flood risk 
management strategies such as the one developed for the Central Valley 
is one of the Corps' top priorities for water resources actions 
nationwide. National policies for vegetation are incorporated into the 
collaborative solutions developed and implemented to address both 
national resource and public safety goals. The California Framework 
Agreement will continue to be the guiding document as the State of 
California continues to develop its long-term plan to resolve 
vegetation issues; a plan we understand will be finalized in July 2012.
    Question. The administration included two new construction starts 
in the Corps' portion of the President's fiscal year 2011 budget. How 
were the two ``new starts'' in the President's budget selected? What 
criteria were used? What did the administration hope to demonstrate 
through selection of these particular projects?
    Ms. Darcy. The two projects are priorities that demonstrate this 
administration's commitment to Ecosystem Restoration and non-structural 
solutions to water resource challenges.
    Question. The President's budget request reduced the enacted 
funding level for the Corps by $500 million. This has been cited by 
some as a reason to keep new starts to a minimum. On the other hand, it 
could also be argued that, in tight budget times, it is even more 
important to make the best possible use of scarce resources, and that 
some old projects should be discontinued, while newer projects that 
represent a better way of doing business are moved forward.
    Will the administration be reviewing priorities to determine 
whether some projects should be scaled back or discontinued in order to 
allow construction to begin on newer and better designed projects that 
contribute more significantly to national public safety and 
environmental goals?
    Ms. Darcy. As in previous years, the administration's budgets for 
the Army Corps of Engineers will focus funding on those projects with 
the highest net economic and environmental returns to the Nation, 
highest contributions to reducing risk to human safety, and highest 
contributions to environmental restoration in order to efficiently 
realize the benefits of those projects. New starts are not precluded as 
a general rule. The selection process focuses on the highest return 
studies and projects that are the administration priorities for that 
particular year.
                      specific california projects
    Question. In February, I wrote to you about the dam safety seismic 
remediation project at Success Dam. I appreciate the response I 
received this week to that letter. However, the lack of funding in the 
President's budget for this project continues to concern me about this 
project and the Army Corps of Engineers' commitment to dam safety in 
general.
    Why was there not enough funding in the President's budget to do 
anything on this project in fiscal year 2011, now that real estate 
acquisitions and construction are ready to move forward?
    Is Success Dam no longer a safety threat?
    Ms. Darcy. The Army is committed to dam safety and regards public 
safety as a crucial mission and obligation to our Nation. The Corps is 
prioritizing dam study and repair nationally, based on risk informed 
decisions to maximize benefits of our dam safety investments. There are 
risks associated with Success Dam, but other Corps projects pose 
greater concern at this time, based on the Corps improved understanding 
of structural performance and risk consequences.
    Even though Success Dam is not in the highest risk class, the study 
is still underway. In 2010, past and present study methods are being 
analyzed to determine if the overall project approach can be revised to 
reduce risk in a more cost effective and timely manner. Also, interim 
risk reduction planning has been performed to provide the downstream 
communities additional levels of flood risk reduction. The interim 
safety measures will remain active until the remediation is complete.
    Question. Hamilton City Flood Control is a project in my State of 
California that will produce both flood risk reduction and ecosystem 
restoration benefits. It involves construction of a new 6.8 mile-long 
set-back levee to provide enhanced protection for an economically 
challenged community of 2,500 on the Sacramento River while 
reconnecting over 1,400 acres of floodplain to the river--allowing for 
ecosystem restoration that benefits several species listed as 
threatened or endangered. It will also provide enhanced protection for 
the community's sewage treatment plant, and therefore produces water 
quality benefits.
    It has been cited as a model for collaboration among diverse 
stakeholders, and for achieving multiple societal goals simultaneously. 
It would seem to be an excellent example of a new and better way of 
doing business at the Corps. It is also ready to go. Design is 
complete, and the non-Federal cost-share has been secured.
    Since this project appears to encapsulate the administration's 
goals for multi-benefit projects, I believe it would be an excellent 
project for consideration in the President's fiscal year 2012 budget. 
What else does the Hamilton City project need to do to be included in 
the President's fiscal year 2012 budget?
    Ms. Darcy. The Hamilton City project satisfies the administration 
goals and objectives by emphasizing Ecosystem Restoration solutions to 
water resource challenges. This multipurpose project also meets 
numerous State, local and other non-governmental agencies objectives 
and goals for public safety, environmental stewardship and restoration.
    The project's design phase is fully funded and the Corps expects to 
complete it this year. The project will be considered along with other 
high performing projects in the Nation for consideration by the 
administration for New Starts in fiscal year 2012.
    Question. Last November, I wrote to alert you that the Sacramento 
District had encountered a cost-increase for their scheduled repairs to 
Marysville Ring Levee, which surrounds and protects the 12,000 
residents of the city of Marysville. Construction on Marysville, a 
separable element of the Federal authorized Yuba River Basin Project, 
is scheduled to begin in August. I understand you are personally 
working with the State of California and the local sponsors to close 
the funding shortfall to take advantage of the construction season, so 
several functional segments can be completed all at once.
    What is the status of your efforts to secure the additional funds 
the District needs for this project?
    Ms. Darcy. The Yuba River Basin, Marysville Ring Levee Phase 1 
contract has been allocated sufficient ARRA funds. The contract award 
is scheduled for the summer of 2010, pending completion of the 
Engineering Design Report and execution of the amended Project 
Partnership Agreement.
    Question. The Napa River Flood Protection Project has been the 
premiere flood protection/multiple purpose project of the Corps for the 
last 10 years and I appreciate the commitment made to the project by 
this administration, both in last year's budget and by providing almost 
$100 million from the American Recovery and Reinvestment Act. This is 
the type of project the Corps should be proud of: a project that 
delivers 100-year flood protection, creates over 700 acres of tidal 
wetland, and will lead to the economic rebirth of a flood prone 
community.
    What is your plan to keep this project on schedule and to move it 
aggressively toward completion?
    General Van Antwerp. The Napa Salt Marsh project, rather than the 
Napa River flood risk reduction project, is the project that would 
provide 700 acres of tidal wetland. The Napa Salt Marsh project is 
funded in the fiscal year 2011 budget. Because the project is quite 
large and complex and construction activities are accelerating, the 
Corps recently has increased public outreach efforts. Weekly meetings 
are held with the local sponsor, County of Napa--Flood Control and 
Water Conservation District, and the city of Napa so that any issues 
related to effects of ongoing construction activities on local 
businesses and residences are quickly addressed. Short term schedules 
are posted on the current contractor's Web site. Meetings with area 
residences and businesses are held in advance of upcoming work to seek 
input and make adjustments to construction work efforts, where 
practical, to accommodate their suggestions.
    With ongoing construction occurring in Napa, the Corps recognizes 
the need to continue design efforts and assess the Federal interest on 
the remaining project features. The Corps is striving to have the next 
design contract completed as soon as possible.
    Question. Murrieta Creek Flood Protection and Environmental 
Restoration is a similar multi-benefit project in southern California, 
which will also deliver 100-year flood protection, restore a riparian 
habitat corridor, create 160 acres of wildlife habitat, and develop a 
55-acre regional sports park. Since fiscal year 2004, Congress has 
provided $14 million for construction of the Murrieta Creek project. 
However, we have seen little movement by the Corps in constructing the 
project and yet the Corps spends the funds on non-construction tasks, 
including project management.
    Will you provide a full accounting of where the funding we have 
appropriated has gone? What are the administrative costs that are 
causing this funding to be spent without any physical results?
    General Van Antwerp. From fiscal year 2003 to fiscal year 2010, 
appropriations for Murrieta Creek Project totals $16,062,000. During 
this same period, a total amount of $537,000 was lost to Savings and 
Slippage (S&S), and/or Rescission. A total of $3,455,000 was 
reprogrammed into the project, for a total work allowance of 
$18,980,000 (see Table below).

                                                 SUMMARY OF PROJECT CONSTRUCTION FUNDING (2003 TO 2010)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                          Initial Work
                      Fiscal Year                          Conference      Savings and     Rescission       Allowance          Net          Final Work
                                                                         Slippage (S&S)                       (IWA)       Reprogramming      Allowance
--------------------------------------------------------------------------------------------------------------------------------------------------------
2003...................................................      $1,000,000      ($179,000)        ($6,000)        $815,000        $254,000       $1,069,000
2004...................................................       1,000,000       (141,000)         (5,000)         854,000       2,869,000        3,723,000
2005...................................................       1,500,000       (157,000)        (11,000)       1,332,000         370,000        1,702,000
2006...................................................       3,750,000  ..............        (38,000)       3,712,000         (38,000)       3,674,000
2007...................................................       1,760,000  ..............  ..............       1,760,000  ...............       1,760,000
2008...................................................       1,813,000  ..............  ..............       1,813,000  ...............       1,813,000
2009...................................................       3,349,000  ..............  ..............       3,349,000  ...............       3,349,000
2010...................................................       1,890,000  ..............  ..............       1,890,000  ...............       1,890,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The physical construction for Phase 1 of the Murrieta Creek project 
was completed in fiscal year 2004 for total cost of approximately $3 
million. In 2005, this completed portion was damaged during the 2005 
flood season. Emergency repairs and upgrades incurred a total cost of 
approximately $3.6 million. In addition, annual O&M and environmental 
and water quality monitoring costs of this completed portion are paid 
for by project funds until this phase is turned over to the sponsor. 
Supervision and administration costs for the project are slightly over 
$500,000 through fiscal year 2009.
    On the non-construction costs, engineering and design costs for the 
project totals to approximately $11 million. In addition to already 
completed engineering design and environmental documentation products, 
these costs include on-going work such as the following: (1) 
development of the Design Documentation Report which includes Sponsor's 
request to do technical analysis of other alternatives for the basin 
design; (2) preliminary design to include the ecological restoration 
and recreation features of the basin to its flood control feature are 
also being made; and (3) plans and specs for Phase 2 are near 
completion after several modifications to address several constraints 
and issues.
    Design of Phase 1A is also being prepared to account for necessary 
design changes due to the Metropolitan Water District's requirements. 
The Environmental Assessment reports for Phase 1A and Phase 2 are being 
developed. In addition, the presence of nesting birds requires a 
section 7 consultation and therefore, more coordination with U.S. Fish 
and Wildlife Service. Our environmental and water quality monitoring 
produced reports to assure compliance with water quality and the 
project mitigation requirements.
    The following summarizes the total project expenditures through 
fiscal year 2009:

------------------------------------------------------------------------
                                                            Federal
                                                         Expenditures
                    Work Category                     Though Fiscal Year
                                                             2009
------------------------------------------------------------------------
Lands...............................................             $41,268
Relocations.........................................  ..................
Ecosystem Restoration...............................  ..................
Channels............................................           3,348,830
Recreation..........................................  ..................
Pre-construction Engineering and Design.............           1,492,000
Engineering and Design..............................          11,261,621
Supervision and Administration......................             564,655
                                                     -------------------
      Total.........................................          16,708,374
------------------------------------------------------------------------

    Question. The local sponsor, the Riverside County Flood Control and 
Water Conservation District, is working to develop an innovative, more 
cost-effective alternative to the basin design which the community 
prefers to the Corps' plan which we believe will reduce costs and 
increase the benefit/cost ratio significantly.
    Will you commit the Corps to reviewing the sponsor's cost reduction 
recommendations, including more cost-effective designs, in order to 
find a more economical project that the administration can budget?
    General Van Antwerp. The Corps' Los Angeles District is working 
with the Riverside County Flood Control and Water Conservation District 
and the Cities of Murrieta and Temecula in an effort to move the 
project forward. In October 2009, there was a meeting to discuss 
available options to start construction of Phase 1A and Phase 2. The 
Corps has committed to reviewing recommendations for a more cost-
effective design and to continue to work to move the project forward.
    Question. The Llagas Creek Flood Protection Project, will provide 
flood protection for 1,100 homes, 500 businesses and over 1,300 acres 
of agricultural land and preserve the creek's habitat, fish and 
wildlife. This project was initiated in 1954 and is only 60 percent and 
the adjoining communities continue to flood on a regular basis.
    Despite regular appropriations, this project has not progressed 
well. What can the Army Corps do to prioritize this project for 
implementation in order to complete construction within the next 
several years?
    General Van Antwerp. The project cost sharing is inconsistent with 
standard Corps cost-shares and due to low performance, the project does 
not compete well for funding against other Corps projects. However, the 
Corps will continue to evaluate this project for funding during budget 
development.
    Question. The South San Francisco Bay Shoreline Project will 
provide flood protection to Silicon Valley from the existing, deficient 
non-engineered levees where tidal flooding and land subsidence occur 
along with the real risk of sea level rise. I have been advised that, 
even though the Corps commits to schedules and budgets, the feasibility 
study which was projected to cost approximately $12 million and be 
completed in 5 years, now is estimated to cost $25 million and will be 
completed in 10 years. This is unacceptable.
    One solution to moving the project quickly is for the San Francisco 
District to work more collaboratively with the local sponsors, both to 
allow them to advance portions of the project to provide flood 
protection and to allow the sponsors to complete certain pieces, or 
even the remainder of the feasibility report, in concert with the Corps 
to reduce costs and expedite the schedule significantly.
    Will you report back on positive efforts to facilitate these steps 
and recommend other innovative approaches to allow for securing 
expedited completion and approval of the Chief's Report for the Project 
and initiation of Corps' consideration?
    General Van Antwerp. Although progress on the Shoreline Study has 
been slower than originally anticipated, the Corps will complete the 
without-project phase of the planning process in August 2010. This 
major milestone will identify existing and future tidal flood risks and 
associated economic damages to the South Bay communities should a 
project never be built. The Corps continues to work closely with the 
sponsors. One-half of the study costs ($12.5 million) will be provided 
by the sponsors primarily as in-kind credit for contracts they are 
managing and staff time to participate in the study in an integral way 
through meetings and technical reviews.
    The Corps is assisting the sponsors in applying the technical 
analysis to develop smaller, early implementation projects for flood 
risk management under our section 104 authority that they can move 
forward with on their own. This work in advance of a Corps authorized 
project will help bring flood protection to the communities most at 
risk sooner, and provide early restoration opportunities. If these 
projects become part of the authorized project the local sponsors can 
receive credit during construction for the work they perform. Although 
there is an authority under Navigation studies for a local sponsor to 
complete a feasibility report on their own, no such authority exists 
for Flood Risk Management studies.
    The with-project phase of our planning process includes the 
development and evaluation of alternatives for both flood risk 
management and ecosystem restoration. Due to the complexity of the 
hydrodynamic modeling within the study area and multi-purpose planning 
challenges, we have scheduled a significant amount of time for this 
effort. We are assessing every possible way to streamline the 
evaluation and comparison of project alternatives with the goal of 
shortening the schedule.
    Other options to consider are to continue with a single purpose 
plan of Flood Risk Management, or to reduce the geographic scope of 
this first study. The goal is to collaborate with both the Conservancy 
and Santa Clara Valley Water District in developing a plan to move 
forward in the most expeditious and beneficial manner for all parties.
    Question. As stated in the Assistant Secretary's testimony, the 
Hamilton Airfield Wetlands Restoration-Bel Marin Keys Project is one of 
the Army Corps' premier wetlands restoration projects. However, I am 
concerned about reports I am hearing of how the project is being 
implemented and I believe your personal involvement is required.
    First, I was recently made aware that after about a year of 
negotiating the Project Cooperation Agreement to include the 
authorization of the Bel Marin Keys V portion of the project into the 
base Hamilton Project at the authorized cost-sharing of 75 percent/25 
percent in the Corps' own documents, that in the last month the Corps 
made the decision to change the cost-sharing to 65 percent/35 percent.
    Second, while the project is authorized at a total of $228 million, 
last year the San Francisco District estimated the total cost would be 
$500 million. This year, the Corps came back with an estimate of $300 
million, but could not detail for the local sponsor how much dredged 
material that amount would move, nor could they quantify the minimum 
amount of dredge material needed to meet the habitat goals. This 
inability to determine the total cost of this project is concerning.
    Can you report back to me on both of these issues?
    General Van Antwerp. Because of changes to project authorities, the 
cost share did start out as 75/25 and is now 65/35. Specifically, 
section 2037 of WRDA 2007 amended the section 204 authorization the 
project was started under to increase the non-Federal cost share to 35 
percent. WRDA 2007 modified the Hamilton Wetland Restoration Project 
(HWRP) to add the Bel Marin Keys Unit V (BMK) site to the existing 
project at a first cost of $228.1 million. The authorized fully funded 
total project cost estimate for the combined project, escalated to 
today's dollars is $267 million. This estimate assumes that the total 
project will be constructed with the expected amount of dredged 
material and environmental outputs of the project as specified in the 
Chief's Report.
                               sacramento
    Question. The Sacramento Area Flood Control Agency and the 
California Department of Water Resources are collaborating on urgently 
needed levee improvements for the Natomas basin, in close cooperation 
with the Army Corps of Engineers. In fact, the Corps is preparing a 
Post-Authorization Change Report (PACR) to support the Federal 
component of the project. The Corps has committed to completing the 
PACR this summer, in time for Congress to act on as it considers 
authorization of water projects.
    Can you confirm the Corps' schedule and commitment to this project? 
Please provide a detailed schedule for completion of the PACR.
    General Van Antwerp. The Corps is committed to the Natomas Basin 
project, including executing in accordance with the following schedule:
    Schedule American River Common Features (ARCF) Post Authorization 
Change Report:
  --Complete the draft Post-Authorization Change (PAC) by June 15, 
        2010.
  --Submit the final PAC package to HQ by August 31, 2010.
  --Sign Chief's Report by December 31, 2010.
    The Chief's Report for the ARCF GRR is scheduled for December 31, 
2010.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. Greater Sacramento remains one of the most at-risk urban 
areas in the Nation. I want to acknowledge my appreciation that the 
President's budget once again includes funding for Sacramento area 
flood control projects. However, several projects, especially the 
American River Watershed ``Common Features'' project and the Folsom Dam 
Modification project are at the point of heavy construction activity.
    Do you anticipate that the administration will support the large 
funding requirements that are necessary to keep these projects on 
schedule?
    Ms. Darcy. I cannot commit to future budget amounts, since those 
are future decisions. However, I can affirm that this project has 
consistently been considered a priority.
    Question. The Sacramento Area Flood Control Agency and California 
Department of Water Resources are working together to lead what I 
believe is a perfect example of non-Federal initiative for initiating 
and financing major flood control works in the Natomas Basin. I believe 
this could serve as a model for more collaborative Federal/non-Federal 
partnerships nationwide, which can move needed projects forward more 
efficiently and leverage limited Federal resources.
    Would you consider reviewing this model as a potential template for 
future partnerships?
    Ms. Darcy. Yes, we will review this model. Non-Federal partners, 
the State of California and SAFCA have been outstanding partners and 
instrumental in assisting the Corps move forward quickly and 
effectively on this project.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
                      louisiana coastal area (lca)
    Question. The budget request includes a new start in the 
Construction account, one for the Louisiana Coastal Area ecosystem 
restoration project. Can construction on the Louisiana Coastal Area 
project be initiated in fiscal year 2011, given the status of the 
planning study?
    General Van Antwerp. Provided that LCA project reports favorably 
complete the administration review process, yes, construction can be 
initiated in fiscal year 2011. The LCA study farthest along is for the 
Beneficial Use of Dredged Material (BUDMAT) Program. The programmatic 
feasibility study for BUDMAT was submitted by the Corps to my office in 
March 2010 for review. The study outlines a framework for using 
material generated through maintenance dredging of authorized channels 
for restoration efforts.
    The BUDMAT study provides criteria for identifying individual 
projects that could proceed after completing the relevant planning and 
environmental studies. Pre-construction engineering and design of the 
first BUDMAT projects will start in late fiscal year 2010, with 
construction of those individual projects expected to be initiated in 
fiscal year 2011.
    Question. Can you assure us today that the funding would result in 
on the ground projects if it was included in an appropriation bill?
    General Van Antwerp. If the LCA BUDMAT Program report receives a 
favorable administration review, the Corps is prepared to work with the 
State of Louisiana to execute a Project Partnership Agreements in 
fiscal year 2010 in preparation to begin construction in fiscal year 
2011. The Corps will capitalize on the scheduled maintenance dredging 
at authorized channels where the material can be used for restoration 
projects that meet the LCA Program objectives.
    Question. The Louisiana coast continues to be negatively impacted 
from subsidence and sea level rise. Beyond the near term benefit of 
wetland restoration, how will the work proposed under the LCA account 
for these factors. Are we essentially wasting our money for very short 
term gains?
    General Van Antwerp. Sea level rise and subsidence were factors in 
developing the plans for the LCA projects. While the projects cannot 
stop sea level rise and subsidence, the projects can slow down the 
disappearance of the landforms by eliminating some of the causes of 
coastal erosion. The addition of sediments through direct placement or 
river diversions will increase the ability of the restored area to 
continue to function and provide habitat with minimum continuing 
intervention over time. The soft, fluid Louisiana coastal formations 
erode in nature, and the services produced by a given project will 
change as the land erodes. The landforms continue to function as 
coastal habitats and ecosystem regulators even though they do not 
maintain their original construction footprint.
    Question. Will the LCA project actually restore the Louisiana 
coast? It appears to me that the best you will be able to accomplish 
with this program is perhaps to reduce the current loss of wetlands. 
Even that goal is unclear if it can be met. How do you justify spending 
funds to initiate construction on something that has such speculative 
benefit?
    General Van Antwerp. The projects identified in the LCA 2004 report 
are restoration elements that could be implemented in the near term to 
address critical needs of the Louisiana coast. As indicated in the LCA 
2004 report, the design and operation of these features would reduce 
the current rate of loss, maintain the opportunity for, and support the 
development of large-scale, long range comprehensive coastal 
restoration.
    The near term projects are intended to work in concert with each 
other to improve the sustainability of the Louisiana coast. Maintaining 
natural landscape features and hydrologic processes is critical to 
sustainable ecosystem structures and functions. The Louisiana coastline 
represents 90 percent of the wetlands in the contiguous United States 
and is currently disappearing at an alarming rate. This unique and 
scarce habitat has high fish and wildlife values and serves to protect 
nationally important oil and gas infrastructure, as well as coastal 
communities and cultures.
    Question. Why is the LCA project more of a priority for the 
administration than other restoration projects?
    Ms. Darcy. Execution of the LCA projects would make significant 
progress toward achieving and sustaining a coastal ecosystem that can 
support and protect the environment, economy, and culture of southern 
Louisiana and thus, contribute to the economy and well-being of the 
Nation.
    With no action the capacity of the coastal wetlands to buffer storm 
surges from tropical storm events will diminish, which will increase 
the risk of significant damage to oil, gas, transportation, water 
supply and other private and public infrastructure and agriculture 
lands and urban areas. A continued decline of the natural ecosystem 
will result in a decrease in various functions and values associated 
with wetlands, including corresponding diminished biological 
productivity and increased risk to critical habitat of Federal-listed 
threatened and endangered species.
    Question. Why is funding included in both the GI and the 
construction accounts?
    Ms. Darcy. For fiscal year 2011, funds from the Investigations 
account would be used to continue the feasibility level analysis for 
components of the LCA Program and funds from the Construction account 
will be used to undertake construction for those components where 
construction can be initiated.
    Question. WRDA 07 conditionally authorized six projects subject to 
a favorable report of the Chief of Engineers not later than December 
2010. Are you on schedule to meet this report requirement?
    Ms. Darcy. The Corps and the State of Louisiana are currently on 
schedule to have a signed favorable report of the Chief of Engineers 
Report by December 2010.
                        general budget questions
    Question. Understanding that development of the budget is an 
iterative process between the agency and the administration, is it safe 
to assume that the Corps initial budget request to OMB differed from 
what we have before us today?
    Ms. Darcy. The Corps' recommendations are the foundation of the 
Army's budget recommendations to the President. The advice and counsel 
leading up to the Army's recommendations are part of the internal 
deliberative process.
    Question. Without going into specific projects are funding levels, 
can you tell us a little bit about how it might have differed?
    Ms. Darcy. The President must make government-wide budget decisions 
in consideration of his the overall policy, spending and deficit goals. 
In order to provide the President the full benefit of advice from the 
agencies and departments, budget deliberations are considered to be 
pre-decisional, internal information.
    Question. Was the initial amount that the Corps recommended higher 
than what is before us today?
    Ms. Darcy. The advice and counsel leading up to the recommendations 
that form the basis of the President's budget are part of the internal 
deliberative process and are considered confidential advice to the 
President.
    Question. Was a specific area or business line of the budget 
request more impacted by the budgetary criteria?
    Ms. Darcy. The budget is performance based, and benefit cost ratio 
(BCR) is a primary allocation metric. Some business lines are more 
likely to carry higher benefit-to-cost ratios, although consideration 
also is given to reducing risks to human life and providing important 
environmental restoration benefits.
                            yazoo backwater
    Question. Why does the fiscal year 2011 budget propose to cancel 
$58 million previously appropriated for the Yazoo Backwater project?
    Ms. Darcy. As a result of Environmental Protection Agency's (EPA) 
veto of the Yazoo Backwater Pumps Project under section 404(c) of the 
National Environmental Policy Act, the project cannot proceed and, 
therefore, the funds appropriated specifically for implementation of 
the Yazoo Backwater pumps project are not needed.
    Question. Will this cancellation affect completion of the center 
associated with the Theodore Roosevelt National Wildlife Refuge?
    Ms. Darcy. The requirement of the fiscal year 2009 Omnibus 
Appropriation Act that some of the funding appropriated for the Yazoo 
Pumps project in that act be used for the Interpretive Center has been 
satisfied.
    Question. What about the ongoing litigation? It is inappropriate to 
propose cancellation of these funds before the final decision is made.
    Ms. Darcy. The Army is not a party to this litigation. The court 
has allowed six environmental groups to intervene as defendants in the 
lawsuit. The court will decide the lawsuit on motions for summary 
judgment based on the administrative record.
    Question. There is an inconsistency between the administration's 
budget appendix and the Corps' press release. The budget appendix 
assumes $58 million is cancelled. The press book shows only $52 
million. Are either of these numbers correct?
    Ms. Darcy. The $58 million reflected in the administration's budget 
appendix is the amount of funds appropriated in fiscal year 2004 thru 
fiscal year 2009 for implementation of the Yazoo Backwater project. Due 
to a misunderstanding about the effect of language in the fiscal year 
2009 Omnibus Appropriation Act, the press book reduced the amount by 
$6,000,000.
                          levee certification
    Question. There is considerable controversy over the minimally 
acceptable rating for levee certification. Please explain the Corps 
inspection process and how the FEMA rating system has affected the 
Inspection of Completed Works program.
    General Van Antwerp. The Corps conducts Routine Inspections on an 
annual basis of levees including those the Corps operates and 
maintains; those Federal authorized and operated/maintained by a local 
sponsor; and those locally constructed and locally maintained, but have 
applied and been accepted into the Corps' Public Law 84-99 program. The 
purpose of these Routine Inspections (also referred to as Annual 
Inspections or Continuing Eligibility Inspections) is to ensure the 
levee system is being properly operated and maintained in accordance 
with project cooperation agreements, if applicable, as well as to 
determine eligibility for Federal rehabilitation funds under Public Law 
84-99.
    The Corps uses an inspection checklist and provides a levee 
``system'' rating. A levee system is defined as comprising one or more 
levee or floodwall segments which collectively provide flood risk 
reduction to a defined area. The levee system is inclusive of all 
features that are interconnected and necessary to ensure flood risk 
reduction of the associated separable floodplain. A levee system can 
have one or more local sponsors or maintainers, but is rated as one 
entity. The Corps provides a rating for each individual item/component 
on the checklist and then gives the levee an overall system rating.
    The Corps' inspection ratings include the following:
    Acceptable Item.--The inspected item is in satisfactory condition, 
with no deficiencies, and will function as intended during the next 
flood event.
    Minimally Acceptable Item.--The inspected item has one or more 
minor deficiencies that need to be corrected. The minor deficiency or 
deficiencies will not seriously impair the functioning of the item as 
intended during the next flood event.
    Unacceptable Item.--The inspected item has one or more serious 
deficiencies that need to be corrected. The serious deficiency or 
deficiencies will seriously impair the functioning of the item as 
intended during the next flood event.
    Acceptable System.--All items or components are rated as 
Acceptable.
    Minimally Acceptable System.--One or more items are rated as 
Minimally Acceptable or one or more items are rated as Unacceptable and 
an engineering determination concludes that the Unacceptable items 
would not prevent the system from performing as intended during the 
next flood event.
    Unacceptable System.--One or more items are rated as Unacceptable 
and would prevent the system from performing as intended, or a serious 
deficiency noted in past inspections (which had previously resulted in 
a minimally acceptable system rating) has not been corrected within the 
established timeframe, not to exceed 2 years.
    If a levee system is rated Unacceptable, that system is placed in 
Inactive status in Public Law 84-99 until corrections are made. An 
Inactive levee is no longer eligible for Federal rehabilitation funding 
if damaged from a flood event. The Corps will still participate in 
flood fighting activities.
    Inspection results are provided to the local sponsor and to FEMA. 
If the Corps is on record as having previously certified the levee for 
FEMA purposes, then the Corps will evaluate how the inspection results 
may or may not impact the certification. If the Corps did not certify 
the levee, then FEMA will decide if the certification needs to be 
revisited based on the inspection results.
    An ``Acceptable'' inspection rating by the Corps does not equate to 
a levee certification.
    An ``Unacceptable'' inspection rating by the Corps does not 
automatically ``decertify'' a levee.
    A Periodic Inspection, conducted every 5 years, is the next level 
of inspection in the Corps Levee Safety Program and is conducted by a 
multidisciplinary team, led by a professional engineer. It includes a 
more detailed, comprehensive and consistent evaluation of the condition 
of the levee system. Activities under the Periodic Inspection include 
evaluating Routine Inspection items; verifying proper operation and 
maintenance; evaluating operational adequacy, structural stability and, 
safety of the system; and comparing current design and construction 
criteria with those in place when the levee was built. The final 
Periodic Inspection rating is based upon the Routine Inspection 
checklist.
    FEMA does not have any type of rating system for levees or levee 
certification.
    Question. We understand that levees that were designed for 
underseepage may now receive a minimally acceptable rating under the 
new rating system. How will this impact the levee being certified or 
accredited by FEMA?
    General Van Antwerp. Inspection ratings by the Corps do not have a 
direct correlation to levee certification for FEMA purposes. 
Certification for FEMA purposes only evaluates a levee at the 1 percent 
flood event (or 100 year or base flood) and any type of condition, such 
as underseepage, will need to be taken into account for this 
evaluation. For example, deficiencies could exist that may not impact 
the levee's ability to perform at the 1 percent flood event.
    Question. What happens if a levee loses certification and how will 
this impact taxes paid to levee districts for funding levee 
maintenance?
    General Van Antwerp. When levees do not meet certification 
criteria, the areas behind them are mapped as if the levee is not 
there. Depending on the hydraulics, these areas could be shown on 
FEMA's Flood Insurance Rate Maps as high-risk Special Flood Hazard 
Areas (SFHAs). Flood insurance and other flood plain management 
requirements are mandatory in SFHAs.
    The Corps cannot comment on how local taxes are implemented or 
impacted.
    Question. Who is responsible for the cost to bring a levee that was 
previously certified in the past up to current standards for levee 
certification?
    General Van Antwerp. For Inspection of Completed Works levees 
(Federal authorized/locally maintained), the local sponsor has the 
responsibility to ensure the levee will perform to the authorized 
design level, which may be below, at, or above the 1 percent (or 100 
year or base) flood event for levee certification.
    For levees the Corps operates and maintains, the Corps has the 
responsibility to ensure the levee will perform to the authorized 
design level. For all other levees, the entity seeking certification 
has responsibility to ensure the levee meets certification criteria.
    Question. How does the Corps Levee Safety program support levee 
certification?
    General Van Antwerp. The Corps will provide any levee information 
available to the local sponsor in support of certification efforts.
    Question. When is levee certification a Corps of Engineers 
responsibility?
    General Van Antwerp. It is the local levee sponsor's or community's 
responsibility to provide levee certification documentation to FEMA. 
Local communities must legally adopt and administer FEMA's National 
Flood Insurance Program (NFIP) requirements and have responsibility for 
operation and maintenance of their levees.
    If the Corps operates and maintains the levee, the local community 
that must adopt the FEMA Flood Insurance Rate Map as part of their 
requirement for participation in the National Flood Insurance Program 
may request the Corps to perform the certification of that levee. If 
funding is available, the Corps may perform the certification. The 
purpose of levee certification is to determine how FEMA will map the 
floodplain behind the levee for flood insurance purposes as part of the 
NFIP. The 1 percent annual chance exceedance flood, also called the 
100-year or base flood, is an insurance standard. It is not a safety 
standard nor does it eliminate risk.
    Question. For levee projects that once had 100-year certification 
and now find that they are a couple of feet too short or have other 
structural issues, what is the likelihood that current Corps policy 
would allow the Corps to participate in finding solutions that would be 
economically justified?
    General Van Antwerp. The Corps has various authorities and programs 
in the area of Flood Risk Management to collaborate in finding 
potential solutions, such as section 205--Flood Damage Reduction; 
section 216--Review of Completed Projects; Floodplain Management 
Services, Planning Assistance to States, interagency teams, or 
initiation of reconnaissance study.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. The U.S. Army Corps recommends a mere $2.868 million for 
the Kentucky Lock and Dam project in the fiscal year 2011 budget, which 
will cause the project to slip even further behind. How many years 
delayed is the project, and what additional funds are now needed 
complete it? What is the Army Corps' long-term plan for Kentucky Lock?
    General Van Antwerp. The Kentucky Lock Project received $65.6 
million in ARRA funds to date that has allowed for award of the 
Upstream Lock Monoliths construction contract. This contract 
encompasses all the critical activities of the project through at least 
the second quarter of fiscal year 2012. For this reason, the project 
did not require significant funding in fiscal year 2011 from the Inland 
Waterways Trust Fund (IWTF).
    The $2.868 million in the fiscal year 2011 budget is sufficient to 
complete the ongoing highway/railroad relocations superstructure 
construction contract. The project's completion date has been extended 
for 3 years due to the solvency issues of the IWTF. If enacted, the 
draft plan to restore solvency to the IWTF would provide sufficient 
funding to complete the project before 2020.
    Question. The Army Corps has indicated that $143.2 million could be 
used to further construction at Olmsted Locks and Dam; however the 
President's budget for fiscal year 2011 includes $136 million for the 
project. How many years behind is the project from its scheduled 
completion date? At what point does the budget for Olmsted take a 
severe budget cut, like the Kentucky Lock Project, because of the 
inability of the Inland Waterways Trust Fund to fund ongoing projects?
    General Van Antwerp. The Olmsted project completion date of 2012 
has slipped, due to a number of factors including river conditions, 
design changes, materials and supply escalation, and differing site 
conditions. If optimal funding were to be available, the project could 
be completed in 2018. For fiscal year 2011 thru fiscal year 2015 the 
estimated efficient funding stream for the project is approximately 
$140-$145 annually.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
    Question. In the wake of Judge Magnuson's July 2009 ruling 
concerning the Corps' illegal operations in the Apalachicola-
Chattahoochee-Flint (ACF) River Basin, the Corps was forced to withdraw 
its scoping report for the ACF Water Manual Update and issue a revised 
scoping report. The Corps is also preparing a new water control manual 
for the Alabama-Coosa-Tallapoosa (ACT) River Basin, but Judge Bowdre 
has not yet ruled on the legality of the Corps operations in the ACT 
Basin.
    In light of the experience with having to withdraw the ACF scoping 
report, has the Corps considered suspending the ACT manual update 
process until Judge Bowdre issues her ruling? If not, how can the Corps 
justify expending scarce resources to continue with the ACT manual 
update process when Judge Bowdre's ruling may require that the process 
start over?
    General Van Antwerp. The Corps is updating the ACT water control 
manuals and associated NEPA documentation in accordance with direction 
provided by then Secretary of the Army Pete Geren in October 2007, and 
Army regulations. Updating the water control manuals and NEPA 
documentation is a complex and time-consuming deliberative process that 
includes extensive model development and data analysis, as well as 
coordination with Federal, State, regional and local agencies.
    The Corps is confident that its operations in the ACT basin, and 
its process in updating the ACT manuals, are fully in compliance with 
applicable law. While the possibility exists that some adjustments to 
the update may be appropriate in response to a future ruling by Judge 
Bowdre in the ACT litigation in the U.S. District Court for the 
Northern District of Alabama, the majority of the work being performed 
now would still be needed and of value in implementing any water 
control manual update.
    Although the Corps did decide to reopen public scoping of the ACF 
water control manual updates and EIS in November 2009, to account for 
Judge Magnuson's July 17, 2009 ruling in the consolidated cases styled 
In re Tri-State Water Rights Litigation, No. 3:07-md-01 (M.D. Fla.), 
the Corps is continuing the process of updating the ACF water control 
manuals, in accordance with Secretary Geren's earlier direction, and 
released an updated scoping report in March 2010. The July 2009 ruling 
is currently on appeal.
    Question. Explain how the Corps has factored the legal principles 
underlying Judge Magnuson's ruling concerning the ACF into Corps' ACT 
manual update process.
    General Van Antwerp. Judge Magnuson's ruling addressed the 
authorities for operating Buford Dam/Lake Sidney Lanier and did not 
address the ACT manual update process.
    Question. What steps has the Corps taken to address the fact that 
Cobb County-Marietta Water Authority withdraws more water than they are 
entitled to withdraw from Lake Allatoona under their contract with the 
Corps?
    General Van Antwerp. The Corps notified CCMWA in a letter dated 
November 2, 2007 that its water supply withdrawals from Lake Allatoona 
were exceeding the amount of water available in storage allocated to 
CCMWA pursuant to its storage contract. There are on-going discussions 
with CCMWA regarding this issue.
    Question. What is the status of the Hickory Log Creek Reservoir in 
Georgia and when is it anticipated that the pumping facility on the 
Etowah River will begin operations?
    General Van Antwerp. Construction of the reservoir is essentially 
complete and the reservoir is approximately 80 percent full due to 
plentiful rains in the fall of 2009 and spring 2010. The Etowah River 
pump system is completed, but some land acquisition problems have 
arisen. Pursuant to DOA permit conditions CCMWA cannot pump from the 
Etowah River until it completes its compensatory mitigation. The 
estimated time until the pumping from the Etowah begins is now December 
2010. However, to date, the Corps has not received a formal request 
from CCMWA to start pumping from the Etowah River.
    Question. Has the Corps imposed any restrictions on the timing and 
duration of pumping from the Etowah River into the Hickory Log Creek 
Reservoir to minimize the impact upon inflows into Lake Allatoona?
    General Van Antwerp. The State of Georgia has established 
conditions for when pumping from the Etowah River into Hickory Log 
Creek can occur. These conditions limit withdrawals from the Etowah 
River when the river is below 25 percent of Annual Daily Discharge 
(ADD).
                                 ______
                                 
           Questions Submitted by Senator George V. Voinovich
    Question. In the Fiscal Year 2010 Energy and Water Appropriations 
Act, Congress provided the Corps with emergency authority to implement 
measures for Asian Carp that were included in an interim or final 
Feasibility Study, which was authorized in WRDA 2007. Has this 
authority been helpful and does the Corps support the continuation of 
this authority?
    Ms. Darcy. The Army has found the authority useful and supports its 
extension. The authority has provided the Corps with the opportunity to 
complete studies for the Secretary's approval that can be implemented 
quickly to address the high level of concern in the Great Lakes 
community over the migration of Asian Carp. One example of using the 
authority is the construction of fencing and barricades to prevent 
bypass of the Corps' electric barrier system in the case of flood 
events.
    Question. For many years, I have raised concerns about the 
significant backlog of Corps work throughout the country as well as in 
the Great Lakes. This backlog problem is, in part, the result of the 
Corps practice of treating the Great Lakes as a coastal system and 
comparing individual ports using tons as a budget metric. In contrast, 
the Corps budgets our Nation's river systems on a ton-mile metric. The 
current budget process and metrics put the Great Lakes navigational 
system at a disadvantage compared to other domestic navigational 
systems. How do you plan to address the backlog of Corps' work across 
the country, and in particular the Great Lakes?
    General Van Antwerp. The Corps budgets for key maintenance needs 
across the entire spectrum of Civil Works projects by prioritizing 
projects based on objective performance criteria. In navigation, the 
Corps focuses on funding harbors and waterways that have high volumes 
of commerce. However, funds are budgeted based on other factors as 
well, such as those ports and channels that serve as critical harbors 
of refuge, subsistence harbors, or facilitate U.S. Coast Guard search 
and rescue operations.
    The Great Lakes projects are individually authorized and are 
considered coastal projects. While there is some interdependence of the 
Great Lakes ports and harbors on each other, the Great Lakes system is 
non-linear and many Great Lakes ports and harbors can operate 
independent of other harbors. Conversely, the inland navigation 
facilities on the Mississippi River, Ohio River, and other inland 
waterways are often linear and interdependent on each other. For 
example, if users are traversing more than one lock and dam a single 
closure in the system will stop that traffic. For other than short-haul 
movements, or movements south of St. Louis, the commercial towing 
vessels must transit through many locks and dams to move from the point 
of origin to the destination point and all the inland navigation 
infrastructure along the way must be functional for the trip to occur.
    Question. Despite the significant backlog of Corps work, the Harbor 
Maintenance Trust Fund has approximately a $4 billion surplus that is 
growing each year. As you know, the money collected for the Harbor 
Maintenance Trust Fund is intended for a specific purpose--maintaining 
harbors and channels. Do you believe that additional money should be 
provided to the Corps from the Harbor Maintenance Trust Fund?
    Ms. Darcy. The source of funds is just one of many factors 
considered in the budget development process. The overall Civil Works 
Operation and Maintenance (O&M) program is prioritized for all 
missions, including navigation, flood risk management, hydropower, etc. 
Funding is budgeted for the diverse Civil Works missions based on 
various metrics and priorities, and is limited by our overall budget 
authority.
                                 ______
                                 
             Questions Submitted to Hon. Michael L. Connor
             Questions Submitted by Senator Byron L. Dorgan
                                drought
    Question. In prior years I have talked about the drought situation 
in the West particularly as it relates to North Dakota. As we know, 
that is not the situation this year. However, can you talk about the 
drought situation in the West and what we should expect based on 
current models?
    Answer. Reclamation utilizes the National Oceanic and Atmospheric 
Administration's Climate Prediction Center to monitor drought 
conditions. Currently, the Center shows that the States of Arizona, 
California, Colorado, Hawaii, Idaho, Montana, Nevada, New Mexico, 
Oregon, Texas, Utah, Washington, and Wyoming are experiencing some 
level of drought ranging in intensity from abnormally dry to extreme. 
While the El Nino winter has improved the drought conditions in the 
Pacific Northwest and Northern Rockies, it has expanded the drought in 
the Hawaiian Islands.
                              rural water
    Question. There are a number of projects in the fiscal year 2010 
Energy and Water Act that were not included or included at low levels 
in the President's fiscal year 2011 budget request. Can you provide us 
the capability amounts needed for those projects?
    Answer. The first priority for funding rural water projects is the 
required O&M component, which is $15.5 million (Reclamation-wide) for 
fiscal year 2011. For the construction component, Reclamation allocated 
funding based on objective criteria that gave priority to projects that 
serve on-reservation needs and are nearest to completion.
  --Fiscal year 2011 is the second time Jicarilla-Apache Rural Water 
        System (RWS) in New Mexico is in the budget request. The 
        request is for $0.5 million.
  --Perkins County Rural Water System (RWS) in South Dakota is in the 
        budget request. The request is for $1 million.
  --Rocky Boy's/North Central Montana RWS in Montana is in the budget 
        request. The request is for $1 million. At full capability, $20 
        million would be used to install additional core system 
        pipeline from the Tiber Dam to the Rocky Boy's Reservation.
  --Fort Peck Reservation/Dry Prairie RWS in Montana is in the budget 
        request. The request is for $2 million. At full capability, $15 
        million would be used to complete pipeline from the water 
        treatment plant to Wolf Point and Poplar.
  --Lewis and Clark RWS in South Dakota, Iowa, and Minnesota, is in the 
        budget request. The request is for $200 million. At full 
        capability, $35 million would complete construction on Phase II 
        of the water treatment plant.
    Question. How did you arrive at the funding decisions for rural 
water projects? Most of them seem to be funded at minimal levels.
    Answer. The first priority for funding rural water projects is the 
required O&M component, which is $15.5 million (Reclamation-wide) for 
fiscal year 2011. For the construction component, Reclamation allocated 
funding based on objective criteria that gave priority to projects that 
serve on reservation needs and are nearest to completion.
    Question. Are these projects not part of Reclamation's mission of 
bringing water to the West?
    Answer. Yes. The mission of the Bureau of Reclamation is to manage, 
develop, and protect water and related resources in an environmentally 
and economically sound manner in the interest of the American public.
    The fiscal year 2011 President's budget balances several 
priorities, including funding for constructing authorized rural water 
projects. Given the need to work within the framework of today's budget 
realities, as well as the need to be attentive to priorities associated 
with existing water and power infrastructure throughout the West, 
Reclamation is unable to fund all of the ongoing rural water projects 
at their full capability levels.
    Question. How are we ever going to make progress on completing 
these projects, at these low budget levels? Inflation is going to 
increase the project cost faster than the funding we are investing.
    Answer. Reclamation is making progress in funding rural water 
projects throughout North and South Dakota and Montana. The Mid-Dakota 
Rural Water System was completed in fiscal year 2006; numerous features 
within the Garrison Diversion Unit in North Dakota have been completed; 
and the Mni Wiconi Rural Water System is scheduled to complete in 2013. 
Reclamation also allocated $200 million in American Reinvestment and 
Recovery Act funds (ARRA) to further construction on these projects.
                        title xvi recycled water
    Question. Title XVI programs are traditionally not well supported 
by the administration. I am pleased to see an increase for these 
projects in your budget. However, can you explain how the unallocated 
$20 million will be allocated to projects?
    Answer. Fiscal year 2011 is a transition year for the title XVI 
Water Reclamation and Reuse program (title XVI) because a number of the 
individual projects authorized under title XVI of Public Law 102-575, 
as amended, that have been included in the President's budget in the 
past are completed or are approaching Federal cost-share ceilings. 
Reclamation plans to post a funding opportunity announcement to invite 
project sponsors to submit requests for fiscal year 2011 funding. The 
procedure will be similar to the steps used to allocate over $135 
million in ARRA funding to title XVI projects in 2009, when proposals 
were reviewed and ranked to identify individual projects for funding. 
The funding opportunity will be open to authorized projects that have 
received Federal funding in the past and those that have not received 
Federal funding to date. Reclamation proposes to consider construction 
and pre-construction activities that can be commenced in fiscal year 
2011 and completed within 24 months (i.e., not previously completed 
construction). Generally, criteria will focus on reducing existing 
diversions or addressing specific water supply issues in a cost-
effective manner, addressing environmental and water quality concerns, 
and meeting other program goals.
    Question. What modifications do you believe could be made to the 
title XVI program that would make it more acceptable to the 
administration?
    Answer. This administration recognizes the key role water reuse 
plays in addressing western water issues, as indicated by this 
increased request. Title XVI is an important part of the WaterSMART 
program, which seeks to achieve a sustainable water strategy to meet 
the Nation's water needs. Title XVI projects can stretch water supplies 
using both time-tested methodologies and piloting new concepts. 
Reclamation looks forward to working with the subcommittee to make the 
title XVI program as effective as possible as part of this coordinated 
approach to addressing 21st century water challenges.
    Question. How much of a backlog currently exists in the currently 
authorized title XVI program?
    Answer. There are currently 53 authorized title XVI projects, 
including new projects authorized as a result of the Omnibus Public 
Land Management Act of 2009 (Public Law 111-11). Together, those 
authorized projects have a remaining Federal cost share balance in 
excess of $600 million--after more than $135 million allocated under 
ARRA has been applied.
                          aging infrastructure
    Question. The recently passed Lands bill gave Reclamation the 
authority to address rehabilitation of its aging infrastructure. Prior 
to the passage of this legislation this rehab work would have been a 
non-Federal responsibility. Recognizing that this is a relatively new 
authority, has Reclamation established guidance for how this program is 
to be implemented?
    Answer. Reclamation is currently developing guidance regarding the 
implementation of this program as directed by Omnibus Public Land 
Management Act (Public Law 111-11, subtitle G--Aging Infrastructure). 
Similar programs designed to assist Reclamation project beneficiaries 
in financing the reimbursable costs of extraordinary maintenance and 
rehabilitation work have been implemented by Reclamation in the past, 
and we are drawing on that experience in developing implementation 
guidance.
    Question. Has Reclamation evaluated the condition of this 
infrastructure so that this work could be prioritized in a meaningful 
manner?
    Answer. Reclamation periodically evaluates the condition of its 
facilities through existing facility review programs. The 
recommendations resulting from the reviews are the basis for 
prioritization of funding for identified needs.
    Question. No funding was provided in your budget for this 
authority. Does this mean that this will be a low budget priority for 
the administration?
    Answer. No. Reclamation believes that the Omnibus Public Land 
Management Act (Public Law 111-11, subtitle G--Aging Infrastructure) 
provides the authority to undertake such a program, and plans to 
consider the appropriateness of funding requests to support these 
efforts on a project by project basis given current budget constraint. 
As stated in above, Reclamation periodically evaluates the condition of 
its facilities through existing review programs and the recommendations 
resulting from the reviews are the basis for prioritization of funding 
for identified needs.
    Question. The language in the Lands bill makes this work 
reimbursable over a period not to exceed 50 years. Will this be 
affordable to the non-Federal sponsors that most need this assistance?
    Answer. Current law requires the non-Federal sponsors to pay for 
this work in advance. Allowing repayment over a term of up to 50 years 
will greatly ease the burden these entities have faced in the past in 
repaying the reimbursable costs of this work. In addition, Reclamation 
would pay for the share of the costs that would be allocated to non-
reimbursable project purposes. However, given that some of the major 
repair work needed will be very costly, and that interest will be 
assessed on the reimbursable obligations, some project sponsors will 
still face challenges in repaying these costs.
    Question. With much of Reclamation's infrastructure more than 50 
years old, this problem is only going to increase. Has Reclamation 
developed contingencies to address failures of this infrastructure?
    Answer. Assuming that the reference to failures is in the context 
of not being able to continue water deliveries, this would pose a 
public policy question regarding the costs and benefits associated with 
major Federal investment in recapitalizing this infrastructure. 
Reclamation believes that the Omnibus Public Land Management Act 
(Public Law 111-11, subtitle G--Aging Infrastructure) provides the 
authority to undertake such a program, and plans to consider the 
appropriateness of funding requests to supports these efforts on a 
project by project basis given current budget constraints.
    Question. Now that the CALFED Program has been extended, will the 
administration be providing a Cross Cut Budget document showing 
expenditures and accomplishments, either this year or in next year's 
request?
    Answer. Reclamation and the other Federal CALFED agencies prepared 
a Federal Cross Cut Budget for fiscal year 2011 in accordance with the 
extension of Public Law 108-361 through fiscal year 2014. That is 
currently posted with the President's fiscal year 2011 budget on the 
OMB Web site under Analytical Perspectives. Under the newly established 
Delta Stewardship Council which replaced the California Bay-Delta 
Authority and assumed the CALFED Program, the Federal CALFED agencies 
anticipate continuing to work with the State to meet the goals 
identified in the CALFED Bay-Delta Programmatic Record of Decision and 
our Federal responsibilities as defined in Public Law 108-361. OMB will 
continue to work with the Federal CALFED agencies through fiscal year 
2014 to ensure a Federal Cross Cut Budget is prepared and submitted 
unless replaced by some other process or defining legislation.
    Question. On December 22, 2009, the administration released an 
``Interim Federal Action Plan for the California Bay-Delta''. How will 
the administration report expenditures by agencies on items within this 
plan and accomplishments of the plan?
    Answer. The administration will work closely with our State and 
other Federal partners in developing a coordinated report on 
obligations and accomplishments of the Federal Action Plan for the 
California Bay-Delta. As many of the activities under the Action Plan 
will also be associated with the activities of the new Delta 
Stewardship Council, we will work together to provide a concise and 
meaningful report of the obligations and accomplishments under the 
Federal Action Plan that is fully coordinated with the annual reporting 
requirements of the extended CALFED Program. This reporting includes 
the Annual Cross Cut Budget submittal unless replaced by some other 
process or defining legislation.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                                 calfed
    Question. Now that the CalFed Bay-Delta Authorization is extended 
through 2014, will the administration be providing a Cross Cut Budget 
document showing expenditures and accomplishments, either this year or 
in the fiscal year 2012 budget request?
    Answer. Reclamation and the other Federal CALFED agencies prepared 
a Federal Cross Cut Budget for fiscal year 2011 in accordance with the 
extension of Public Law 108-361 through fiscal year 2014. That is 
currently posted with the President's fiscal year 2011 budget on the 
OMB Web site under Analytical Perspectives. Under the newly established 
Delta Stewardship Council which replaced the California Bay-Delta 
Authority and assumed the CALFED Program, the Federal CALFED agencies 
anticipate continuing to work with the State to meet the goals 
identified in the CALFED Bay-Delta Programmatic Record of Decision and 
our Federal responsibilities as defined in Public Law 108-361. OMB will 
continue to work with the Federal CALFED agencies through fiscal year 
2014 to ensure a Federal Cross Cut Budget is prepared and submitted 
unless replaced by some other process or defining legislation.
    Question. On December 22, 2009, the administration released an 
``Interim Federal Action Plan for the California Bay-Delta''. How will 
the administration report expenditures by agencies on items within this 
plan and accomplishments of the plan?
    Answer. The administration will work closely with our State and 
other Federal partners in developing a coordinated report on 
obligations and accomplishments of the Federal Action Plan for the 
California Bay-Delta. As many of the activities under the Action Plan 
will also be associated with the activities of the new Delta 
Stewardship Council, we will work together to provide a concise and 
meaningful report of the obligations and accomplishments under the 
Federal Action Plan that is fully coordinated with the annual reporting 
requirements of the extended CALFED Program. This reporting includes 
the Annual Cross Cut Budget submittal unless replaced by some other 
process or defining legislation.
                        red bluff diversion dam
    Question. The President's budget includes $39.9 million to continue 
construction of the new fish screen and pumping plant at the Red Bluff 
Diversion Dam on the Sacramento River. The administration also 
allocated $109.9 million in stimulus dollars toward this project. 
However, in order to keep this project on schedule to meet the 
requirements in the June 4, 2009 Biological Opinion for the Operating 
Criteria and Plan for the Central Valley Project, this project requires 
$61.3 million in fiscal year 2011. Why does the budget not include this 
amount?
    Answer. The fiscal year 2011 budget includes the minimum required 
to keep pace with the expected construction expenditures. Additional 
funding that would be available to the project in fiscal year 2011 
would be obligated to the pumping plant and fish screen construction 
contract to reduce the amount remaining to be funded on the contract. 
Reclamation will continue to assess project funding needs as more 
refined cost estimates are available.
                     san joaquin river restoration
    Question. The San Joaquin River Settlement dedicates revenues from 
the Friant surcharge and capital repayment obligation to fund 
implementation of the agreement. The State of California also has 
committed funding to the Settlement. But the Parties to the Settlement, 
including the Interior Department, know that full implementation will 
require more than these dedicated revenues and the promised State 
funding. That's why the Settlement Act authorizes an additional $300 
million in appropriations. The Parties, including the Interior 
Department, always assumed--and assured me--that Settlement 
implementation would be funded each year with a mix of appropriations 
and non-appropriated dedicated revenues.
    Yet for the second year in a row, the Department has requested no 
new appropriations for the Settlement in fiscal year 2011. The budget 
request includes only the dedicated revenues from the Friant surcharge 
and capital repayment for Settlement implementation plus a small amount 
from the CVP Restoration Fund. This is not in keeping with my 
understanding of what was agreed to, nor does it conform to the 
understanding of the water users and conservation organizations who are 
Parties to the Settlement. They tell me that they are concerned that 
this budget reflects a lack of commitment by the Department to 
implement the agreement as agreed to.
    As you know, a significant portion of the Settlement's non-
appropriated dedicated revenues will come in a few years before the 
Settlement's largest expenditures for river restoration and water 
management projects, which will exceed those revenues. If you spend all 
or even most of the Settlement's non-appropriated funds in the short-
term, how will the Department fund the major implementation costs that 
are coming within the next few years?
    Answer. Funding for projects required by the Settlement can be 
funded by direct spending from dedicated revenues (subject to an $88 
million cap until 2019), appropriated discretionary funds, and State or 
local contributed funds.
    Question. Do you expect to fund these projects entirely or mostly 
with appropriations?
    Answer. With the funding cap of $88 million on the direct spending 
from dedicated revenues until 2019, most of the implementation costs 
will need to come from both State contributions and Federal 
discretionary appropriations.
    Question. Wouldn't funding the Settlement with a mix of 
appropriated and non-appropriated funds now tend to reduce and even out 
appropriation requirements in the future when costs will be the 
greatest?
    Answer. Yes, Federal appropriations, such as the $5 million in 
fiscal year 2010, will reduce the magnitude of future appropriations 
required to implement the Settlement.
    Question. If so, why isn't the Department following this course?
    Answer. The Department's fiscal year 2011 budget request maintains 
a strong commitment to make progress on these issues, which are high 
priorities for the Department. There is $2 million in the Central 
Valley Project Restoration Fund request in addition to the mandatory 
revenues available.
    Question. Can the Department please provide me with a chart 
displaying an annualized estimate of funding needs for implementing all 
Settlement and Settlement Act projects, programs and activities 
together with an annualized estimate of revenues to the San Joaquin 
River Restoration Fund from all sources, including State funding?
    Answer. The requested chart is provided below. The chart is not a 
reflection of or estimate of future funding requests in the President's 
budget. A list of assumptions made in developing the chart is also 
provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Estimated funding need includes completion of the Settlement's high 
priority channel and structural improvements projects (also referred to 
as the Phase 1 projects), water management activities, fishery 
reintroduction planning and permitting, and management and monitoring 
of flows. The estimated funding need does not include costs for the 
Settlement's Phase 2 projects, Settlement Paragraph 12 projects (other 
projects recommended by the Restoration Administrator), and fisheries 
reintroduction activities due to the current uncertainty of the scope 
and need for these actions. The estimated funding need for the Friant-
Kern and Madera Canal Capacity Correction Project assumes funding this 
project over time as incremental improvements are made. Due to the 
requirement in section 10203 of Public Law 111-11 that funding for the 
Friant-Kern Canal Reverse Flow Project cannot impact or delay 
implementation of any other Settlement requirement, it is assumed that 
this project will not be initiated until 2017. Based on these 
assumptions, the estimated funding need for the program from fiscal 
year 2010 through fiscal year 2018 is approximately $520 million.
    Total funding available within the fiscal year includes funds from 
the following sources: Friant surcharge; Friant capital repayment; 
other Central Valley Project Improvement Act funding; appropriations in 
fiscal year 2010; and an estimate of State funding. Funds from the 
Friant surcharge and Friant capital repayment are assumed to be subject 
to the $88 million Pay As You Go (PAYGO) cap. From fiscal year 2010 to 
fiscal year 2018, Reclamation estimates collecting approximately $148.3 
million above the $88 million PAYGO cap that is not accounted for in 
the total funding available as it will require additional 
appropriations for use. Using these assumptions, the estimated total 
funding available from fiscal year 2010 through fiscal year 2018 is 
approximately $292 million.
    The remaining funding need is the difference between the total 
funding available and the estimated funding need. Using the assumptions 
we have described previously, the remaining annual funding need from 
fiscal year 2010 through fiscal year 2018 is approximately $313 
million.
    Question. Please also indicate how much of the revenues collected 
to date into the SJR Restoration Fund have been expended as ``mandatory 
spending'' and how much is left within the current Pay As You Go 
(PAYGO) cap as available for mandatory spending from the SJR Fund.
    Answer. As of April 1, 2010, approximately $168,000 of the funds in 
the SJR Restoration Fund has been obligated as mandatory spending. 
Reclamation estimates that mandatory spending from the SJR Restoration 
Fund at the end of fiscal year 2010 will be $5.6 million leaving $82.6 
million available after fiscal year 2010 under the $88 million cap.
    Question. In fiscal year 2008 and fiscal year 2009, this 
subcommittee provided a total of $1.4 million for projects to restore 
the original water carrying capacity of the Friant-Kern and Madera 
Canals. Those projects were included in the Settlement Act to help meet 
one of the Settlement's goals of avoiding or minimizing water supply 
impacts to Friant water users. Interim flows this year will exceed 
200,000 acre-feet and therefore the water supply impacts addressed by 
the Water Management Goal have already begun and can be expected to 
occur each year from now on. Bringing Water Management Goal projects 
online as soon as possible is important to the success of the 
Settlement. Yet despite 2 years of study funded by this subcommittee, 
the Department doesn't plan to start work on the canal repairs or other 
significant water management projects--in fiscal year 2011.
    Answer. Reclamation has used the funding provided for these 
projects in fiscal year 2008 and fiscal year 2009 to make progress.
    Question. Why?
    Answer. Reclamation has been working to expedite the completion of 
the feasibility studies required by Public Law 111-11 (passed in March 
2009), environmental permitting, and engineering design activities for 
these projects. For both the Friant-Kern and Madera Canal Capacity 
Correction Project and the Friant-Kern Canal Reverse Flow Project, 
preliminary design reports are scheduled for completion in June 2010, 
the National Environmental Policy Act compliance activities in July 
2010, and feasibility reports in August 2010. Final design and 
preconstruction activities would be completed in fiscal year 2011. Due 
to the need to construct the canal capacity correction project in the 
winter, when the canals are dewatered, this project would not be ready 
for construction until fiscal year 2012. The pump-back project could go 
to construction in late fiscal year 2011; however, as it currently 
stands, the Friant-Kern Canal Reverse Flow Project is assumed to be 
delayed until 2017 as it will be challenging to make the findings 
required in section 10203 of Public Law 111-11 if this project is 
funding with monies from the SJR Restoration Fund.
    Question. With regard to the Settlement's restoration activities, 
there have also been unexplained delays. For example, please explain 
why the Fisheries Management Plan is already significantly late when 
all the needed funding has been available?
    Answer. Although Reclamation and other implementing State and 
Federal agencies have been working diligently to implement the 
Settlement, some restoration activities have been delayed. The primary 
causes for the delays are: (1) the Federal legislation to implement the 
Settlement was enacted more than 2 years later than the Settlement 
assumed; (2) access to private property has not been granted, which has 
significantly delayed necessary field studies; (3) funding from the 
State of California has required compliance with a variety of State 
laws that Reclamation would not have otherwise had to comply with, 
including the California Environmental Quality Act; and, (4) 
Reclamation has incorporated a variety of processes to increase 
coordination with the Settling Parties, Implementing Agencies, Third 
Parties, and the public in an effort to increase the potential for a 
successful program and facilitate permitting and approval actions. 
Reclamation remains committed to implementing the Settlement.
    The San Joaquin River Restoration Program released a public review 
draft of the Fisheries Management Plan in June 2009. The Work Group 
received comments on the Plan and is currently preparing an updated 
version of the Plan in response to the comments received. The updated 
version of the Plan is anticipated to be ready and included as an 
attachment to the Program Environmental Impact Statement/Report, which 
is scheduled for release in June 2010. The Fisheries Management Plan is 
a living document that will be updated periodically as new information 
is gathered and uncertainties are addressed through monitoring and 
study activities.
    Question. Why doesn't the Department plan to start significant 
restoration projects in fiscal year 2011?
    Answer. Reclamation is currently in the formal planning and 
environmental compliance phases for the following three significant 
projects: (1) the Mendota Pool Bypass and Reach 2B Channel Improvements 
Project; (2) the Reach 4B, Eastside and Mariposa Bypass Low Flow 
Channel and Structural Improvements Project; (3) the Arroyo Canal Fish 
Screen and Sack Dam Fish Passage Project. These 3 projects address 9 of 
the 10 Phase 1 improvements in paragraph 11(a) of the Settlement. Each 
project includes substantial changes to the San Joaquin River system 
that will require a significant amount of upfront planning and design 
activities. Considering the time required to complete the planning, 
environmental reviews, permitting, preliminary and final designs, land 
acquisition, and awarding construction contracts, these projects are 
scheduled to be ready for construction in fiscal year 2013 or early 
fiscal year 2014.
    Question. When will the canal projects and the pump-back project 
authorized by Part III of the Settlement Act be ready for construction?
    Answer. Construction of both projects could begin in fiscal year 
2012. The canal capacity correction project could be ready for 
construction late fiscal year 2011; however, to reduce interruptions in 
water deliveries from the Friant-Kern and Madera canals and resulting 
impacts to water users, this project needs to be constructed in the 
winter when the canal is typically dewatered. Therefore, this project 
would not be ready for construction until fiscal year 2012. The pump-
back project could also initiate construction in late fiscal year 2011; 
however, as it currently stands, it will be challenging to make the 
findings required in section 10203 of Public Law 111-11 if this project 
is funded with monies from the SJR Restoration Fund.
    Question. How can these projects be expedited without impacting 
other Settlement activities?
    Answer. Given the requirements of Public Law 111-11, the National 
Environmental Policy Act, the Endangered Species Act, and other Federal 
laws that must be complied with, it is unlikely that either of the 
projects could initiate construction sooner than fiscal year 2012. To 
expedite the initiation of the pump-back project and the completion of 
the capacity correction project without impacting other Settlement 
activities, a sufficient amount of Federal appropriated funding for the 
other Settlement activities would be required.
    Question. Could time and money be saved if non-Federal authorities 
assumed responsibility for carrying out the projects through a 
cooperative agreement with the Department?
    Answer. The initial requirements called for in Public Law 111-11, 
the National Environmental Policy Act, the Endangered Species Act, and 
other Federal laws would still need to be completed and approved by 
Reclamation, so it is unlikely that the construction schedule could be 
expedited. It is possible that some time could be saved if non-Federal 
authorities assumed responsibility for carrying out the final design 
and construction of these projects through a cooperative agreement with 
Reclamation. In general, these non-Federal authorities are able to 
conduct more expedited contracting efforts which would result in a time 
savings for the projects. However, it is unclear if money can be saved 
as it is likely that both Reclamation and the non-Federal authority 
would contract the work to an outside private entity.
    Question. What is the status of guidelines for implementation of 
the cost-shared groundwater program authorized in Part III?
    Answer. Consistent with section 10202(c) of part III of subtitle A 
of title X of Public Law 111-11, Reclamation released the public review 
draft of the part III Guidelines for the Application of Criteria for 
Financial Assistance for Local Projects (Guidelines) on March 29, 2010. 
The Guidelines were available for a 60-day public review period. 
Reclamation anticipates releasing final Guidelines in late summer 2010.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
                             quagga mussels
    Question. In fiscal year 2010 we provided funding for Reclamation 
to establish a Quagga Mussel R&D program to determine ways to deal with 
this invasive species. What is the status of this effort?
    Answer. Reclamation has a very active Research and Development 
program underway, working with all of the western States and several 
other Federal and local agencies, developing and testing several 
methods for early detection of mussels, deterrence of mussel 
attachment, removal of mussels, or killing of mussels in situ. Methods 
being tested include high-capacity filters, ultraviolet light, pulsed-
pressure systems, bacterial by-product derived from Pseudomonas 
fluorescens, foul-resistant and foul-release coatings, high and low pH 
modulation, and predatory fish. Emphasis is placed on methods that are 
environmentally friendly and do not require costly permitting for use 
in open water systems. Reclamation is also developing a research plan 
in conjunction with the United States Geological Survey (USGS) and the 
Pacific States Marine Fisheries Commission to test multiple untested 
new and existing methods for cleaning mussels from recreational boats.
    Beginning in 2009 and continuing in 2010, Reclamation applied ARRA 
funds to test approximately 200 reservoirs and other water bodies in 
the West for the earliest possible detection of mussel larvae. This 
program is coordinated closely with all of the western States. Results 
are reported to each of the States and to the associated Reclamation 
operating offices. This careful monitoring will provide the greatest 
lead time (up to 5 years) to plan, budget, and implement facility 
protection strategies if larvae are detected in a reservoir, before the 
infestation creates substantial problems for operation of our 
facilities.
    Reclamation recently briefed the Metropolitan Water District of 
Southern California, the Water Research Foundation, and the USGS on 
current research and discussed new avenues for collaboration. 
Reclamation is also hosting the 2010 International Conference on 
Aquatic Invasive Species in August, with a primary focus on invasive 
quagga and zebra mussels in the western United States.
    Question. How much funding is included in Reclamation's budget to 
address the control of quagga mussels?
    Answer. Reclamation does not have a line item for addressing quagga 
mussels. Approximately $1.5 million is allocated within the Science and 
Technology line item to support development and testing at several of 
our lower Colorado River dams that are already impacted by quagga 
mussels. Approximately $200,000 is included annually in each region's 
O&M budget to support prevention, development of response plans, 
facility vulnerability assessments, public outreach and education, and 
coordination efforts with other agencies, stakeholders, and interested 
organizations.
    Question. What are the estimated costs to Reclamation to deal with 
quagga mussels at Reclamation projects?
    Answer. Apart from basic monitoring and outreach, the only Region 
expending significant funds on retrofitting facilities for control, 
management, and protection against mussels is the Lower Colorado 
Region, which has been dealing with invasive quagga mussels in Lakes 
Mead, Mohave, and Havasu since 2008. The table below provides a general 
summary of Reclamation-wide costs associated with planning, prevention, 
and mitigation for invasive quagga mussels to date. Reclamation is 
monitoring more than 100 of its high-risk reservoirs for early presence 
of quagga mussel larvae. However, it is not possible at this time to 
forecast how quickly the infestation will spread and, therefore, what 
the longer term costs will be for prevention and mitigation.

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year                     Fiscal Year     Fiscal Year
      Reclamation Costs and Budget for Quagga/Zebra Mussels         2008 Actual     2008 Direct    2009 Enacted     2009 Direct    ARRA Funding    2010 Enacted     2010 Direct        Total
                                                                   Appropriated      Fund \1\         Approp.          Fund                           Approp.          Fund
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prevention......................................................         $72,750          $1,828        $160,947         $25,804  ..............        $458,000         $50,000        $769,329
Early Detection/Rapid Response..................................         114,550          10,000         104,056          59,458      $4,500,000         478,000         100,000       5,366,064
Control and Management..........................................         109,506         220,000         279,629         267,000  ..............         510,000         305,000       1,691,135
Research........................................................         927,390          23,090       1,093,000  ..............  ..............       1,490,000  ..............       3,533,480
Education and Outreach..........................................         262,001           1,158         403,208          22,142  ..............         521,940          20,000       1,230,449
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Subtotal..................................................       1,486,197         256,076       2,040,840         374,404       4,500,000       3,457,940         475,000  ..............
                                                                 ===============================================================================================================================
      Total.....................................................             1,742,273
                                                                             2,415,244                 4,500,000             3,932,940                12,590,457
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Direct Funding includes all funds and services provided by Reclamation customers, including power revenues, in-kind services, cost share contributions and direct or contributed funds.

                 quagga and zebra mussels costs/budgets
Category Key
    Prevention.--This includes specific prevention measures such as the 
preparation of facility assessment plans, boat/equipment inspection/
cleaning, and related training. Early Detection and Rapid Response: 
This includes monitoring of invasive species that are beginning to 
appear, and quick coordinated responses, including the development of 
plans to destroy or contain invasive species before they become too 
widespread.
    Control and Management.--This includes actions taken to control, 
limit, or reduce the impact of zebra and quagga mussels on water system 
function. Control methods are generally categorized under four topics: 
biological control, chemical control, cultural control, and mechanical 
control
    Research.--This includes efforts to identify, develop, demonstrate, 
and implement (on a pilot or small-scale basis) conventional and 
promising new strategies and technologies to protect facilities from 
zebra and quagga mussels that which have potentially broad application 
for water and power infrastructure.
    Education and Outreach.--This includes education and outreach 
programs to make the public aware that their actions can result in the 
introduction and spread of quagga and zebra mussels. Some examples 
include posting or distribution of signs, posters, and handouts in 
public recreation sites, or sponsoring public workshops and training. 
This also includes participation and leadership in regional, national, 
and international professional efforts to review and share knowledge on 
efforts to prevent, detect, and conduct research on quagga and zebra 
mussels.
                 desalination research and development
    Question. What research and development plans does Reclamation have 
for the Brackish Groundwater National Desalination Research Facility in 
2011?
    Answer. In general, the work at this facility focuses on resolving 
environmental issues and reducing the cost of treating inland brackish 
groundwater. Emphasis is being placed on the testing of technologies 
for the pretreatment and treatment of brackish groundwater, and 
disposal of concentrate, with special emphasis on the use of renewable 
energy to drive such processes.
    Research funds for the Brackish Groundwater National Desalination 
Research Facility (Facility) were transferred to New Mexico State 
University (NMSU) in fiscal year 2008 ($3.365 million) and fiscal year 
2009 ($2.0 million). In fiscal year 2010, NMSU developed the program 
for research at or associated with the Facility with requests for 
competitive, merit reviewed proposals to be advertised in late fiscal 
year 2010 and fiscal year 2011. Reclamation is advertising a fiscal 
year 2010 funding opportunity announcement for $1.0 million for a 
project in which at least one pilot plant will be carried out at the 
Facility and much of the research will lead to pilot projects that will 
be constructed and/or conducted at the Facility. For fiscal year 2011, 
Reclamation has requested $1.6 million for O&M of the Facility, and 
$2.066 million for research on advanced water treatment technologies, 
some of which will occur at the facility.
    To date, research at the Facility has included work with NMSU, 
General Electric, Sandia National Laboratories, University of Texas at 
El Paso, Colorado School of Mines, Veolia Water, and Ohio University. 
Funding for this research comes from a number of sources including 
Department of Defense (Army and Navy), Department of Energy, State of 
New Mexico, State of Texas, as well as the Bureau of Reclamation. 
Several other projects are in the discussion stages including renewable 
energy driven processes, innovative energy recovery systems, new 
desalination processes, and a partnership with the city of Alamogordo 
New Mexico, a major private sector company, and a local university.
    The Facility provides all the required resources for researchers 
working with desalination systems, concentrate management issues, 
renewable energy/desalination hybrids, and small and rural systems.
    Question. Will the fiscal year 2011 funding budgeted allow for 
meaningful research at the facility?
    Answer. Historically, Reclamation has ensured that research 
appropriations produce the highest quality products by defining the 
research objectives to address the highest-priority questions, and 
funding research through an open, competitive, peer reviewed process. 
These have been the administration's standards for research 
administration.
    This approach will be used to define and guide research priorities 
at the Facility for those appropriations that Reclamation controls. The 
amounts requested in the President's fiscal year 2011 budget are 
sufficient to undertake the important work of advancing the treatment 
of brackish groundwaters.
    Reclamation's ability to ensure meaningful research is limited to 
the extent that the funds appropriated for this research are earmarked 
without an open, competitive process.
    Question. What other advanced water treatment options are showing 
promise for impaired groundwater?
    Answer. Many technologies exist to treat a range of brackish 
waters. Reclamation focuses its research on technologies that may 
represent a significant breakthrough in either cost reduction or 
effectiveness of treatment. Currently, two of the most promising 
technologies that Reclamation is developing are: (1) a truly chlorine-
resistant thin-film composite reverse osmosis membrane that will allow 
pre-treatment with chlorine to prevent biofouling without the 
degradation of the membrane, and (2) a more efficient cellulose-
triacetate membrane that is naturally chlorine resistant. Both 
technologies will likely be tested at the Facility.
    In addition, Reclamation is exploring potential options with other 
Government agencies, universities, non-profits, and the private sector. 
Not only are there new membrane formulations being created and tested 
by Reclamation and others, innovative work is continuing on the 
development of cost effective concentrate disposal, reduced energy 
consumption/lower CO<INF>2</INF> footprint/renewables, reduced fouling/
pretreatment, and alternative desalination technologies such as forward 
osmosis, membrane distillation, electrodialysis, capacitive 
deionization, thermal technologies and others.
    Question. Do you see any potential for Reclamation becoming 
involved in the construction of desalination plants?
    Answer. Reclamation was involved in the design and construction of 
the world's first large-scale reverse osmosis desalination plant in the 
1970s and 1980s, the Yuma Desalting Plant. The YDP applied innovations 
developed by the old Office of Water Research and Technology on a very 
large scale. Since then, a number of brackish desalination projects 
have received construction funding through the Water Reuse Program.
    Given the very large global industry around design and construction 
of desalination plants, there does not appear to be a need for 
Reclamation to enter into this business. However, Reclamation may be 
able to play a role in providing designs or reviewing designs for 
systems that are not a focus of the mainstream design and construction 
industry. Potential examples include small scale plants that are part 
of a Reclamation Rural Water project, applications on tribal lands, and 
applications that are otherwise integrated with Reclamation projects.
    Question. Why?
    Answer. Historically, Reclamation has focused upon research and 
development of advanced water treatment technologies up through pilot 
scale testing and demonstration, and moving those technological 
advances to the private sector for commercialization.
                             miscellaneous
    Question. You have only budgeted about $380,000 for drought 
assistance in fiscal year 2011. Is that funding sufficient to address 
the drought issues that are anticipated next year?
    Answer. Reclamation has many important programs that need to be 
funded, and has made its best effort to develop a budget that 
adequately balances the competing needs for these different programs.
    Because Reclamation prepares its budget 2 years in advance, we are 
unable to forecast emergency needs for drought. However, we make every 
effort to address the greatest need with the funds available.
    In addition to the Drought Program, Reclamation also addresses 
competing demands for finite water supplies through WaterSMART, which 
includes funding for the title XVI, WaterSMART Grants, and Basin 
Studies.
    Question. What is the drought outlook for the West in 2011?
    Answer. Precipitation outlooks are generally unreliable beyond 3 
months. Because Reclamation does not forecast weather or drought 
conditions, we rely on the information provided by other agencies that 
focus on weather, including the National Oceanic and Atmospheric 
Administration's Climate Prediction Center (http://www.cpc.noaa.gov), 
and the Drought Monitor, managed by the National Drought Mitigation 
Center (http://www.drought.unl.edu/dm/monitor.html).
    Question. In particular which areas are anticipated to experience 
the biggest impacts?
    Answer. According to the National Oceanic and Atmospheric 
Administration's Climate Prediction Center, drought conditions through 
June 2010 are forecast to persist in the Pacific Northwest and northern 
Rockies due to low snowpack and above-average temperatures. In 
addition, the El Nino winter has expanded drought conditions in the 
Hawaiian Islands.
                         rural water authority
    Question. Can you update us on the status of the Rural Water 
Program?
    Answer. We began accepting applications for funding under the new 
Rural Water Program in the summer of 2010. Currently, Reclamation is in 
the process of finalizing internal directives (Directives and 
Standards) describing key aspects of program implementation, including 
the required content of appraisal investigations and feasibility 
studies as well as the process for approving those studies. Reclamation 
published the Directives and Standards for the Rural Water Program in 
July 2010, and plans to post a Funding Opportunity Announcement on 
grants.gov for the program in May 2010. Reclamation received 21 
proposals totaling $5.4 million in Federal funding request.
    Question. We have appropriated more than $3 million for the Rural 
Water program over the last 2 years, and yet no studies have been 
started. Will any studies for rural water systems be initiated this 
year with the $2.7 million requested?
    Answer. Rural water studies will be initiated this year. 
Reclamation expects to post a funding opportunity announcement on 
grants.gov in May 2010 and anticipates selecting studies for funding in 
late August. After the funding opportunity announcement is posted, 
project sponsors will also have the opportunity to submit an appraisal 
investigation or a feasibility study previously conducted without any 
financial or technical support from Reclamation. Reclamation will 
review these independent study submittals for eligibility and technical 
adequacy and will prepare the appraisal or feasibility reports for 
independent studies determined to be eligible for inclusion in the 
program, technically adequate, and conforming to Reclamation standards. 
Reclamation expects to receive at least six independent study 
submissions this year.
                                 cupca
    Question. The budget for CUPCA is up $1 million when compared to 
fiscal year 2010. Is this funding level sufficient to continue to make 
progress on this critical project?
    Answer. The fiscal year 2011 budget request together with funding 
from the American Recovery and Reinvestment Act of 2009 and the fiscal 
year 2010 appropriation will allow the CUPCA program to continue making 
sufficient progress.
    Question. What is your total funding capability for CUPCA in fiscal 
year 2011?
    Answer. Although there is always additional funding capability, the 
fiscal year 2011 budget request represents a prudent and manageable 
level of capability.
    Question. What would this additional capability accomplish?
    Answer. Additional capability would accelerate current projects.

                          SUBCOMMITTEE RECESS

    Senator Tester. I want to thank you all for coming today. I 
appreciate your service, and I appreciate the work you have to 
do. It's a tough job. Thank you.
    The subcommittee is recessed.
    [Whereupon, at 11 a.m., Thursday, March 11, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
